<html>
<title> - OVERSIGHT HEARING ON HEALTHY OCEANS AND HEALTHY ECONOMIES: THE STATE OF OUR OCEANS IN THE 21st CENTURY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 HEALTHY OCEANS AND HEALTHY ECONOMIES: THE STATE OF OUR OCEANS IN THE 
                             21st CENTURY

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

              SUBCOMMITTEE ON WATER, OCEANS, AND WILDLIFE

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       Thursday, February 7, 2019

                               __________

                            Serial No. 116-2

                               __________

       Printed for the use of the Committee on Natural Resources
       
       

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
34-955 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3b5c4b547b584e484f535e574b1558545615">[email&#160;protected]</a>                         
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Vacancy
Vacancy
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                                 ------                                

              SUBCOMMITTEE ON WATER, OCEANS, AND WILDLIFE

                        JARED HUFFMAN, CA, Chair
             TOM McCLINTOCK, CA, Ranking Republican Member

Grace F. Napolitano, CA              Doug Lamborn, CO
Jim Costa, CA                        Robert J. Wittman, VA
Gregorio Kilili Camacho Sablan,      Garret Graves, LA
    CNMI                             Jody B. Hice, GA
Jefferson Van Drew, NJ               Aumua Amata Coleman Radewagen, AS
Nydia M. Velazquez, NY               Daniel Webster, FL
Anthony G. Brown, MD                 Mike Johnson, LA
Ed Case, HI                          Jenniffer Gonzalez-Colon, PR
Alan S. Lowenthal, CA                Russ Fulcher, ID
TJ Cox, CA                           Rob Bishop, UT, ex officio
Joe Neguse, CO
Mike Levin, CA
Joe Cunningham, SC
Raul M. Grijalva, AZ, ex officio

                              ----------
                              
                               CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, February 7, 2019.......................     1

Statement of Members:
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona, prepared statement of....................    74
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Bronk, Deborah, President and CEO, Bigelow Laboratory for 
      Ocean Sciences, East Boothbay, Maine.......................    23
        Prepared statement of....................................    25
    Browner, Carol, Former Administrator of the Environmental 
      Protection Agency, Washington, DC..........................    11
        Prepared statement of....................................    12
    Casoni, Beth, Executive Director, Massachusetts Lobstermen's 
      Association, Scituate, Massachusetts.......................    14
        Prepared statement of....................................    16
    Chalk, Angela, Executive Director, Healthy Community 
      Services, New Orleans, Louisiana...........................    19
        Prepared statement of....................................    20
    Dayaratna, Kevin, Senior Statistician and Research 
      Programmer, Institute for Economic Freedom, The Heritage 
      Foundation, Washington, DC.................................    43
        Prepared statement of....................................    45
    Goodwine, Queen Quet Marquetta L., Chieftess and Head-of-
      State of the Gullah/Geechee Nation, St. Helena Island, 
      South Carolina.............................................     7
        Prepared statement of....................................     9
    Legates, David R., Professor of Climatology, University of 
      Delaware, Newark, Delaware.................................    33
        Prepared statement of....................................    35

Additional Materials Submitted for the Record:
    Conservation International, Dawson J. Hunter, Senior 
      Director, U.S. Government Policy, February 19, 2019 Letter 
      to Reps. Huffman and McClintock............................    74
    List of documents submitted for the record retained in the 
      Committee's official files.................................    82
    Ocean Conservancy, Janis Searles Jones, CEO, February 7, 2019 
      Letter to Reps. Huffman and McClintock.....................    76
                                     


 
OVERSIGHT HEARING ON HEALTHY OCEANS AND HEALTHY ECONOMIES: THE STATE OF 
                     OUR OCEANS IN THE 21st CENTURY

                              ----------                              


                       Thursday, February 7, 2019

                     U.S. House of Representatives

              Subcommittee on Water, Oceans, and Wildlife

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              


    The Subcommittee met, pursuant to notice, at 3:20 p.m., in 
room 1324, Longworth House Office Building, Hon. Jared Huffman 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Huffman, Costa, Van Drew, 
Velazquez, Case, Lowenthal, Levin, Cox, Cunningham, Grijalva 
(ex officio), McClintock, Lamborn, Graves, and Bishop (ex 
officio).

    Mr. Huffman. Good afternoon, everyone. The Subcommittee on 
Water, Oceans, and Wildlife will come to order.
    The Subcommittee is meeting today to hear testimony on 
``Healthy Oceans and Healthy Economies: The State of Our Oceans 
in the 21st Century.''
    Under Committee Rule 4(f), any oral opening statements at 
this hearing will be limited to the Chairman, the Ranking 
Member, the Vice Chair, and the Vice Ranking Member. This 
allows us to hear from our witnesses sooner and helps keep 
Members on schedule.
    Therefore, I ask unanimous consent that all Members' 
opening statements be made part of the hearing record if they 
are submitted to the Clerk by 5 p.m. today or the close of 
hearing, whichever comes first.

    Hearing no objection, it is so ordered.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Good afternoon. I want to take this 
opportunity to welcome everyone to the Water, Oceans, and 
Wildlife Subcommittee hearing, our first hearing of the year.
    And, yes, the acronym for this Subcommittee is ``WOW.'' I 
think that is appropriate when you consider the broad 
jurisdiction we have and the makeup of this Subcommittee, which 
includes several returning Members and quite a few new Members. 
I look forward to working with every one of you.
    I am excited to chair this Subcommittee because our 
jurisdiction encompasses so many issues that I care deeply 
about, many of which I have spent most of my career working on. 
That includes water supply, protecting habitats and wildlife, 
managing coastal and marine environments and fisheries, and 
sportsmen's issues, just to name a few. These are critically 
important things.
    And I am looking forward to working with our new Ranking 
Member, Mr. McClintock--congratulations, Tom--to find a fresh 
start at finding common-sense, scientifically-based solutions 
to the challenges and opportunities we will confront.
    I have thought a lot over the past 6 years in Congress 
about things that I would try to do differently if I ever got a 
chance to hold one of these. And I know that I am just one 
person in a big institution that is somewhat ossified, but I 
want to try some new things here at the WOW in this Congress.
    First, as complex and challenging as these resource issues 
can be, I want to challenge the assumption that our job is 
simply to fight about them. Frankly, it is one of the things 
that has frustrated me the most over the past 6 years, not that 
we have differences--we obviously have differences--but, 
somewhere along the line, people stopped trying to find 
consensus on tough issues. They stopped even trying to develop 
a common understanding of the baseline facts and science before 
jumping right into the partisan fights. And, for the most part, 
they even stopped trying to make policy in an open, 
deliberative, and inclusive way that should follow from that 
work to develop a common baseline of facts and science.
    I know that this place has been hardwired for partisan 
combat for a long time. We may not always succeed, but I am 
going to at least try to do all those things as the Chair of 
this Subcommittee.
    And toward that end, I have already begun reaching out to 
every member of this Subcommittee of both parties. I want to 
sit down and get to know each other and think about things that 
we might be able to collaborate on.
    I consider myself Chair of the whole Subcommittee, not just 
Members from my party. And that means that if any Member has a 
good idea, I want to encourage it. If any Member proposes 
something I don't support, I am not just going to say ``no.'' I 
will try to work with you and see if there are creative ways to 
get to ``yes.'' I would love to see every member of this 
Subcommittee move at least something forward with bipartisan 
support. And I hope you will consider my staff and I to be 
resources if you want to do that kind of work.
    Another change I am hoping to implement involves the 
witnesses we invite to hearings. I have spoken to Ranking 
Member McClintock about this and directed my staff to take 
suggestions from all Members, reach across the aisle, so that 
instead of always having only Democratic and Republican 
witnesses, we can include at least one joint witness whenever 
that is possible.
    We are going to be busy in this Subcommittee. In addition 
to resetting the factual and scientific baseline on big issues, 
we need to bring a lot of new Members up to speed. And that is 
why we are holding a series of informational and oversight 
hearings that I informally refer to as WOW 101. Today is the 
first of these, and we are focusing on the health of our 
oceans.
    By the way, another change I am promising involves the 
titles of our hearings. I have seen too many hearings with 
inflammatory titles that read like angry, partisan ransom 
notes. When the very title of your hearing tees up a partisan 
fight, it is hard to work together. So, we are going to be a 
little less inflammatory and substantive and accurate in our 
hearings for these titles.
    Today, we are focused on oceans and coastal communities 
that depend on them, which is a big deal no matter where you 
live. If you are part of the 40 percent of the United States 
living in coastal shoreline counties, you probably already get 
it. These communities depend on ocean-related industries like 
fisheries, tourism, and shipping. Businesses and jobs directly 
dependent on oceans and Great Lakes resources contribute $352 
billion to our GDP in this country. They employ over 3 million 
Americans. But even if you live far from the coast, the health 
of oceans should matter to you. It affects the air we breathe, 
it affects the food we eat, and the livability of our climate.
    As we will hear today, things are not going so well for our 
oceans and coastal communities. Major threats include ocean 
acidification, increased frequency and intensity of storms, 
vanishing polar ice caps, melting permafrost, pollution, 
overfishing, sea-level rise, harmful algal blooms. The list 
goes on.
    This hearing isn't specifically to tee up a fight about 
climate change--I do want to underscore that--but you can't 
have a serious conversation about the health of our oceans and 
coastal communities without acknowledging the growing impacts 
of climate change. And we will hear more about that from 
experts today.
    Of the 23 members on this Subcommittee, well over half 
represent districts that are at least close to the shore. Those 
of us representing those type of districts are seeing the 
impacts already firsthand. But it is important to note that 
every district in this country benefits from oceans and every 
district is impacted by their failing health.

    [The prepared statement of Mr. Huffman follows:]
 Prepared Statement of the Hon. Jared Huffman, Chair, Subcommittee on 
                      Water, Oceans, and Wildlife
    Good afternoon. First, I would like to take this opportunity to 
welcome everyone to the first Water, Oceans, and Wildlife Subcommittee 
hearing this year. We have several returning members and quite a few 
new members on the Subcommittee. I look forward to working with each 
one of you.
    The jurisdiction of this Subcommittee is broad, and includes 
managing, developing, and protecting America's water supply, protecting 
habitats and wildlife, managing coastal and marine environments and 
fisheries, and sportsmen's issues, to name a few. These issues are 
critically important, and I welcome the ability of this Subcommittee in 
this new Congress to identify challenges and work to build common-
sense, scientifically-based solutions. That means this Subcommittee is 
going to be very busy.
    While many of these issues are complicated, I'm asking all of you 
to roll up your sleeves and work together to develop real solutions, so 
that Americans can continue to sustainably use and enjoy our water, 
oceans, and wildlife for years to come. As Chairman, my goal is to 
start with the facts and address these challenges head on.
    In that vein, the focus of today's hearing is the health of our 
oceans and the coastal communities that depend on them. More than 40 
percent of the U.S. population lives in coastal shoreline counties. 
These communities depend on ocean-related industries like fisheries, 
tourism, and shipping. Businesses and jobs directly dependent on ocean 
and Great Lakes resources contribute $352 billion to the United States 
Gross Domestic Product annually and employ over 3.1 million Americans. 
And no matter where you live in this country, we all depend on the 
ocean for the air we breathe and for regulating our climate. We need to 
keep our oceans healthy to ensure our economies, communities, and 
planet stay healthy too.
    But, our oceans and coasts are facing an increasing number of 
threats, including ocean acidification, increased frequency and 
intensity of storms, vanishing polar ice caps, melting permafrost, 
pollution, overfishing, sea level rise, harmful algal blooms, shifting 
water temperatures, coral reef die offs, and massive flooding. These 
threats are only exacerbated by climate change. Of the 23 members on 
this Subcommittee, well over half of us represent coastal districts or 
districts close to the shore. Those of us representing coastal 
districts are seeing the impacts firsthand, but it's important to note 
that every district in the country benefits from America's oceans--and 
every district is impacted by their failing health.
    In my district, commercial and tribal salmon fisheries are 
suffering due to severe drought and warming waters, dealing a multi-
million dollar blow to our salmon fishermen and harming tribal 
communities, year after year. And because of massive algal blooms 
caused by warming ocean temperatures, the dungeness crab fishery lost 
$110 million in revenue during the 2015-2016 season. Although NOAA 
later declared that season a fishery disaster and Congress has 
appropriated disaster funds, our fishermen have yet to see a single 
dollar in Federal assistance because of holdups at the Department of 
Commerce as well as the impacts of the government shutdown.
    Warmer oceans have also led to a quietly escalating crisis in the 
kelp forests along California's coast. Explosions of purple sea urchin 
populations, starving abalone, melting sea stars, and barren underwater 
seascapes where there was once a lush kelp forest--all of this is 
upending a critical coastal ecosystem and having ripple effects on 
fisheries, wildlife, and communities along the North Coast.
    These are just a few examples of climate change impacts that are 
happening now, in my district. I don't have time to mention the other 
ocean impacts, from acidification to sea level rise, but the point is 
that now is the time to do something. Our constituents deserve action.
    It is important to note that while our oceans are at increasing 
risk from the impacts of climate change, oceans can also be part of the 
solution. By comprehensively protecting ocean ecosystems, we will also 
strengthen a key tool to mitigate carbon emissions, naturally protect 
vulnerable coastlines, and keep fisheries sustainable in the face of a 
changing environment.
    I am looking forward to hearing from an esteemed panel of experts 
and community leaders on these topics. We have a lot to learn from 
them. We will be hearing from a former EPA administrator, a leading 
scientist in her field, a representative from the fishing community, a 
leader fighting for the public health of her community, and a Chieftess 
of a historic coastal African-American community that is already facing 
the effects of climate change.
    This Subcommittee is going to hit the ground running. Ocean health 
is critical for people and the planet, and it's time to prepare and 
adapt our coasts for the future that has already arrived. I look 
forward to all the important legislation that will pass through this 
Subcommittee this Congress, and I'm excited to hear from this 
incredible panel of witnesses.

                                 ______
                                 

    Mr. Huffman. So, with that, I want to invite my Ranking 
Member to say a few remarks, and then we will welcome and 
introduce the witnesses.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. Thank you, Mr. Chairman. And we, too, look 
forward to searching for common ground. In fact, I have a 
number of proposals I will share in a few moments to explore 
that search.
    Abraham Lincoln told the story of once boarding with the 
family of a Presbyterian minister on the night of the greatest 
meteor shower ever recorded in North America. He was awakened 
by the minister, who shouted, ``Arise, Abraham, for the heavens 
are falling and the day of judgment has arrived.'' But Lincoln 
noticed that, despite all the hysteria around him and the chaos 
above him, he could still see the familiar constellations fixed 
in the sky, and he knew the world was not about to end.
    No one denies that our planet is warming, carbon dioxide 
levels are increasing, and ocean levels are rising. But before 
we run screaming into the night, let's also do a quick reality 
check: the sky isn't falling.
    Warming is nothing new. Our planet has been warming on and 
off since the last Ice Age. There have been periods within both 
human history and throughout paleo history when scientists tell 
us temperatures were much warmer than they are today.
    Science tells us that carbon dioxide levels have varied 
widely throughout the planet's history, when they have been 
many times higher than they are today.
    Science tells us that at the end of the last Ice Age ocean 
levels were 400 feet lower than they are today. And, as we will 
hear, the current rise has been steady, small, and doesn't 
correlate to increases in carbon dioxide levels.
    Hurricane activity is much lower than that recorded in the 
18th century.
    And despite what we are told, there is a vigorous debate 
within the scientific community over how human activity 
compares with the vastly more powerful natural influencers that 
have driven dramatic climate change for 4\1/2\ billion years.
    As Chicken Little belatedly discovered, there is a big 
difference between an acorn and the sky.
    So, we welcome a civil and open debate on these issues. And 
for that reason, we are pleased to have with us Professor David 
Legates from the University of Delaware, a pre-eminent 
climatologist who has served as its Director of the Center for 
Climatic Research and as Delaware's State Climatologist.
    Science thrives on civil and dispassionate debate. When 
someone tells you the debate is over, that dissent should be 
forbidden, and dissenters should be personally attacked, that 
is not a scientist talking; that is a politician.
    We also need to consider the enormous cost that the left 
would impose on each of our families in pursuit of its Green 
New Deal. We already have a taste of these policies in 
California, where carbon taxes have produced among the highest 
electricity and gasoline prices in the United States.
    We are also pleased to have on the panel Dr. Kevin 
Dayaratna to discuss these issues. He is the Senior 
Statistician for The Heritage Foundation's Center for Data 
Analysis and holds a Ph.D. in mathematical statistics and two 
master's degrees, in business and management and mathematical 
statistics.
    This discussion also offers us the opportunity to find 
common ground. Now, there are many ways to reduce carbon 
dioxide emissions without destroying the lives of working 
families and producing the kind of reaction that we now see on 
the streets of Paris. We have discussed these opportunities at 
great length over the last 8 years.
    For example, if we need to generate power without carbon, 
doesn't it make sense to build new nuclear power plants and 
hydroelectric dams that produce electricity with no air 
emissions at far lower costs and with far smaller footprints 
than wind and solar?
    If temperatures are rising and we can store less winter 
moisture in the mountains of snow, doesn't it make more sense 
to build more reservoirs to save that water rather than lose it 
to the ocean?
    If oceans are rising, doesn't it make sense to phase out 
flood insurance subsidies that encourage people to build in 
flood plains by hiding their risk?
    Last year's wildfires pumped 290 million metric tons of 
carbon dioxide into the atmosphere, making a mockery of our 
carbon dioxide restrictions. Doesn't it make sense to harvest 
excess timber before it can choke off the forest and burn? 
Doesn't it make sense to manage our forests, to match the tree 
density to the ability of the land to support it? Doesn't it 
make sense to space trees so that snow isn't trapped in dense 
canopies to evaporate before it can reach the ground?
    These are desirable policies in their own right, and they 
serve the Democrats' desire to reduce carbon emissions. I would 
offer them as a way forward and one that should have bipartisan 
support.
    With that, I yield back.

    [The prepared statement of Mr. McClintock follows:]
    Prepared Statement of the Hon. Tom McClintock, Ranking Member, 
              Subcommittee on Water, Oceans, and Wildlife
    Abraham Lincoln told the story of once boarding with the family of 
a Presbyterian minister on the night of the greatest meteor shower ever 
recorded in North America. He was awakened by the minister who shouted, 
``Arise Abraham, for the heavens are falling and the day of judgment 
has arrived.'' But Lincoln noticed that despite the hysteria around him 
and the chaos above him, that he could still see the familiar 
constellations fixed in the sky, and he knew the world was not about to 
end.
    No one denies that our planet is warming; carbon dioxide levels are 
increasing, and ocean levels are rising. But before we run screaming 
into the night, let's also do a quick reality check. The sky isn't 
falling.
    Warming is nothing new: our planet has been warming on and off 
since the last ice age. There have been periods within both recorded 
history and throughout paleo history when scientists tell us 
temperatures were much higher than they are today. Science tells us 
that carbon dioxide levels have varied widely throughout the planet's 
history, when they have been many times higher than today. Science 
tells us that at the end of the last ice age, ocean levels were 400 
feet LOWER than they are today, and as we will hear, the current rise 
has been steady, small, and doesn't correlate to increases in carbon 
dioxide levels. Hurricane activity is much lower than recorded in the 
18th century.
    And despite what we are told, there is a vigorous debate within the 
scientific community over how human activity compares with vastly more 
powerful natural influencers that have driven climate change for 4\1/2\ 
billion years. As Chicken Little belatedly discovered, there is a big 
difference between an acorn and the sky.
    We welcome a civil and open debate on these issues, and for that 
reason are pleased to have with us Professor David Legates of the 
University of Delaware, a pre-eminent climatologist who has served as 
its Director of the Center for Climatic Research and as Delaware State 
Climatologist.
    Science thrives on civil and dispassionate debate. When someone 
tells you the debate is over, that dissent should be forbidden and 
dissenters should be personally attacked--that's not a scientist 
talking--that's a politician.
    We also need to consider the enormous costs that the left would 
impose on each of our families in pursuit of its ``Green New Deal.'' We 
already have a taste of these policies in California, where carbon 
taxes have produced among the highest electricity and gasoline prices 
in the United States. We are also pleased to have on the panel Dr. 
Kevin Dayaratna, to discuss these issues. He is Senior Statistician at 
the Heritage Foundation's Center for Data Analysis and holds a Ph.D. in 
mathematical statistics and two masters' degrees in business and 
management and mathematical statistics.
    This discussion also offers us the opportunity to find common 
ground. There are many ways to reduce carbon dioxide emissions without 
destroying the lives of working families and producing the kind of 
reaction we now see on the streets of Paris. We have discussed these 
opportunities at great length over the last 8 years.
    For example, if we need to generate power without carbon, doesn't 
it make sense to build new nuclear power plants and hydro-electric dams 
that produce electricity at far lower costs and with far smaller 
footprints than wind and solar?
    If temperatures are rising and we can store less winter moisture in 
the mountains as snow, doesn't it make sense to build more reservoirs 
to save that water rather than lose it to the ocean?
    If oceans are rising, doesn't it make sense to phase out flood 
insurance subsidies that encourage people to build in flood plains by 
hiding their risk?
    Last year's wildfires pumped 290 million metric tons of carbon 
dioxide into the atmosphere, making a mockery of carbon dioxide 
restrictions. Doesn't it make sense to harvest excess timber before it 
can choke off the forest and burn? Doesn't it make sense to manage our 
forests to match the tree density to the ability of the land to support 
it? Doesn't it make sense to space trees so that snow isn't trapped in 
dense canopies to evaporate before it can reach the ground?
    These are desirable policies in their own right and they serve the 
Democrats' desire to reduce carbon emissions. I offer them as a way 
forward that should have bipartisan support.

                                 ______
                                 

    Mr. Huffman. Thank you very much.
    Let's move on to the witnesses. Let me remind the witnesses 
that, under our Committee Rules, they should limit their oral 
statements to 5 minutes, that the entire statement will appear 
in the hearing record.
    When you begin, the lights on the witness table are going 
to turn green for you. After 4 minutes, there will be a yellow 
light that comes on. And your time will have expired when the 
red light comes on, and I will ask you at that point to please 
complete your statement.
    I will also allow the entire panel to testify before we 
begin questioning the witnesses.
    I will now introduce the witnesses, and I would like to--
oh, perfect timing. I want to invite my colleague from South 
Carolina to introduce our first witness, if Congressman 
Cunningham is ready.
    Mr. Cunningham. Thank you, Mr. Chairman.
    It is my pleasure to introduce my constituent, Queen Quet 
Marquetta Goodwine, Chieftess of the Gullah/Geechee Nation, a 
culturally distinctive African American group from the low-
country region of Georgia and South Carolina. She founded the 
Gullah/Geechee Sea Island Coalition, the premier advocacy 
organization for the continuation of her nation's culture.
    In 1999, she became the first Gullah to speak before the 
United Nations. Very impressive. That is where she testified at 
a hearing of the Commission of Human Rights.
    Queen Quet is a published author and environmental justice 
advocate. And I am honored to call her a constituent of South 
Carolina's 1st District. Please give a warm welcome.
    Mr. Huffman. Queen Quet, welcome to the Committee.

 STATEMENT OF QUEEN QUET MARQUETTA L. GOODWINE, CHIEFTESS AND 
HEAD-OF-STATE OF THE GULLAH/GEECHEE NATION, ST. HELENA ISLAND, 
                         SOUTH CAROLINA

    Ms. Goodwine. [Speaking native language.]
    So, as I just said to you, thank you so much for having me 
here today. And I said it to you in my native tongue, which is 
the Gullah language, so many people who have said, ``Well, I 
never heard that language before'' obviously have never been to 
this land where I am from.
    We literally live in the Atlantic Ocean, on islands called 
the Sea Islands, from Jacksonville, North Carolina, to 
Jacksonville, Florida. And you will often hear native Gullah/
Geechees say, ``The water that bring we, the water gonna take 
we back.'' And many of you have even sung our songs, the 
spirituals that are my South Carolina State music now, where we 
say that ``God gonna trouble the water. Wade in the water.''
    I am very happy to be able to bring this flow from the Sea 
Islands up the Hill this time so that we can sit together and 
talk about our love of the oceans. Because, of course, for us, 
as Gullah/Geechees, the land is our family and the waterways 
are our bloodline.
    So, it is of great concern and grave concern to us when we 
find that pollutants, poisons, overbuilding, acidification, 
erosion, and all of these things are now compounding as 
elements within the water that is changing the ecology of the 
water.
    So, as someone [speaking native language] out the creek. We 
love to eat seafood, and I am sure all of you who come down 
where we are would love to eat some too. We have seen those 
seafoods changing. We have seen less in certain stocks. We have 
seen where the catfish no longer flow around St. Helena Island.
    So, as a founding member of the Gullah/Geechee Fishing 
Association, these are the things that made us form as a group 
to make sure that our voice is heard in the national 
discussions about what can we do to go ahead and have these 
tides that are rising lift all of our boats together. We make 
the battle boat. You might have a yacht. But trust me, if that 
tide is moving and we are all out there, we are going to flow 
with it or we are going to fight against it.
    And I agree with the Chairman, it shouldn't be about the 
fight. It should be about us being able to sit together, the 
same way we do on our beautiful Sea Islands beneath those oak 
trees, even with a little sweet tea--I know up here you all 
don't put the sugar in until later; we put it in in the 
beginning--so we can have some sweet discussions about this 
powerful element that we as human beings are all made of: 
water.
    So, when we talk about healthy oceans and healthy 
economies, I wanted to make sure that you also realize we have 
to talk about healthy communities. And as I prepared to come 
here, 2 weeks ago, all of a sudden the Creator put the words 
into my mind of an acronym for the ocean. I was to come here to 
ask you to be a part of opening culturally enriched avenues of 
navigation, so that when we talk about the ocean and the sea, 
we are not just talking about the fish, we are not just talking 
about the shrimp, but we are talking about the cultural 
communities that live from these fisheries, that have lived in 
harmony and balance with them for all these generations.
    A Gullah/Geechee proverb says: The big fish [speaking 
native language]. Often we think that the people that are 
higher up in the hierarchy of government are the big fish and 
all the rest of us are little. But I always tell people: a 
school of piranha can definitely fight back together against 
that big old whale.
    So, we know this is a whale of a number of issues, but I am 
sure we can navigate this together in such a way that those 
whales will follow our boat the way our dolphins and porpoises 
do on a beautiful Sea Island day.
    I thank you for the opportunity to be here to engage in 
dialogue with you and to be a part of something that I know is 
definitely a ``wow,'' to have all these women here today to 
say, as mothers of the Earth, that we are here to help nurture 
our oceans.
    Thank you, Honored Chairman, for having me this day right 
here during Black History Month. Yes, thank you all.

    [The prepared statement of Ms. Goodwine follows:]
   Prepared Statement of Queen Quet, Chieftess of the Gullah/Geechee 
                                 Nation
    Peace Chairman Huffman and members of the U.S. Congressional 
Subcommittee on Water, Oceans, and Wildlife!
    On behalf of the citizens of the Gullah/Geechee Nation that exist 
from Jacksonville, NC to Jacksonville, FL and encompasses all of the 
Sea Islands and 30 miles inland to the St. John's River, I say to you 
in my native language--Gullah, ``Tenki Tenki fa disya.'' Thank you very 
much for this opportunity! We greatly appreciate your work on behalf of 
America's great outdoors which we treasure due to the fact that since 
the 1600s our people have lived from the land and the sea in the 
southeast along the Intercoastal Waterway. I personally reside in the 
Atlantic Ocean on a historic Gullah/Geechee island called ``St. 
Helena.''
    My families roots not only stem from St. Helena Island, but also 
Polowana and Dataw Islands. I am a native Gullah/Geechee that grew up 
on and has dedicated my life to the Sea Islands where my mother, 
father, grandparents on both sides, and great grandparents on both 
sides all passed down our cultural traditions. Amongst these traditions 
are not only agriculture, musical and spiritual practices, but also sea 
work traditions. We find the latter in jeopardy due to the state of the 
global environment and this is of great concern to us because there is 
a Gullah/Geechee proverb that we truly believe in--``De wata bring we 
and de wata gwine tek we bak.'' We got here via the water and the water 
taking us back has numerous spiritual and cultural context for us 
because our cultural heritage and continued existence is inextricably 
tied to Sea Island land and the waters that surround and nurture us.
    For Gullah/Geechees, water is sacred. It is not only the place to 
which we are taken to literally learn how to feed our families by 
harvesting the fish, shrimps, clams, oysters, and crabs that so many 
visitors come to eat when they vacation in our area by the hundreds of 
thousands of people per year. It is also the place where we baptize as 
a spiritual ritual and the place upon whose shorelines we bury those 
that pass away into the ancestral realm. We gather sweetgrass for our 
traditional baskets here and used to gather the rush or as we call it 
``sedge'' of the marsh to bring back to higher ground to nourish our 
fields once again.
    Over time, we have felt the pain of the waters as pilings have been 
driven into the shoreline to proliferate private docks and buildings 
that then get damaged and brought down into the water when the 
hurricanes arrive during their season. We have watched the closures of 
oyster beds, the loss of some fish species in certain areas, the 
changes in the types and quantities of shrimp all taking place as 
pollutants ended up in our waterways and flow into the ocean due to 
overbuilding, changes in the climate, and what our scientists now call 
the ``acidification'' of our oceans. We have also stood up to stop this 
pain and prevent its increase by also opposing seismic gun use and 
offshore drilling in our oceans.
    The Gullah/Geechee Sea Island Coalition, the Gullah/Geechee Fishing 
Association, and the Gullah/Geechee Sustainability Think Tank have been 
consistently working together to combat these issues and do what we can 
to mitigate any further harm to this body which has done so much to 
nurture and feed us and our family members for generations. We have 
replanted oyster shells in an effort to increase our viable oyster 
beds. We educate native Gullah/Geechees on how to keep alive our 
traditions and pass them on the future generations given that our 
traditional fishing methods have minimal impacts on the environment. We 
take what is necessary and not more in order to allow the natural 
balance to take place so that there will be more sustenance for the 
next generation. As established in ``Da Land da We: Gullah/Geechee 
Sustainability Report,'' we believe sustainability is ``meeting the 
needs of the present generation without compromising the ability of 
future generations to meet their needs.''
    I work with youths as we look toward methods to combat climate 
change by looking back to the work that my ancestors and elders did in 
order to sustain themselves, our culture, and a healthy environment. I 
reflect on these things whenever I go to the ocean to do environmental 
work or to simply pay homage to my ancestors, many of whose bones rest 
at the bottom of the ocean since they did not make it across during the 
Middle Passage journey that many took to get to North America from 
Africa. I am rejuvenated by the power and beauty of the waters which I 
can still see clearly from shorelines around my beloved St. Helena and 
Hunting Islands in South Carolina. As I stand along the Atlantic shore 
with the salty Sea Island breeze embracing me, I see an

Organism that feeds into other bodies of water including human bodies.
Climate and
Environment are acclimating to what is ultimately ending up in this 
        water and
Affecting the economy and the continuation of coastal cultural heritage 
        and traditions.
Neutralizing the acidification of the oceans so that these bodies will 
        continue to nurture us physical and spiritually needs to be a 
        national priority.

    The flow of the ocean is energizing and the flow of work that it 
takes for us to get to where we need to be in regard to healing the 
waters has to be done by

Opening
Culturally
Enriched
Avenues of
Navigation

    So, I appreciate the opportunity to not only provide you with my 
testimony as a person that was raised on an island in the ocean and to 
provide background on my native Gullah/Geechee culture, but to also 
work directly with you to open these new avenues of navigation so that 
we can travel together via open channels of communication and along 
pristine waters from the oceans to our rivers and streams. As we do so, 
we will have the opportunity to celebrate the rich cultural heritage 
and the wonderful environment that we have been able to sustain along 
the shore together.
    I thank you for taking the time to not only hear and read my 
testimony, but for including it in the record of the work that your 
Committee is doing on behalf of us, our waters and wildlife. I look 
forward to hearing more from you and to engaging in work with you.

                                 ______
                                 

    Mr. Huffman. I think a lot of us want to get down to Mr. 
Cunningham's district now after hearing your testimony.
    Ms. Goodwine. Come on down. We will fry you some fish.
    Mr. Huffman. Our next witness is the Honorable Carol 
Browner, who previously served as the Administrator of the 
Environmental Protection Agency from 1993 to 2001, making her 
the longest-serving EPA Administrator to date.
    She served in the Obama administration as the Director of 
the White House Office of Energy and Climate Change Policy. She 
also served as the U.S. Representative of the Global Ocean 
Commission and is currently Senior Counselor at Albright 
Stoneridge Group.
    The Chair now welcomes and recognizes the Honorable Carol 
Browner.

    STATEMENT OF CAROL BROWNER, FORMER ADMINISTRATOR OF THE 
        ENVIRONMENTAL PROTECTION AGENCY, WASHINGTON, DC

    Ms. Browner. Thank you, Mr. Chairman, and thank you, 
Ranking Member McClintock.
    That was awesome. Thank you.
    Ms. Goodwine. Thank you.
    Ms. Browner. I really do appreciate the opportunity to 
appear before you today to discuss climate pollution.
    As you heard, I spent 8 years running the Environmental 
Protection Agency. I have spent the better part of my 
professional life working to reduce pollution--I am from 
Florida, the Florida Everglades--to the soot and the smog that 
plague our cities and cause asthma attacks in our children, to 
the dangers of toxic chemicals in our communities.
    Throughout, I have relied on science to understand the 
threats, and I have worked with industry to find common-sense, 
cost-effective solutions to these public health challenges, 
including agreements for cleaner, more efficient cars; 
redeveloped brownfields and Superfund sites; and investments in 
clean sources of energy.
    Despite the good work of so many to address the real and 
vexing pollution problems that threaten all Americans, today we 
face the greatest pollution challenge ever: climate change.
    We are already beginning to see the impacts of climate 
change. We are living with more powerful hurricanes, worsening 
drought, melting glaciers, devastating wildfires, and rising 
sea levels.
    And it is not just environmental impacts. Climate change is 
wreaking economic calamity too. Natural disasters cost the 
world $155 billion last year. From 2011 to 2017, extreme 
weather caused $675 billion in economic damages. Hurricane 
Michael and the destruction of Tyndall Air Force Base will cost 
the Air Force over $5 billion to rebuild. Damage from Hurricane 
Florence will cost the Marine Corps roughly $3.7 billion to 
rebuild Camp Lejeune.
    We are not saying that these hurricanes are climate-change-
caused, but hurricanes are certainly being made worse by 
climate change as our seas warm and the temperature of the 
water changes.
    Climate change is also having a measurable negative impact 
on the lifeblood of our planet, our oceans. Our oceans are in 
decline. Why should we care about oceans and climate change? 
Because failing to do so threatens every life on the planet. 
Oceans cover nearly three-quarters of the Earth's surface. They 
produce almost half of all the oxygen we breathe and absorb 
more than a quarter of the carbon dioxide we emit.
    As you heard, I served on the Global Oceans Commission. Our 
final report noted: all life on Earth, including our own 
survival, depends on healthy, vibrant oceans. Billions of us 
rely on it for food, transportation, energy, recreation, and 
livelihoods.
    The science shows us that the oceans have the mechanisms 
and opportunity to heal. That is the good news: that through 
the regenerative role of the high seas, it is possible to 
restore the whole ocean health.
    The Commission called for a regeneration zone, an area free 
from industrial fishing in the high seas; tougher offshore oil 
and gas safety standards; and closing down illegal, unreported, 
and unregulated fishing.
    Here at home, Congress should maintain marine-protected 
areas already designated and support efforts to identify 
additional areas for protection. Through the Antiquities Act 
and the National Marine Sanctuaries, these areas protect 
vulnerable ecosystems and benefit sustainable fisheries.
    Congress should support more funding for coastal and marine 
habitat restoration programs. And Congress should encourage 
monitoring programs that provide essential information to 
coastal communities and ocean-dependent businesses, including 
the Federal Ocean Acidification Research and Monitoring Act, 
the National Estuarine Research Reserves, and the Sea Grant 
Program.
    When it comes to climate change, we have more science than 
we have ever had on any environmental or economic crisis, more 
science than was behind any decision made by EPA to protect our 
air and our water. Waiting will only make it worse.
    In my work, I have known some of the best environmental 
engineers in the country, in the world. There is not a one 
among them that can actually reverse sea-level rise.
    With the new Congress comes a new opportunity to lead and a 
responsibility to act. The scientists are issuing the warnings; 
we are running out of time. You could be our greatest hope to 
reverse the curve of inaction and instead find the solutions 
that will determine our economic and environmental future.
    Now is the time for action that addresses climate change, 
quickens the inevitable transition to clean energy sources, 
protects our oceans and environment for future generations.
    Again, thank you for the opportunity to be with you today.

    [The prepared statement of Ms. Browner follows:]
  Prepared Statement of Carol M Browner, Former Administrator of the 
                    Environmental Protection Agency
    Thank you Mr. Chairman and Ranking Member.

    I appreciate the opportunity to appear before you today to discuss 
climate pollution. I have spent the better part of my professional life 
working to reduce pollution--from the Florida Everglades to the soot 
and smog that plague our cities and cause asthma attacks in our 
children, to the dangers of toxic chemicals in our communities. 
Throughout, I have relied on science to understand the threats and I 
have worked with industry to find common-sense cost-effective solutions 
to these public health challenges, including agreements for cleaner 
more efficient cars, redeveloped brownfields and superfund sites, and 
investments in cleaner sources of energy.
    Despite the good work of so many to address the real and vexing 
pollution problems that threaten all Americans, today we face the 
greatest pollution challenge ever and its impacts--climate change.
    Scientists have been warning for decades that climate change was 
going to have far, wide and expensive economic and health impacts on 
our communities, our country and our world. While we debated the 
problem here in the United States, two things happened: First, our 
international competitors like China outpaced us in innovation that is 
driving a clean energy economy globally. Second: climate change grew 
worse and the impacts on our lives grow more real.
    Yes, we are already beginning to see the impacts of climate change. 
We are living with more powerful hurricanes, worsening drought, melting 
glaciers, devastating wildfires and rising sea levels around the world.
    And it is not just environmental impacts--climate change is 
wreaking economic calamity too.
    Natural disasters cost the world $155 billion last year. From 2011-
2017 extreme weather caused $675 billion in economic damages.
    Forty percent of Americans live in coastal counties. Hurricanes are 
very expensive. As Senator Jack Reed of Rhode Island noted: Hurricane 
Michael and the destruction of Tyndall Air Force Base will cost the Air 
Force over $5 billion to rebuild. Damage from Hurricane Florence will 
cost the Marine Corps roughly $3.7 billion to rebuild Camp Lejeune. 
These superstorms may not have been caused by climate change, but the 
science proves they were made far more intense and more destructive due 
to the elements of climate change, such as warmer water temperatures.
    Climate change is also having a measurable negative impact on the 
lifeblood of our planet--our oceans. Our oceans are in decline. Habitat 
destruction, biodiversity loss, overfishing, pollution, climate change 
are all interconnected and damaging our oceans.
    A recent Science Journal reported a new study that found that 2018 
was the warmest year on record for the global ocean. The U.S. 
government's own National Climate Assessment demonstrates the major 
impacts that warming is having and will have on our oceans and marine 
fisheries.
    Why should we care about oceans and climate change? Because failing 
to do so threatens every life on the planet. Oceans cover nearly three-
quarters of the Earth's surface. Oceans produce almost half of all 
oxygen we breathe and absorb more than a quarter of the carbon dioxide 
we emit. Again, oceans provide nearly 50 percent of the oxygen we need 
to breathe. That alone merits action. As we consider the threats to 
oceans we should also be mindful of the opportunity that oceans present 
to help address the climate challenge.
    I had the opportunity to serve on the Global Ocean Commission--an 
international group of business and political leaders that worked to 
raise awareness and promote action to address the degradation of the 
ocean and help restore it to full health and productivity. As our final 
report noted: All life on Earth, including our own survival, depends on 
healthy, vibrant oceans. Billions of us rely on it for food, 
transportation and energy, recreation and livelihoods.
    The ocean is basically the kidney of our plant--keeping systems 
health and productive.
    We must adopt ``ocean smart policies.''
    The science shows that the oceans have the mechanisms and 
opportunity to heal--that through the regenerative role of the high 
seas--it is possible to restore whole ocean health. To do so will 
require a series of actions--some can begin here at home, others will 
require international cooperation. But all will benefit.
    Specific actions called for by the Commission included the creation 
of a high seas regeneration zone--an area free from industrial fishing; 
tougher offshore oil and gas safety standards; keeping plastics out of 
the ocean and closing down illegal, unreported and unregulated fishing.
    Science shows that marine reserves like those created through the 
Antiquities Act and the National Marine Sanctuaries protect vulnerable 
ecosystems, benefit sustainable fisheries, and provide important 
buffers. Marine reserves can build greater ecological resilience to 
climate by maintaining biodiversity and protecting populations for 
faster recovery after disturbances. Congress should maintain marine 
protected areas already designated and support efforts to identify 
additional areas for protection.
    Coastal ecosystems--particularly marshes, mangroves and sea 
grasses--are important tools in the fight against climate change. They 
serve as carbon sinks and provide protection for coastal communities 
during severe weather events as well as provide food for coastal 
communities. Congress should support more funding for coastal and 
marine habitat restoration programs.
    The Coastal Zone Management Act provides a number of avenues 
through which states and local communities can ensure that access to 
key coastal areas are protected in the face of rising seas.
    Ocean and coastal monitoring programs provide essential information 
to coastal communities and ocean dependent businesses. Congress should 
support implementation of the Federal Ocean Acidification Research and 
Monitoring Act. Congress should also support monitoring of harmful 
algal blooms. And to ensure that this data and information can be used 
to develop actions Congress should continue to support programs such as 
the National Estuarine Research Reserves and the Sea Grant program.
    When it comes to climate change we have more science that we have 
ever had on any environmental and economic crisis. It is time to focus 
on solutions. Waiting will only make the task that much harder. In my 
work I have known some of the best environmental engineers but there is 
not a one among them that can actually reverse sea level rise.
    With a new Congress comes a new opportunity to lead and a new 
opportunity to act. The eyes of the world are on the United States. For 
the past 2 years, this country has abdicated is leadership in the 
global community, especially with regard to solving climate change, the 
most serious environmental and economic challenge of our time. The 
scientists are issuing the warnings. We are running out of time. You 
could be our greatest hope to reverse the curve of inaction and instead 
find the solutions that will determine our economic and environmental 
future. Now is the time for action that addresses climate change, 
quickens the inevitable transition to clean energy sources, and 
protects our oceans and environment for future generations who deserve 
to live in a safe and clean world.

    Thank you.

                                 ______
                                 

    Mr. Huffman. Thank you very much.
    The Chair now recognizes Ms. Casoni, who has served as the 
Executive Director of the Massachusetts Lobstermen's 
Association, the MLA, since 2014 and has worked for the 
Association since 2008.
    The MLA is a member-driven organization that supports the 
interdependence of species conservation and the members' 
collective economic interests.
    Welcome, Ms. Casoni.

  STATEMENT OF BETH CASONI, EXECUTIVE DIRECTOR, MASSACHUSETTS 
       LOBSTERMAN'S ASSOCIATION, SCITUATE, MASSACHUSETTS

    Ms. Casoni. Thank you, Mr. Chairman.
    I grew up in a village section called Brantrock in 
Marshfield, Massachusetts, and I have commercial lobstermen in 
my family. I have been working with the Massachusetts 
Lobstermen's Association since 2008 and have been the Executive 
Director for 5 years now. I have extensive experience on 
committees and boards that involve fishermen. Specifically, I 
am on the Atlantic Large Whale Take Reduction Team and the 
Massachusetts Ocean Commission. As the Executive Director, I am 
actively engaged in the Northeast Regional Ocean Council 
stakeholder processes, the Massachusetts Coastal Zone 
Management, and the Bureau of Ocean and Energy Management 
processes to advocate for commercial fishermen's needs and 
concerns.
    I am here today to give you the perspective of those 
fishermen and outline how climate change is just one of the 
many issues we are facing as we try to operate our businesses.
    Climate change is of concern to the commercial fishing 
industry as a whole. Without a healthy ocean, the many species 
our members harvest to earn a living would cease and many 
coastal communities would fail. For many coastal communities, 
commercial fishing has been a way of life for centuries, and 
impacts to our fishery mean lasting impacts to our communities.
    There are two fundamental ways climate change is impacting 
the lobster industry: warming waters and ocean acidification. 
Warming-water trends are causing lobster stocks to shift, 
impacting fishermen and confounding regulators.
    The Gulf of Maine, for example, is one of the fastest-
warming bodies of water on the planet. In the last century, it 
has warmed faster than 99 percent of the oceans. It has been 
estimated that by 2050 that warming could cut lobster 
population stocks by 62 percent in the Gulf of Maine.
    Lobster stocks are also moving further offshore to deeper 
waters. That makes them more difficult and expensive to reach. 
This added difficulty means that fishermen have to often travel 
further offshore, increasing fuel costs that impact our 
business, as we pursue stocks that were bountiful near shore.
    Lobster is also shifting to the north, with more and more 
of it now in Canadian waters than U.S. waters. This means less 
lobsters are available for our U.S. fishermen. The lack of 
access due to this shift is yet another impact to our 
businesses and coastal communities.
    To make matters even more complicated, fish that eat 
lobster are also moving north. This means more overlap between 
predators in the once-abundant lobster habitat in 
Massachusetts. We are seeing a compounded effect, and all of 
this disrupts the ecosystem and makes it more difficult for our 
lobstermen to earn a living.
    Ocean acidification happens as the ocean absorbs carbon 
from the atmosphere, adds even more harmful impacts and an 
increasing threat for our industry. Juvenile lobsters have a 
harder time growing the shells they need to protect themselves 
from predators due to ocean acidification.
    These threats from climate change are intensified by other 
challenges lobstermen are facing. We do not have the luxury of 
looking for any one of these impacts on its own. All of them 
collectively together are causing declines in the resource, 
hurting our bottom line and our communities.
    Offshore wind is increasing exponentially on the East 
Coast, impacting habitat and ecosystems. We are concerned about 
offshore oil and gas development in the Northeast region. An 
oil spill would be devastating to our resources.
    Ocean acidification and other climate changes are magnified 
by land uses that increase local pollution and runoff, 
including lawn fertilizers. Our fishermen are also removing 
bags of trash every day. They remove balloons, bottles, bags, 
and even fishing gear. And we are committed to helping clean up 
the ocean through our own marine debris beach cleanups.
    In closing, the commercial lobstermen are stewards of the 
sea. We are the first to see the impacts of the environment and 
currently are experiencing the impacts of climate change. The 
concept of climate change is not something abstract to us. Not 
only are we balancing the challenges created by shifting stocks 
but also a myriad of other challenges and impacts facing our 
industry.
    Without a healthy ocean, there would be no commercial 
lobster industry. We no longer have the luxury of ignoring this 
threat to our livelihoods. We are here today asking for action 
from Congress to help the thousands of commercial lobstermen 
and women to mitigate climate change. We are asking that you 
find effective ways to help commercial lobstermen in the 
industry adapt to the changes that are already here and the 
ones that are coming if we do not stop them.
    Thank you for your time today.

    [The prepared statement of Ms. Casoni follows:]
 Prepared Statement of Beth Casoni, Executive Director, Massachusetts 
                        Lobstermen's Association
    I grew up in the village of Brantrock in Marshfield, Massachusetts, 
with commercial lobstermen in my family and have been working at the 
Massachusetts Lobstermen's Association (MLA) since 2008. I have been 
the Executive Director for 5 years now.
    I have extensive experience in committees and boards that involve 
fishermen. Specifically, I am on the Atlantic Large Whale Take 
Reduction Team, the Massachusetts Ocean Commission, the New England 
Fisheries Management Council Herring Advisory Panel, and the Atlantic 
States Marine Fisheries Commission Herring Advisory Panel. As the 
Executive Director, I am actively engaged in the Northeast Regional 
Ocean Council stakeholder processes, Massachusetts Coastal Zone 
Management, the Bureau of Ocean and Energy Management, the 
Massachusetts Fishermen's Advisory Board for offshore wind development, 
and the Massachusetts State Ocean Planning processes to advocate for 
commercial fishermen's needs and concerns. I am here today to give you 
the perspective of those fishermen's concerns and outline how climate 
change is just one of many issues we are facing as we try to operate 
our businesses. Climate change complicates our lives and increases the 
uncertainty in an already complex ocean.
    The Massachusetts Lobstermen's Association is one of the leading, 
self-funded, commercial fishing organizations in New England and is 
member-driven, accepting and supporting the interdependence of species 
conservation and our members' collective economic interests. We were 
established in 1963 by commercial lobstermen and the 1,800 MLA members 
hail from ports in Canada down to Maryland, commercially fishing for a 
multitude of species. We strive to be proactive on the many issues 
affecting the commercial lobster industry and, as I outlined above, are 
actively engaged in fisheries management processes at both the state 
and Federal levels.
    The MLA communicates with its members through a monthly newspaper, 
a weekly e-mail, Facebook, Twitter and attendance at meetings. For the 
past 56 years, the MLA has become a trustworthy voice for the 
commercial lobster industry on important issues, and is looked to by 
both the commercial lobster industry and the management community alike 
for guidance on the needs and challenges of our industry.
    Climate change is of concern to the commercial fishing industry as 
a whole. Without a healthy ocean, the many species our members harvest 
to earn a living would cease and many coastal communities would fail. 
For many coastal communities, commercial fishing has been a way of life 
for centuries and impacts to our fishery mean lasting impacts in our 
communities.
    There are two fundamental ways climate change is impacting the 
lobster industry--warming waters and ocean acidification. Warming water 
trends are causing lobster stocks to shift, impacting fishermen and 
confounding regulators. The Gulf of Maine, for example, is one of the 
fastest warming bodies of water on the planet. In the last century, it 
has warmed faster than 99 percent of the oceans. It has been estimated 
that by 2050, that warming could cut lobster populations by 62 percent 
in the Gulf of Maine. Lobster stocks are also moving further offshore 
to deeper waters that make them more difficult and expensive to reach. 
This added difficulty means that fishermen have to often travel further 
offshore, increasing fuel cost that impact our business as we pursue 
stocks that were bountiful near shore.
    Lobster is also shifting to the north with more and more of it now 
in Canadian waters instead of our U.S. waters. This shift means less 
lobster are available for our U.S. fishermen. The lack of access due to 
this shift is yet another impact to our businesses and coastal 
communities. To make matters even more complicated, fish that eat 
lobster are also moving north. This means more overlap between 
predators and once abundant lobster habitat off of Massachusetts. We 
are seeing a compounding effect, lobster are moving further offshore 
and loss of access as lobster as they move into Canadian waters, and 
the increase in those fish that are moving north from warm waters to 
the south that prey on lobster. All this disrupts the ecosystem and 
makes it more difficult for our lobstermen to make a living.
    Ocean acidification happens as the ocean absorbs carbon from the 
atmosphere, adds even more harmful impacts and is an increasing threat 
for our industry. Juvenile lobsters have a harder time growing the 
shells they need to protect themselves from predators due to ocean 
acidification and the risk of disease in lobster also increases, 
compounding the already bad situation that I have outlined here today. 
It's a lot for our industry to deal with and these challenges will only 
increase.
    These threats from climate change are intensified by the other 
challenges lobstermen are facing. We do not have the luxury of looking 
at any one of these impacts on its own--all of them collectively are 
causing declines in the resource, hurting our bottom line, and our 
communities.
    Offshore wind is increasing exponentially on the East Coast. While 
this emerging use has the potential to mitigate climate impacts by 
creating more access to renewable energy, we must be mindful of 
selecting areas that do not put undue burden on important habitats for 
our fisheries. This means selecting turbine and cable areas without eel 
grass or hard bottoms, because these are important habitats for 
different life stages of lobster. MLA has engaged extensively in the 
Northeast Ocean planning process over the years. In doing so, we 
outline for decision makers the complexities of fisheries and their 
interactions with proposed projects. Our hope is that as offshore wind 
proposals advance that state and Federal agencies will engage with 
fishermen early to drive better decisions moving forward. Fisheries 
data must be accurate, complete, transparent, and readily available for 
decision makers, and an important part of this process is talking to 
lobstermen early to ensure conflicts to our industry can be mitigated.
    There is increasing concern about the impact on the future of 
fishing in offshore wind farms and many fishermen are concerned about 
navigating around the turbines. Depending on turbine placements, 
fishermen may not be able to set their gear as they typically do. 
Therefore, mitigation measures must be taken into consideration.
    Additionally, as talks of offshore oil and gas development increase 
in the Northeast region, we worry about the environmental and economic 
risks associated with offshore drilling. An oil spill could decimate 
stocks and local economies reliant on lobster. Yet another concern that 
we have to balance as we consider future impacts to fishing and local 
communities.
    We are also engaged in the difficult challenge of right whale 
conservation, but this issue will only become more complicated as 
offshore wind farms spring up in the feeding grounds of right whales. 
Climate change impacts on right whales, such as water temperature and 
food availability, could alter their distribution patterns and 
eventually call for revised conservation measures. Lobstermen will need 
to adapt accordingly, especially if different areas become closed off. 
This is yet another challenge for lobstermen.
    It is not simply what is occurring in the ocean that is affecting 
lobster. Ocean acidification and other climate change impacts are 
magnified by land use changes that increase local pollution and runoff. 
Land use changes and the increasing use of lawn fertilizers present 
challenges for fisheries. For example, lawn fertilizer contributes to 
polluted and nutrient-rich runoff. Runoff with high nitrogen levels 
often contributes to harmful algal blooms, resulting in low oxygen 
areas where lobster and fish struggle to survive and reproduce.
    On top of all of our climate change concerns and the obstacles to 
fishing I've already described, our fishermen are also removing bags of 
trash every day from balloons, bottles, bags, and even fishing gear. 
The MLA supports many marine debris clean-up initiatives, as lobster 
pots are lost due to storms or vessel traffic creating more marine 
debris. We are committed to help cleaning up the ocean through our own 
beach and island clean-up initiatives.
    In closing, commercial lobstermen are stewards of the sea. We are 
the first to see impacts to our environment and are currently 
experiencing the impacts of climate change. The concept of climate 
change is not something abstract to us. Not only are we balancing the 
challenges created by shifting stocks, but also the myriad of other 
challenges and impacts facing our industry. Without a healthy ocean 
there would be no commercial lobster industry, we no longer have the 
luxury of ignoring this threat to our livelihoods. We are here today 
asking for action from Congress to help the thousands of commercial 
lobstermen and women by mitigating climate change. We ask that you find 
effective ways to help the commercial lobster industry adapt to the 
changes that are already here and the ones that are coming if we do not 
stop them. As you discuss climate change and look for policies to 
support the communities affected, we ask that you consider that these 
impacts are one of many facing our industry and consider the 
multiplying affect that climate change has to the men and women fishing 
our seas.

    Thank you for your time today. I look forward to answering your 
questions and I hope that you will use me as a resource as you develop 
funding and mitigation measures to address the climate change and 
multiplier impacts to our industry.
                               references
Albeck-Ripka, L. (2018, June 21). Climate Change Brought a Lobster 
Boom. Now It Could Cause a Bust. New York Times. Retrieved from https:/
/www.nytimes.com/2018/06/21/climate/maine-lobsters.html.

Associated Press. (2016, June 27). Historic New England fishing 
industry faces warming world. CBS News. Retrieved from https://
www.cbsnews.com/news/new-england-fishermen-fishing-industry-face-
warming-world-climate-change/.

Botkin-Kowacki, E. (2018, September 4). Can offshore wind and 
commercial fishing coexist? The Christian Science Monitor. Retrieved 
from https://www.csmonitor.com/Environment/2018/0904/Can-offshore-wind-
and-commercial-fishing-coexist.

Hack, C. (2018, April 25). Offshore wind farms concern fisherpeople. 
The Brown Daily Herald. Retrieved from http://www.browndailyherald.com/
2018/04/25/offshore-wind-farms-concern-fisherpeople/.

Kuffner, A. (2015, December 29). Ocean acidification poses threat to 
lobsters. The Providence Journal. Retrieved from https://
bangordailynews.com/2015/12/29/business/ocean-acidification-poses-
threat-to-lobsters/.

Le Bris, A., et al. (2018). Climate vulnerability and resilience in the 
most valuable North American fishery. Proceedings of the National 
Academy of Sciences, 201711122.

Massachusetts Division of Marine Fisheries. (2018, November 5). 
Recommended regional scale studies related to fisheries in the 
Massachusetts and Rhode Island-Massachusetts offshore Wind Energy 
Areas. Massachusetts Lobstermen's Association. Retrieved from http://
lobstermen.com/wp-content/uploads/2018/11/Offshore-Wind-Regional-
Fisheries-Studies-11-5-18.pdf.

Miller, K. (2018, March 7). Maine critics throw cold water on Trump 
administration's offshore drilling plan. Portland Press Herald. 
Retrieved from https://www.pressherald.com/2018/03/07/feds-to-hold-
public-meeting-wednesday-in-augusta-on-offshore-drilling-plan/.

Miller, K. (2018, May 23). Climate change to have drastic effects on 
Gulf of Maine lobster and clam fisheries, studies say. Portland Press 
Herald. Retrieved from https://www.pressherald.com/2018/05/23/climate-
change-to-have-drastic-effects-on-gulf-of-maine-lobster-and-clam-
fisheries-studies-say/.

Pershing, A.J., et al. (2015). Slow adaptation in the face of rapid 
warming leads to collapse of the Gulf of Maine cod fishery. Science, 
350(6262), 809-812.

Tuxbury, S. (2015, June). Considering Habitat: A Closer Look at 
America's First Offshore Wind Farm. NOAA Fisheries Greater Atlantic 
Region. Retrieved from https://www.greateratlantic.fisheries.noaa.gov/
stories/2015/june/consideringhabitat.html.

Virginia Institute of Marine Science. (2018, August 20). Warming waters 
linked to lobster disease: Suggests earlier springs and hotter summers 
foster increase in shell infections. ScienceDaily. Retrieved from 
www.sciencedaily.com/releases/2018/08/180820122220.htm.

Woods Hole Oceanographic Institution. (2018, January 22). Feeling the 
Heat in the NW Atlantic: Rising bottom temps will drive lobsters 
farther north, offshore. Retrieved from https://www.whoi.edu/news-
release/feeling-the-heat-in-the-nw-atlantic.

                                 ______
                                 

    Mr. Huffman. Thank you very much.
    All of our witnesses have been right on time, so this is 
very good time management we are seeing.
    The Chair next recognizes Ms. Chalk.
    Ms. Chalk is a community organizer from the Seventh Ward of 
New Orleans, where she has participated in the Louisiana 
Strategic Adaptation for Future Environments, which encourages 
residents to be actively engaged in any decision-making process 
that impacts coastal southern Louisiana.
    Welcome, Ms. Chalk.

    STATEMENT OF ANGELA CHALK, EXECUTIVE DIRECTOR, HEALTHY 
           COMMUNITY SERVICES, NEW ORLEANS, LOUISIANA

    Ms. Chalk. Thank you, Mr. Chairman, Honorable Committee 
members. Thank you for this opportunity to come before this 
distinguished body.
    As the Chairman has said, I am Angela Chalk, Executive 
Director of Healthy Community Services, a non-profit 
organization based in the Seventh Ward of New Orleans.
    It is my testimony today to discuss our collective 
connectivity. In my opinion, the most significant waterway in 
our Nation is the Mississippi River. The testimony I share with 
each of you today are my personal experiences. While we live in 
a data-driven, metrics society, you will not hear that from me. 
My emphasis is personal, tangible, and has dire consequences to 
real people who call Louisiana home.
    As I was preparing for this testimony, I thought of my 
first encounter with the river. It began with my maternal aunt 
teaching me how to spell ``Mississippi.'' Later, I would learn 
of the river's importance. It is the source of our drinking 
water. The river provided high-paying jobs for African American 
longshoremen, who received cargo for import and export. But, 
most importantly, it is the river pilots who navigate these 
waters daily that provide goods and services for our Nation.
    The safety and natural environment are so very vital to our 
economy that if for any reason river traffic will stop, our 
economy stops. In essence, I was taught the river was and 
remains today the source of life. Life is defined by one's 
culture and heritage, economics and connectivity.
    Each day, I welcome thousands of visitors into the home by 
way of the Mississippi River. We are connected. Surely as the 
snow that falls in the Midwest, Northeast, and Mid-Atlantic, 
the snow will melt and find its way via the contributing 
watersheds that will flow to the Mississippi River.
    All of the sediment collected on this journey will settle 
in the Gulf of Mexico. I invite each of you to experience the 
point at which the mighty river connects to the Gulf of Mexico. 
The experience is the freshwater of the river never mixes with 
the saltwaters of the Gulf. You will clearly see the 
connectivity, either by sea, air, or by standing on the many 
barrier islands home to natural rare birds and sanctuaries.
    In order to help foster a healthier economy, it is vital to 
remember that the community organizations engage our residents 
and educate residents about the effects of climate change, sea-
level rise, and restoration efforts. We are our front line of 
defense to these environmental changes, not because of the 
theoretical signs but because of generational life expectancies 
and reality. You can't come to Louisiana to teach me how to 
make a gumbo if you have never made a gumbo before. But 
certainly you can listen to the people who are experiencing the 
things that are current as a result of our environmental 
changes.
    For as climate change is now, we are adapting now. We have 
been for years. So, as this body makes decisions, remember the 
people. We are real. Remember that we are already fighting 
these battles in our backyards, not just for ourselves but for 
everyone upstream too. And just as our efforts in Louisiana 
matters, your decisions matter too.
    What you are looking at is ``An Island in Crisis,'' 
entitled by Ted Jackson. That is the burial place of the 
ancestors of people who live in southeast Louisiana. That was 
taken in 2016. We are in 2019, and that area has vanished by 
the Gulf of Mexico. Sea-level rise is real.
    This is the science that helps protect our coastal 
communities, which is the barrier that surrounds southeast 
Louisiana and, namely, protects New Orleans from the storm 
surge of intense hurricanes.
    But, together, we must marry the science and the green 
infrastructure that is in place and the restoration efforts 
that protect us from storm surge and repetitive flooding and 
more frequent and more severe storms. We must be proactive 
rather than reactive.
    I thank this Committee for the opportunity to come before 
you and to have my testimony. Thank you, and God bless you all.

    [The prepared statement of Ms. Chalk follows:]
  Prepared Statement of Angela M. Chalk, Executive Director, Healthy 
                           Community Services
                              introduction

    As I begin this written testimony, I wish to state that I am 
honored and privileged to come before this body of the U.S. House of 
Representatives. My testimony before the Subcommittee on Water, Oceans, 
and Wildlife is truthful.
    I come before this Subcommittee, proud to represent the people of 
the Great State of Louisiana and provide testimony to our waterways. I 
will speak to the effects of land loss; the work being done by 
community organizations; support and resources as well as current 
restoration efforts.
    My work in the community of engaging vulnerable populations for the 
past 14 years has been both educational and enlightening. The passion 
to understand in detail, the consequences, of climate change, sea level 
rise, urban water management and food insecurity drives my commitment 
to help be that, change agent of people's behavior. I contend that only 
through, true, community engagement, education and outreach that 
residents are better able to understand the environmental factors that 
causes climate change, sea level rise and the actions that can be taken 
to adapt to those changes.
    In the past year, I've participated with the LA SAFE (LA Strategic 
Adaptation for Future Environments (1). As a `table facilitator' to 
explain the participatory process to residents, it became evident, that 
while people may not have been able to explain the science of these 
environmental changes, those changes had been gradually occurring for 
the past 50 years. Residents of both the rural and urban communities 
had been living this reality. Residents now had the opportunity to be 
actively engaged and make decisions about the future of coastal 
southeast Louisiana. The common thread was the ``collective 
connectiveness'' of faith, family, food, culture and heritage. These 
changes were and remain real. Residents of Louisiana live these 
environmental changes daily.
    Finally, my participation in this process of understanding the 
effects of climate change is not abstract. I am a fourth generation New 
Orleanian. I am the beneficiary of the vast natural resources this 
state offers. Therefore, it is incumbent upon me to help protect and 
preserve the waterways of Louisiana. This is not solely for my benefit 
but, for the benefit the residents of 31 states that share the 
Mississippi River water shed \1\ (2),(3).
---------------------------------------------------------------------------
    \1\ https://www.epa.gov/ms-htf/mississippiatchafalaya-river-basin-
marb.
---------------------------------------------------------------------------
                          effects of land loss
Vanishing Communities/Lost of Cultural Norms

    The science demonstrates that coastal Louisiana has had significant 
land lost, in the past 50 years (1). However, the science doesn't 
demonstrate the value of the communities that have literally been 
swallowed by the Gulf of Mexico. As I write this testimony, I know that 
the residents of Isle de Jean Charles, LA, despite restoration efforts, 
will have to relocate to higher ground, more inland. The cause sea 
level rise (4). This is not an isolated event.
    St. James Church, originally known as St. Jacques de Cabahanoce 
Church dates to 1764 and is the ``First Acadian Coast.'' This is the 
first church of the first Acadian exiles. Cabahanoce is its Indigenous 
name, meaning ``where the wild ducks roost'' (5).
    The ancestral burial space at St. James Cemetary is completely 
submerged in the Mississippi River. If one thinks, that is awful, 
visualize an oil/gas line that is directly above this sacred space (6). 
Can anyone begin to imagine not being able to visit the final resting 
place of relatives?
    The question then becomes what happens to the history of these 
communities, their social and spiritual ``collective connectiveness'' 
to their homes. How should one prepare to lose their cultural 
significance and heritage to the effects of land loss?
                  the work of community organizations
Experiences
    I have enjoyed many experiences but. I salute the ordinary people 
doing extraordinary tasks and who advocate for more resilient 
communities. We each organize around common goals and objectives. We 
know that time is crucial to the work we've committed ourselves. I 
consider myself to be in great company:

------------------------------------------------------------------------
      Name                 Organization                   Parish
------------------------------------------------------------------------
Collette Pichon   Gulf Coast Center for Law &    St. Tammany Parish, LA
 Battle            Policy
------------------------------------------------------------------------
Bette Billiot     Houma Nation                   Terrebonne Parish, LA
------------------------------------------------------------------------
Sharon Foret      Bayou Interfaith Shared        Lafourche Parish, LA
                   Community Organizing
------------------------------------------------------------------------
Jonathan Foret    South LA Center for the Arts   Lafourche Parish, LA
------------------------------------------------------------------------
Bri Foster        Greater New Orleans Housing    Orleans Parish, LA
                   Alliance
------------------------------------------------------------------------
Ivy Mathieu       Community Advocate             St. John the Baptist
                                                  Parish, LA
------------------------------------------------------------------------
Corey Miller      Coalition to Restore Coastal   Jefferson Parish, LA
                   Louisiana
------------------------------------------------------------------------
Darilyn Demolle   Zion Travelers Coop Center     Plaquemines Parish, LA
 Turner
------------------------------------------------------------------------
Katrina Williams  Coastal Communities            Jefferson Parish, LA
                   Consulting
------------------------------------------------------------------------


    In urban communities increased rainfall in shorter amounts of time 
overwhelms the current drainage capacity of New Orleans. However 
increased education through community engagement and outreach efforts, 
have changed the behaviors of residents. For example, Healthy Community 
Services have provided workshops and trainings for residents to learn 
how to implement green infrastructure interventions. The projects in 
the 7th collectively harvest, detain or retain approximately 2,000 
gallons of water.
    This work would not have tangible results without ``collective 
connectiveness.'' Our organizations work to be inclusive of all 
residents regardless of race, gender, ethnicity or social-economic 
status and to be a voice for vulnerable populations.
Youth Involvement
    Again, time is crucial. That is why, it is imperative for our youth 
to understand the cost to be paid, if this work is left undone. Just as 
recently as Super Bowl LIII, the youth of coastal Louisiana brought 
national attention to land loss and the urgency at which a resolution 
must be achieved (7). Young people spoke out using primetime and social 
media platforms. #Restore the Coast \2\
---------------------------------------------------------------------------
    \2\ http://mississippiriverdelta.org/restore-the-coast-old/
?utm_source=twitter&utm_campaign= mrd_none_upd_mrd&utm_medium=social-
media&utm_id=1548714284.
---------------------------------------------------------------------------
                         support and resources
Philanthropic Resources
    In this testimony, I must acknowledge the many philanthropic 
organizations, government agencies, public private partnerships that 
provide the resources and technical support that help community 
organizations, put forth this work.
    Because of this support, I've been able to experience the marshes 
of southeast Louisiana by boat to see firsthand, the diversion of the 
Mississippi River which helps to rebuild land; by air, to view the 
point at which the river meets the Gulf of Mexico or to view the 
protection levee which helps safeguards the city of New Orleans from 
storm surge and; by land, to hear the voices of residents that now feel 
empowered to make informed decisions about the effects of climate 
change.
                          restoration efforts
Reclaiming Land/Projects
    Hope is defined by Webster as a ``desire accompanied by expectation 
of or belief in fulfillment.'' Therefore, it is my hope for humanity to 
understand that there is no amount of money, technology or engineering 
that can compete with the forces of nature.
    As a society, we can however, integrate technology, science and the 
experiences of local residents to help reduce the effects of climate 
change, sea level rise. In New Orleans the Bayou Bienvenu wetlands are 
being revitalized by the planting cypress tree seedlings (8). The cost 
of a cypress tree seedling is approximately $1.59. ``Coastal wetlands 
can provide critical protection against incoming hurricane storm 
surges. The traditional rule of thumb: each 2.7 miles of marsh knocks 
down the storm surge by 1 foot'' (9).
    To further the restoration of land loss, organizations such as 
Coalition to Restore Coastal Louisiana are recycling oyster shells to 
reclaim the land (10). ``CRCL's Oyster Shell Recycling Program collects 
shell from New Orleans-area restaurants and uses that shell to restore 
oyster reefs that help protect Louisiana's eroding coast line. Launched 
in June 2014, this is the first program of its kind in Louisiana, and 
it has collected thousands of tons of oyster shell'' (11).
    When I speak of ``collective connectiveness,'' each year, ``The New 
Orleans Christmas Tree Recycling Program (12), collects those old 
Christmas trees and strategically drops bundles of them into the 
wetlands in Bayou Sauvage National Wildlife Refuge. These trees create 
wave breaks and trap sediment, producing new marsh habitat that 
supports growth of native grasses. Over the years, the program has 
replenished approximately 175 acres of wetlands in Bayou Sauvage.'' The 
power of the people in a regain has incrementally created a massive 
change in coastal restoration efforts.
                               conclusion
    I hope that I've demonstrated to this Committee the value of 
``collective connectiveness.'' As each of you move forward with the 
decision-making process, remember that whether you reside to the west 
or east of the Mississippi River; Colorado or Pennsylvania, we share 
the precious space of this waterway, ``the Great River.'' The 
Mississippi River and its contributaries drains 41 percent of the 
contiguous United States and 15 percent of North America (3).
    In closing, I'd like to thank my family, friends and neighbors, for 
providing support, love and encouragement on this journey. Most 
importantly, the people who support me to express my voice, Liz 
Williams Russell, Rachel Sanderson, Caressa Chester and Klie Kliebert 
of the Foundation for Louisiana.
    Again, thank you for this opportunity to come before this body and 
speak the truth of this Nation's greatest waterway.

                                appendix
Sources

     1. (LA Coastal Protection Restoration Authority, 2019)
     2. (U.S. Department of the Interior, 2018)
     3. (Environmental Protection Agency, 2019)
     4. (LA Coastal Protection Restoration Authority, 2019)
     5. (DeLuca, 2019)
     6. (Historic Churches of Acadiana, 2018)
     7. (Restore the Delta, 2019)
     8. (Global Green New Orleans, 2017)
     9. (Jeffrey Masters, 2012)
    10. (Coalition to Restore Coastal Louisiana, 2019)
    11. (Coalition to Restore Coastal Louisiana, 2019)
    12. (Restore the Mississippi River Delta, 2016)

                                 ______
                                 

    Mr. Huffman. Thank you very much, Ms. Chalk.
    The Chair now recognizes Dr. Bronk, the President and CEO 
of Bigelow Laboratory for Ocean Sciences. She has a Ph.D. in 
marine, estuarine, and environmental sciences and has more than 
two decades of experience as a professor and an oceanographer.
    Welcome, Dr. Bronk.

    STATEMENT OF DEBORAH BRONK, PRESIDENT AND CEO, BIGELOW 
      LABORATORY FOR OCEAN SCIENCES, EAST BOOTHBAY, MAINE

    Dr. Bronk. Thank you for the opportunity to talk with you 
today.
    I will start by saying that I love this country, I love the 
ocean, and I have spent my life in service to both. I am an 
oceanographer who has spent the last 30 years, but thank you 
for the 20, studying the growth of microbes at the base of the 
ocean food web all around the world. I was elected president 
and chair of two different scientific societies, one that 
represents over a million scientists in the United States 
across many different disciplines. I served as director of the 
Division of Ocean Sciences at the National Science Foundation. 
And last year, I became the president and CEO of one of the 
world's most innovative oceanographic institutions, the Bigelow 
Laboratory for Ocean Sciences in East Boothbay, Maine.
    In the spirit of transparency, I will say that I am a 
middle child, so I am about as middle-ground in terms of 
politics as you are likely to find. I am not as liberal as many 
of my scientific colleagues, and I am not nearly as 
conservative as my much-loved father wished I was.
    Like the vast majority of environmental scientists around 
the world, I have watched data from many disciplines accumulate 
for years, and there is no doubt in my mind that the Earth's 
climate is changing and that human beings are responsible.
    Every year, humanity releases billions of tons of carbon 
into our atmosphere, and, as a result, our oceans are warming. 
Historically, the oceans have absorbed about a quarter of this 
carbon, and, as a result, they have become more acidic. And 
both of these changes have far-reaching implications.
    Ocean warming leads to a melting sea ice. I have seen the 
massive changes in ice coverage during the last decade in my 
own work in the Arctic, based largely out of Barrow, or now 
called Utqiagvik, Alaska. The reduction in protective sea ice 
is destroying their coast and changing their traditional way of 
life.
    Ocean warming leads to sea-level rise and coastal flooding. 
Sea level, as a result of thermal expansion as well as the 
melting of land ice, like glaciers and ice sheets--since the 
1900s, average sea level has risen by about 7 to 8 inches. And 
this is nothing compared to what we will see if current trends 
of glacial movement in Greenland continues.
    Roughly 40 percent of people in the United States live in 
coastal areas at risk of flooding, shoreline erosion, enhanced-
risk storms. And all will worsen as sea-level rise continues.
    Ocean warming leads to changes in the migration and 
distribution of marine organisms, from the smallest bacteria to 
the largest fish, because it affects ocean and atmospheric 
circulation, precipitation, and the delivery of nutrients. The 
economic consequences of these changes could be severe. In the 
United States, the fishing sector alone contributes over $200 
billion to our economy each year and contributes 1.6 million 
jobs.
    Ocean warming also leads to reductions in ocean oxygen. At 
the most fundamental level, warm water holds less oxygen than 
colder water. In coastal regions, low oxygen is a particularly 
devastating problem. And low- or no-oxygen dead zones have been 
reported for more than 500 ecosystems.
    Then there is ocean acidification. When carbon dioxide in 
the atmosphere dissolves into seawater, it changes several 
aspects of ocean chemistry, which threatens many organisms, 
including those important to fisheries and aquaculture.
    Coral reefs are perhaps the hardest hit because they are 
impacted by both global warming and ocean acidification. In 
addition to forming the foundation of ecosystems, corals 
provide storm protection to coastal communities and can form 
the basis of local or regional economies. By the end of this 
century, the loss of recreation from coral reefs in the United 
States is expected to reach $140 billion.
    So, here we are. Vast numbers of scientists around the 
world, people that basically argue over data for a living, have 
come together to speak with one voice through the IPCC, the 
National Climate Assessments, and other reports. If this were a 
medical epidemic and the medical community spoke with this 
sense of unity and urgency, every single one of us in this room 
would have taken the treatment prescribed by now.
    But I have almost lost hope in our political process on 
this issue. The economic pressure to keep the status quo is too 
intense. And I do not believe we, as a country or as a global 
community, will make the societal changes in time to ward off 
the extreme climate disruptions--disruptions that will most 
harm those that are least able to respond to it.
    But I believe that in science there is always hope. Climate 
change is a problem that, ironically, science, through our own 
success, has created. And I believe it is through science that 
we will solve it.
    But U.S. investment in the study of our ocean and our 
planet is grossly inadequate considering the challenges we are 
facing. The U.S. investment in social science is grossly 
inadequate considering human behavior and economics are so 
important in charting a sustainable way forward. U.S. 
investment in science education is grossly inadequate 
considering the brainpower we will need to power our global 
recovery. And people in this building can change that.
    We need to reduce greenhouse gas emissions and to capture 
the carbon we have already emitted. And to do this, we need to 
empower scientists and engineers and to fund innovation, from 
discovery all the way to getting it from solutions to the 
market--a notoriously difficult process to fund. I believe we 
can do this, but we need to start now because we are out of 
time.
    Thank you.

    [The prepared statement of Dr. Bronk follows:]
Prepared Statement of Deborah A. Bronk, PhD, President and CEO, Bigelow 
                     Laboratory for Ocean Sciences
                             my background
    For the last 30 years I have devoted my life to the study of the 
oceans. For 26 of those years I was a college professor who ran my own 
laboratory focused on the study of nutrients and how they control the 
growth of phytoplankton and bacteria at the base of the ocean food web. 
I have participated in over 50 research expeditions from the Arctic to 
the Antarctic. Over the last decade, I have also taken what I learned 
in the ocean, and applied it to help water reclamation facilities.
    Throughout my career I have been committed to service--to science 
and this country. I was a member of the Ocean Carbon and 
Biogeochemistry Scientific Steering Committee and the U.S. Carbon Cycle 
Science Plan Working Group, and have served on numerous review 
committees for tenure and promotion, research funding, and programs, 
including as chair of the institutional review of the Woods Hole 
Oceanographic Institution. I was elected member-at-large and then 
president of the Association for the Sciences of Limnology and 
Oceanography, the largest international scientific society dedicated to 
the aquatic sciences. I have also served as member-at-large, treasurer 
and chair of the Council of Scientific Society Presidents, an 
organization that represents over a million scientists in the United 
States across all scientific disciplines. From 2012 to 2015, I served 
at the National Science Foundation as section head and then director of 
the Division of Ocean Sciences where I was responsible for programs 
across all ocean disciplines as well as major oceanographic facilities 
including NSF use of the U.S. research fleet, ocean observing, and the 
ocean drilling program. It is an honor to continue that service by 
providing testimony to this Committee. I offer these thoughts as a 
citizen based on my experience as a scientist, an educator, and a 
mother.
    I also note that I am a middle child; we tend to be the 
peacekeepers. I was raised by very conservative parents that I 
respected and adored and I have spent my life working with many very 
liberal individuals who are like a second family. This means I have 
spent my entire life trying to look at both sides of what can be very 
contentious issues. When it comes to the ocean there are many.
    Earth's climate is changing and human activities are responsible. 
As a scientist, I have been trained to be skeptical, to dig deep and to 
look for holes in every argument. I admit it took me longer than most 
of my colleagues to fully acknowledge the truth our changing climate 
and then only after mounting evidence across many scientific 
disciplines was irrefutable.
    My work has taken me to the world's most remote areas and 
humanity's fingerprints are everywhere--on land and in the ocean. One 
need only look at the nighttime composite photos of the Earth from 
space to see how dramatically we have changed the face of this planet. 
From this vantage point, that we have altered our climate should come 
as no surprise.
    There is an abundance of scientific literature documenting changes 
to our climate and oceans and I will not do it justice here. In the 
time and space allowed I have tried to provide a brief tutorial of the 
basics that I would want all of our elected officials to know. I direct 
interested readers to the many excellent summary documents prepared 
through the National Climate Assessments, the State of the Carbon Cycle 
Reports, and the many products developed through the Intergovernmental 
Panel on Climate Change (IPCC).
                      why the climate is changing
    Life exists on Earth because the planet has a blanket of 
atmospheric gases, including water vapor, carbon dioxide, and methane, 
that acts like the glass of a greenhouse and retains some of the energy 
from incoming solar radiation. Over the past 100 years, mankind has 
taken carbon buried deep within the ground as fossil fuels, and burned 
it to power the incredible technological advances started during the 
Industrial Revolution. The result raised the standard of living for 
billions of people around the globe. It also increased the 
concentration of these greenhouse gases in our atmosphere resulting in 
an average increase in global temperature from 1901 to 2016 of 1.0+C 
(1.8+F; Hayhoe et al. 2018).
    This massive alteration of Earth's atmosphere has had a profound 
impact on our oceans, which have absorbed more than a quarter of the 
carbon dioxide released. Here I highlight two direct effects this 
increase in greenhouse gas concentrations have had on our oceans--they 
are now warmer and the pH of the water has declined, making the ocean 
more acidic.
A. Ocean Warming
    Every year, humans release about 10 gigatons (36 billion tons) of 
carbon into the atmosphere from burning fossil fuels and other 
activities (Le Quere et al. 2018). In 2016, atmospheric levels of 
carbon dioxide passed 400 ppm, a striking milestone and a dramatic 
increase from pre-Industrial levels of 280 ppm. This huge surge in the 
levels of carbon and other greenhouse gases blanketing the atmosphere 
traps excess heat in the Earth's climate system.
    The oceans have absorbed 93 percent of this excess heat and store 
it for two main reasons. First, water has the highest specific heat 
capacity of any common material, meaning that it can absorb a great 
deal of heat before its temperature actually increases. Second, the 
global ocean is vast, covering 71 percent of the Earth's surface with 
an average depth of 4 kilometers (12,123 feet). This incredible volume 
makes it a huge reservoir for heat that is continuously distributed by 
currents and other circulation processes.
    The highest degree of warming has taken place in the upper 75 
meters (246 feet), as this upper layer lies closest to the warming 
atmosphere. Average global temperatures in the surface ocean have 
increased by 0.7 <plus-minus> 0.08+C (1.3+ <plus-minus> 0.1+F) per 
century between 1900 and 2016 (Jewett and Romanou 2017). The upper 
ocean also mixes vigorously, distributing the heat it absorbs. As more 
energy enters Earth's climate system, heat penetrates deeper into the 
ocean. Warming at the poles is especially impactful because these are 
the sites of deep ocean water formation. The combination of ice 
formation and extreme cold makes the waters in the North Atlantic dense 
relative to surrounding waters. These dense waters sink carrying heat 
to the ocean's interior.
    Most of the remaining 7 percent of this heat goes into melting sea 
ice, glaciers, ice caps, and warming the continent's land mass. Only a 
tiny fraction goes into warming the atmosphere, but even that is felt 
in rising global temperatures. The six warmest years on record have all 
occurred since 2010 (NOAA State of the Climate Report 2019). While 
there is much debate over the record of increasing air temperatures, 
the ocean does not have parking lots or heat island effects and yet 
still we see significant increases in temperature.
    The complex interactions between continued greenhouse gas 
emissions, the resulting energy imbalance, and changes in ocean heat 
storage and transport will largely control the impacts of anthropogenic 
climate change. I focus on five critical impacts here--melting of sea 
ice, sea level rise and coastal flooding, changes in the distribution 
and migration of marine organisms, the decline of coral reefs and 
deoxygenation of the ocean.
1. Melting of Sea Ice
    The Arctic Ocean is important to the world's ecology, climate, and 
economy. Due to the shape of the planet, more incoming solar radiation 
concentrates at the equator than at the poles. The atmosphere and ocean 
currents address this energy imbalance by transporting heat away from 
the equator. This process has driven annual average temperatures in the 
Arctic to increase more than twice as fast as the global average, 
resulting in substantial loss of sea ice and glacial mass. Climate 
models using the IPCC ``business as usual'' scenario predict average 
Arctic temperatures will increase 7+C (45+F) by the year 2100.
    Since 1979,the annual average extent of Arctic sea ice has 
decreased 3.5 to 4.1 percent per decade, including an 80 percent loss 
in summer sea ice volume (Comiso and Hall 2014; Vaughan et al. 2013). 
The melting of sea ice now starts 15 days earlier than it did in the 
past, and it is predicted that the Arctic will be nearly free of late-
summer sea ice by the middle of this century (Taylor et al. 2017). 
Diminishing sea ice also further amplifies Arctic warming, because blue 
water will absorb more energy than white ice, thus creating a positive 
feedback loop between warming and continued ice loss.
    The lack of summer Arctic sea ice is increasing seaside erosion, 
undercutting villages, and washing away infrastructure. Alaskans are 
being forced to change their hunting strategies and even the locations 
of whole communities. From 2010 to 2017, I made seven trips to Barrow, 
Alaska, the northern most village in the United States. In that short 
time, the changes to the region and community have been profound 
including the impending destruction of the main road from Barrow to 
Point Barrow due to erosion from the sea.
    The effect of sea ice loss is profound because it is a key part of 
polar ecosystems. Large blooms of algae occur at the ice edge and form 
the base of the Arctic Ocean food web (Arrigo 2014). As ice coverage 
declines, the timing and location of the ice edge blooms change, as 
does critical habitat for more than a thousand species, including polar 
bears, seabirds, and seals. Many organisms hunt, give birth, migrate 
and shelter on ice, and the loss of ice is causing declines in a number 
of species (Laidre et al. 2015). As one example, walruses are moving 
farther from shore as the sea ice extent shrinks, and hunters from 
native Arctic communities that rely on them must now travel further 
across open water, threatening both people's safety and traditional 
ways of life.
    Shrinking ice cover is also making the Arctic more accessible to 
shipping, with access by various countries and commercial entities. 
This brings both new opportunities and risks. The challenges that 
accompany greater access include protecting the border from new threats 
to national security, a heightened threat of oil spills and illegal 
fishing, and the need to update severely outdated nautical charts and 
put search and rescue plans in place.
2. Sea Level Rise and Coastal Flooding
    Sea level is rising as a result of warming ocean temperatures and 
the melting of ice on land, such as glaciers and ice sheets. Warming 
water temperatures contribute to sea level rise because of thermal 
expansion--warm water takes up more volume than cooler water. Since 
1900, average sea level has risen by about 16 to 21 cm (7 to 8 inches) 
globally with about a third of the increase due to thermal expansion. 
Even more alarming than the amount is that nearly half of this increase 
has occurred since 1993. Sea level continues to rise at a rate of about 
one-eighth of an inch per year (Hayhoe et al. 2018).
    The ultimate magnitude of sea level rise will vary based on how 
land ice responds to continued warming. Predictions for the century 
between 2000 and 2100 vary from 1 to 4 feet of sea level increase, with 
extreme increases of over 8 feet if the Antarctic ice sheets collapse. 
If the ice sheet on Greenland were to melt, sea level could increase by 
an incredible 21 feet. These scenarios are unlikely, but I note that 
past increases have been larger and occurred more rapidly than 
expected. As a Nation, we need to prepare for the worst.
    There will be many consequences of higher sea levels. Destructive 
and deadly storm surges will reach farther inland, bringing more 
frequent flooding with high tides. These floods are disruptive and 
expensive. Today, nuisance flooding is estimated to be from 300 percent 
to 900 percent more frequent within U.S. coastal communities than 50 
years ago (Sweet et al. 2014).
    As ocean and atmospheric warming trends persist, sea level rise 
over the next centuries will ramp up to rates significantly higher than 
what we see today. Nearly 40 percent of people in the United States 
live in high-population-density coastal areas, where they will be 
subject to the flooding, shoreline erosion, and hazardous storms that 
come with rising sea levels. These impacts will also be felt globally--
8 of the 10 largest cities in the world are near a coast as are 4 of 
the 10 largest cities in the United States.
    Specific locations will experience sea level rise differently based 
on local factors, such as subsidence and rebounding from natural 
geological processes, changes in regional ocean currents, and 
withdrawal of groundwater and fossil fuels. Sea level rise has already 
increased the frequency of flooding at high tide by a factor of 5 to 10 
since the 1960s for several U.S. coastal communities. The frequency and 
extent of tidal flooding are expected to continue to increase in the 
future and it's anticipated that there will be more severe flooding 
associated with coastal storms, hurricanes and nor'easters (Sweet et 
al. 2014). The infrastructure essential for local and regional 
industries in urban environments will be threatened, including roads, 
bridges, oil and gas wells, and power plants.
3. Changes in the Migration and Distribution of Marine Organisms
    Increases in water temperatures and its associated effects have 
caused alterations to global patterns of ocean and atmospheric 
circulation, precipitation, and nutrients. Collectively, these effects 
are having a drastic impact on the abundance, diversity, and 
distribution of marine organisms--from the smallest bacteria to the 
largest fish.
    Most of the life in the ocean is microscopic. While we cannot see 
these microorganisms without a microscopic, they produce half of the 
oxygen we breathe and form the base of ocean food webs. As most are 
single-celled organisms that can only drift in the water column, these 
vital plankton are highly vulnerable to ocean changes.
    Broadly speaking, the ocean has two parts--a warmer, less dense 
layer at the surface that receives sunlight but has low nutrients 
(because the microorganisms have taken them all up) and a deep layer 
that is denser and colder, with no light but lots of nutrients (because 
decomposing organisms sink and release nutrients as they decompose). 
Rapid warming of surface water is increasing the temperature difference 
between these layers, increasing the stratification of the ocean and 
preventing the surface and deep water from mixing efficiently. As a 
result, most phytoplankton have a harder time staying near the sunlight 
that they need to grow, and the greater stratification restricts the 
delivery of nutrients phytoplankton need from the deep ocean.
    These changes to the base of the ocean food web reverberate through 
other marine species including the fishing sector, which contributes 
over $200 billion in economic activity each year and supports 1.6 
million jobs (NOAA Fisheries 2017). The species this industry relies 
upon are changing as a result of warming waters. These shifts in 
species distributions are complicating fishery management by changing 
the nature of traditional fisheries and efforts to protect endangered 
species.
    These shifts are especially prominent of the U.S. East Coast. For 
example, surveys conducted by state and Federal agencies have 
documented a number of shifts in distribution in fish, shellfish and 
other species along the mid-Atlantic with a trend toward poleward 
movement and/or movement to deeper cooler water (Lucey and Nye 2010). 
Recent research at Bigelow Laboratory shows that copepods (tiny 
crustacean that eat phytoplankton and are then eaten by higher 
organisms) are less viable if grown in warmer waters. Shrinking copepod 
populations will threaten numerous marine species that rely on them for 
nutrition, including the endangered North Atlantic right whale. As 
another example, surf clams, an important fishery in the mid-Atlantic 
region, have migrated to deeper waters at the southern edge of their 
range, causing regulatory issues for this industry (Weinberg 2005).
    I have provided a few examples of shifts in the distribution of 
organisms but I note that detecting and quantifying these changes are a 
challenge because each species within a community may response 
differently due to differences in their life history, where they live, 
and what they eat.
    Organisms also vary with respect to the outside forces that affect 
them such as fishing, destruction of their habitat or pollution. Due to 
this complexity, detecting and understanding shifts in species and 
populations requires a commitment to long-term monitoring programs, 
which have historically been very difficult to maintain.
4. Coral Reef Decline
    Coral reefs are the foundations of many tropical ecosystems. 
Temperature is a powerful controlling variable for the health and 
location of coral reefs, and many exist at or near their upper 
temperature limit (Schoepf et al. 2015). As a result, ocean warming has 
had a devastating effect on coral reefs around the world. When corals 
are exposed to waters even slightly above their temperature maximum, 
they can release the symbiotic algae, called zooxanthellae, that live 
within their tissues. This process is known as bleaching because of the 
stark white color it turns corals. The symbiotic algae provide vital 
nutrients to the coral, and so bleaching often kills them.
    During the last 30 years, there have been several global-scale 
coral bleaching events (in 1987, 1998, 2005, and 2015-2016) that have 
resulted in a dramatic reduction of live coral. This puts the entire 
community of plants and animals that rely on the reefs in jeopardy. In 
the United States, mass bleaching events and outbreaks of coral 
diseases have occurred in the waters off Florida, Hawaii, Puerto Rico, 
the U.S. Virgin Islands, and the U.S.-Affiliated Pacific Islands 
(Miller et al. 2009; Rogers and Muller 2012).
    In addition to the direct physiological stress of elevated 
temperatures, ocean warming also increases the incidence of coral 
disease, and ocean acidification affects the ability of corals to 
produce their calcium carbonate structures (discussed further in 
Section B below). When these effects compromise reef-building corals, 
the entire reef ecosystem becomes threatened (Jones et al. 2004). This 
includes a vast number of invertebrates and fish, organisms that many 
coastal communities depend on for subsistence. Corals also provide 
storm protection to coastal ecosystems and can form the basis of local 
or regional tourism economies (Pratchett et al. 2008).
5. Low Oxygen
    Oxygen makes up 21 percent of the air we breathe and supports life 
on Earth, and half of this oxygen was produced by phytoplankton in the 
ocean. In water, oxygen exists in a dissolved form and acts as a 
limiting resource that controls the growth of many marine species. One 
consequence of climate change is the loss of oxygen from the oceans, 
known as ocean deoxygenation.
    Levels of oxygen in the ocean depend on a balance between oxygen 
production through phytoplankton photosynthesis, depletion through 
respiration by animals, and physical mixing processes. Climate change 
is shifting this balance in several ways. At the most fundamental 
level, warmer water holds less oxygen than cold. As the oceans warm, 
they lose their ability to physically hold oxygen.
    In addition, the surface ocean is warming fastest due to its 
proximity to the atmosphere. This makes the surface water less dense 
and less able to mix with the colder, denser water below, limiting the 
distribution of oxygen. At the same time, global ocean circulation 
patterns are shifting with climate change. Slower circulation and more 
upwelling of oxygen-poor deep water are further decreasing oxygen 
levels in the ocean.
    Long-term monitoring efforts reveal that oxygen concentrations have 
declined during the 20th century, and the IPCC 5th Assessment Report 
predicts that they will decrease 3-6 percent during the 21st century 
due to ocean surface warming. In coastal regions, low oxygen is a 
particularly devastating problem and dead zones where most organisms 
cannot live because of insufficient oxygen have been reported for more 
than 479 systems and their numbers have doubled every decade since the 
1960s (Diaz and Rosenberg 2008).
    This decline will be particularly impactful in hypoxic and suboxic 
areas of the ocean where oxygen is already in low concentrations. In 
hypoxic areas, oxygen is so low that it is detrimental to most 
organisms. In suboxic areas, oxygen levels are so low that most life 
cannot be sustained and water chemistry is severely altered. Oxygen 
minimum zones are severely oxygen-depleted waters that underlie 
productive surface waters and comprise 8 percent of the global ocean 
(Paulmier and Ruiz-Pino 2009). These zones are expanding through the 
globe's tropical ocean basins and the subarctic Pacific Ocean, 
compressing the habitat available to marine species around the globe. A 
mere 1+C warming in the upper ocean, less than predicted by even 
optimistic warming scenarios, will increase hypoxic areas by 10 percent 
and triple suboxic areas (Deutsch et al. 2011).
    Changes to biological processes are also contributing to this 
issue. Warmer water temperatures increase oxygen demand from organisms, 
leading to the faster depletion of available oxygen and threats to a 
vast range of species, including those that comprise valuable 
fisheries. For example, off the coast of California, waters between 200 
and 300 meters have lost 20-30 percent of their oxygen in the last 25 
years (Bograd et al. 2008), threatening important fisheries. In the 
tropical Atlantic Ocean, the vertical habitat of tuna and blue marlin 
reduced by 15 percent between 1960 and 2010 due to expanding oxygen 
minimum zones (Stramma et al. 2012; Schmidtko et al. 2017).
B. Ocean Acidification
    In addition to warming, excess carbon dioxide in the atmosphere has 
a direct and independent effect on the chemistry of the ocean. Ocean 
acidification is the process of carbon dioxide being absorbed by the 
oceans and causing significant changes to seawater chemistry. Global 
chemical processes keep gasses in the ocean and the atmosphere in 
equilibrium. While humans have drastically increased the amount of 
carbon dioxide in the atmosphere, the ocean has been working to keep 
up. About a quarter of the carbon dioxide we generate through 
industrial activity ends up in the ocean, and the resulting change in 
chemistry has caused the surface ocean to become 30 percent more 
acidic. This has occurred at a rate at least 10 times faster than any 
natural acidification event in the past, and affects everything from 
chemical processes to sea life.
    When carbon dioxide in the atmosphere dissolves in seawater, it 
changes three aspects of ocean chemistry. First, it increases levels of 
dissolved carbon dioxide and bicarbonate ions, which are the fuel for 
photosynthesis in phytoplankton and plants. Second, it increases the 
concentration of free hydrogen ions, which makes the water more acidic. 
Third, it reduces the concentration of carbonate ions. Carbonate is 
critical to many marine organisms, which use the mineral calcium 
carbonate to form their shells or skeletons. For some species, rising 
temperatures and decreasing oxygen levels in the ocean may exacerbate 
the effects of ocean acidification.
    The cold temperature of high latitude ecosystems results in great 
carbon dioxide solubility making polar regions highly vulnerable to 
ocean acidification. Sea ice loss is causing Arctic waters to acidify 
faster than expected. Further, acidification along the U.S. coast is 
greater than the global average for a number of reasons, including the 
natural upwelling of acidic waters off the Pacific Northwest and 
California coasts, changes to freshwater inputs in the Gulf of Maine, 
and anthropogenic nutrient input into urban estuaries. Here I'll focus 
on two major consequences of ocean acidification--changes to the ocean 
carbon cycle and the impact on organisms and the industries built 
around them including fisheries and aquaculture.
1. Changes to the Ocean Carbon Cycle
    Carbon is recycled and reused through biological and physical ocean 
processes including photosynthesis, respiration by animals, and mixing. 
The carbon cycle drives important biogeochemical processes that shape 
the character of the global ocean and planet as a whole. When organisms 
die, they sink, bringing the carbon that composes their bodies into the 
deep ocean. This is referred to as the biological pump because it pumps 
carbon from the surface to the deep ocean and can sequester carbon away 
for hundreds of years. The oceans are by far the largest carbon sink, 
or storage reservoir, in the world.
    The combined effect of ocean warming and acidification lowers the 
ability of the ocean to take up additional carbon dioxide in three 
general ways. First, as noted above, warmer water can simply hold less 
gas than colder water. Second, the warmer water in the surface ocean 
becomes, the more stratified the water column will be. Greater 
stratification reduces mixing and so reduces the ability for carbon 
dioxide dissolved in surface water to be mixed into deeper waters. 
Third, it is generally harder for organisms to build shells out of 
calcium carbonate in more acidic waters. This means that phytoplankton 
that build shells (such as coccolithophores), and are therefore heavier 
and so sink faster, are at a disadvantage. As the ocean continues to 
acidify, any selection away from organisms that build shells and toward 
organisms that do not, will likely weaken the biological pump and 
decrease the transport of carbon into the deep ocean as phytoplankton 
die. These effects are already being seen and the oceans are becoming 
less able to absorb carbon dioxide (e.g. Khatiwala et al. 2016).
2. Threats to Organisms, including Fisheries and Aquaculture
    The impacts of ocean acidification are diverse. Although certain 
species are favored by more acidic waters, ocean acidification appears 
to negatively impact more marine species than it helps. Organisms that 
use carbonate minerals to build skeletons or shells struggle with this 
basic function in more acidic waters. Organisms like clams, mussels, 
and phytoplankton that use calcium carbonate to build shells and other 
structures are important in environments and economies around the 
globe. Under the IPCC low emissions scenario, 7 to 12 percent of 
calcifying species would be significantly affected by lowering pH, and 
21 to 32 percent of calcifying species would be impacted under the high 
emissions scenario (Azevedo et al. 2015).
    Ocean acidification also appears to favor some toxic phytoplankton 
species that form harmful algal blooms, allowing them to become more 
abundant in changing ecosystems. Including freshwater and marine 
ecosystems, harmful algal blooms are a significant environmental 
problem in all 50 states (EPA).
    Entire coral reef ecosystems are also severely threatened by ocean 
acidification. Corals depend on calcium carbonate to build their 
exoskeletons, and acidification impedes this process. The acidic water 
also literally dissolves coral structures, and the bulk of a coral reef 
itself. Many reefs around the world are dissolving faster than they can 
build themselves back up. In addition to forming the foundations of 
ecosystems, corals also provide storm protection to coastal ecosystems 
and can form the basis of local or regional tourism economies. By the 
end of this century, the loss in recreation from coral reefs in the 
United States is expected to reach $140 billion (Pershing et al. 2018).
    Some of the animals at risk from acidification also comprise 
lucrative fisheries in the United States, like lobsters in the 
Northeast and squid in California. These animals are physically 
compromised by acidification, and they may find it harder to get the 
food they need in acidifying oceans. Acidification impairs the senses 
of some fish and invertebrates, causing them to misinterpret cues from 
predators and engage in risky behaviors, like swimming far from home. 
Damage to key phytoplankton and zooplankton species can reverberate 
through entire food webs, affecting the fisheries that they support.
    The U.S. aquaculture industry is already shifting in response to 
ocean acidification. Larval shellfish cannot build shells under high 
acidity, and high mortality rates have afflicted the Pacific 
Northwest's $270 million shellfish industry since 2005. The poor 
conditions have prompted some shellfish aquaculture facilities to 
relocate. In Maine, some shellfish farmers are also growing kelp in an 
effort to improve local water quality and the health of their stocks.
                          concluding thoughts
    Climate change is bringing societal disruption on a global scale. 
As with any disruption, there will be winners and losers. Our challenge 
as a nation moving forward is to reduce the risks of climate change 
while capitalizing on its benefits, and I believe there will be plenty 
of both. The nation who will own the future will be the one that 
invests in the science of climate change so that decisions are based on 
sound data, that educates its citizen on ways to mitigate its effects, 
and that adapts to the new reality we all face. Here I will focus on 
the investments needed in the science.
    The ultimate cause of climate change is the burning of fossil fuels 
and the resulting release of greenhouse gases. There has been much talk 
about reducing greenhouse gas emissions and as a nation we need to make 
this a priority. At Bigelow we occupy a Platinum LEED certified 
laboratory building that is cost effective to run and have a residence 
powered by a solar array. Supporting programs to advance the science 
and reduce the cost of green technology is critical to our country's 
future. I believe it is too late, however, to rely solely on this 
approach to mitigate severe climate disruption. The carbon ship has 
left the dock and humanity has shown little commitment to taking it 
back into port.
    There is no doubt in my mind that to limit the effects of climate 
change, humanity will geoengineer the planet. This could take many 
forms including seeding the atmosphere with reflective particles, ocean 
fertilization, or large-scale industrial carbon sequestration. I do not 
advocate for this approach but fear that we will quickly reach a point 
where it will seem inevitable. When that time comes, and I fear it will 
come soon, we need the scientific data to maximize the chance of 
success and limit the many risk. We will also need an international 
regulatory and ethical framework to protect the humanity it seeks to 
serve.
    With respect to the science, we need to dramatically increase our 
investments in understanding our own planet if we are to succeed. The 
National Science Foundation (NSF) is the Federal agency that supports 
basic research across all science and engineering disciplines. I 
believe NSF is our secret sauce and the reason the United States has 
been a leader in science and technology on this planet. This 
foundational research supports the many other mission agencies that 
address ocean issues, the National Oceanographic and Atmospheric 
Administration and National Aeronautics and Space Administration being 
two of the most important. As director of the Division of Ocean Science 
at NSF, I managed a budget of $356M and was responsible for basic 
research across all scientific disciplines. This is a lot of money 
until one considers that it is only about a dollar per person in this 
country. Considering the importance of understanding how the ocean 
works and the rapid changes we see in the world, it is not nearly 
enough. This country must increase its investments in basic and applied 
research at the Federal, state, and local level if it is to efficiently 
understand and mitigate the problems we are facing and it needs to do 
it now.
    Climate change is a global issue and its root causes will only be 
addressed through international cooperation. Just as it took an 
international effort to synthesize and build scientific consensus 
around climate change through the IPCC, so will it take an 
international effort to regulate and control geoengineering with all of 
its many risks. Any regulations will need to be built on a foundation 
of an ethical framework. As the recent birth of two babies born with 
edited genomes has shown, there are real dangers when scientific 
capabilities get ahead of established standards for its ethical use.
    In conclusion, despite the doom and gloom of the proceeding pages, 
I am optimistic about our future. We live in a time of rapid scientific 
advancement where each of us is able to access much of the collective 
knowledge of humanity on our cell phone. That so many scientists around 
the world, a group of people trained to be skeptical, hypercritical, 
and, dare I say, argumentative, have found a way to reach consensus and 
to speak with one voice on climate change is another reason to hope. 
Through my work at the Bigelow Laboratory for Ocean Sciences, I 
interact daily with brilliant scientists that are thinking outside of 
the box, students committed to changing the world, people of wealth who 
are stepping in to support innovation, and my fellow citizens who care 
enough to show up for talks, beach cleanups, and recycling events. The 
will is there and we will find the solutions we need but the time to 
act is now. As I have said many times--I believe in science, I believe 
in this country and I believe in good old-fashioned American ingenuity.
                               citations
Arrigo, KR. 2014. Sea ice ecosystems. Annual Review of Marine Science. 
6:13.1-13.29. doi: 10.1146/annurev-marine-010213-135103.

Azevedo, LB, et al. 2015. Calcifying species sensitivity distributions 
for ocean acidification. Environmental Science and Technology. 
49(3):1495-1500. doi: 10.1021/es505485m.

Bograd, SJ, et al. 2008. Oxygen declines and the shoaling of the 
hypoxic boundary in the California Current. Geophysical Research 
Letters. 35(12):L12607. doi: 10.1029/2008gl034185.

Comiso, JC and DK Hall. 2014. Climate Trends. In: The Arctic as 
Observed from Space. Wiley Interdisciplinary Reviews: Climate Change. 
5:389-409. doi: 10.1002/wcc.277.

Deutsch, C, et al. 2011. Climate-forced variability of ocean hypoxia. 
Science. 33:336-339.

Diaz, RJ and R Rosenberg. 2008. Spreading dead zones and consequences 
for marine ecosystems. Science. 321(5891):926-929.

Hayhoe, K, et al. 2018. Our Changing Climate. In: Impacts, Risks, and 
Adaptation in the United States: Fourth National Climate Assessment, 
Volume II. Reidmiller, DR, CW Avery, D Easterling, KE Kunkel, KLM 
Lewis, TK Maycock, and BC Stewart, Eds. U.S. Global Change Research 
Program, Washington, DC, USA, pp. 72-144. doi: 10.7930/NCA4.2018.CH2.

Jewett, L and A Romanou. 2017. Ocean acidification and other ocean 
changes. In: Climate Science Special Report: Fourth National Climate 
Assessment, Volume I, Wuebbles, DJ, DW Fahey, KA Hibbard, DJ Dokken, BC 
Stewart, and TK Maycock, Eds. U.S. Global Change Research Program, 
Washington, DC, USA, 364-392. http://dx.doi.org/10.7930/J0QV3JQB.

Jones, GP, et al. 2004. Coral decline threatens fish biodiversity in 
marine reserves. Proceedings of the National Academy of Sciences of the 
United States of America. 101(21):8251-8253.

Khatiwala, S, F Primeau, and T Hall. 2016. Reconstruction of the 
history of anthropogenic CO<INF>2</INF> concentrations in the ocean. 
Nature. 462:346-349.

Laidre, K, et al. 2015. Arctic marine mammal population status, sea ice 
habitat loss, and conservation recommendations for the 21st century. 
Conservation Biology. 29(3):724-737. http://dx.doi.org/10.1111/
cobi.12474.

Le Quere, C, et al. 2018. Earth System Science Data. 10:1-54. doi: 
10.5194/essd-10-2141-2018.

Lucey, SM and JA Nye. 2010. Shifting species assemblages in the 
Northeast U.S. continental shelf large marine ecosystem. Marine Ecology 
Progress Series. 415:23-33.

Miller, J, et al. 2009. Coral disease following massive bleaching in 
2005 causes 60% decline in coral cover on reefs in the U.S. Virgin 
Islands. Coral Reefs. 28(4):925-937. doi.org/10.1007/s00338-009-0531-7.

NOAA State of the Climate: Global Climate Report for Annual 2017. 
National Centers for Environmental Information, published online 
January 2018, retrieved on February 4, 2019 from https://
www.ncdc.noaa.gov/sotc/global/201713.

NOAA Fisheries. 2017. Fisheries Economics of the United States, 2015. 
NOAA Technical Memorandum NMFS-F/SPO-170. NOAA National Marine 
Fisheries Service, Office of Science and Technology, Silver Spring, MD, 
pp. 245.

Paulmier, A and D Ruiz-Pino. 2009. Oxygen minimum zones (OMZs) in the 
modern ocean. Progress in Oceanography. 80(3):13-128.

Pershing, AJ, et al. 2018. Oceans and Marine Resources. In: Impacts, 
Risks, and Adaptation in the United States: Fourth National Climate 
Assessment, Volume II, Reidmiller, DR, CW Avery, D. Easterling, KE 
Kunkel, KLM Lewis, TK Maycock, and BC Stewart, Eds. U.S. Global Change 
Research Program, Washington, DC, USA, pp. 353-390. doi: 10.7930/
NCA4.2018.CH9.

Pratchett, MS, et al. 2008. Effects of climate-induced coral bleaching 
on coral-reef fishes: Ecological and economic consequences. 
Oceanography and Marine Biology: An Annual Review. 46:251-296.

Rogers, CS and EM Muller. 2012. Bleaching, disease and recovery in the 
threatened scleractinian coral Acropora palmata in St. John, U.S. 
Virgin Islands: 2003-2010. Coral Reefs. 31(3):807-819. doi: org/
10.1007/s00338-012-0898-8.

Schmidtko, S, L Stramma, and M Visbeck. 2017. Decline in global oxygen 
content during the past five decades. Nature. 542:355-339.

Schoepf, V, et al. 2015. Limits to the thermal tolerance of corals 
adapted to a highly fluctuating, naturally extreme temperature 
environment. Scientific Reports. 5:17639. doi: 10.1038/srep17639.

Sweet, W, et al. 2014. Sea level rise and nuisance flood frequency 
changes around the United States. NOAA Technical Report NOS CO-OPS 073. 
58 pg.

Stramma, L, et al. 2012. Expansion of oxygen minimum zones may reduce 
available habitat for tropical pelagic fishes. Nature Climate Change. 
2:33-37.

Taylor, PC, et al. 2017. Arctic changes and their effects on Alaska and 
the rest of the United States. In: Climate Science Special Report: 
Fourth National Climate Assessment, Volume I, Wuebbles, DJ, DW Fahey, 
KA Hibbard, DJ Dokken, BC Stewart, and K Maycock, Eds. U.S. Global 
Change Research Program, Washington, DC, USA, 303-332. http://
dx.doi.org/10.7930/J00863GK.

Vaughan, DG, et al. 2013. Observations: Cryosphere. TF Stocker, D Qin, 
G-K Plattner, M Tignor, SK Allen, J Boschung, M Nauels, Y Xia, C Bes, 
PM Midley, Eds. Cambridge University Press. Pg 317-382.

Weinberg, J. 2005. Bathymetric shift in the distribution of Atlantic 
surfclams: Response to warmer ocean temperatures. Journal of Marine 
Science. 62(7):1444-1453.

                                 ______
                                 

    Mr. Huffman. Thank you, Dr. Bronk.
    Next, we recognize Dr. Legates, a Professor of Climatology 
at the Department of Geography at the University of Delaware.
    Welcome, Dr. Legates.

   STATEMENT OF DAVID R. LEGATES, PROFESSOR OF CLIMATOLOGY, 
            UNIVERSITY OF DELAWARE, NEWARK, DELAWARE

    Dr. Legates. Thank you, Chairman Huffman.
    Coasts are naturally hazardous areas due to the impact of 
rising seas, coastal storms, shifting barrier islands, and 
flooding caused by rainfall draining into low-lying areas.
    Globally, sea level has naturally risen at a rate of about 
8 inches per century for at least several hundred years. This 
rate may be higher in some places due to local land subsidence 
caused by glacial isostasy, such as along the Mid-Atlantic 
region, and/or sediment compaction through river 
channelization, such as in southern Louisiana. Shifting sands 
on barrier islands through strong storms change the local 
landscape and can affect life along the coast.
    The question we wish to answer is whether anthropogenic 
increases in greenhouse gas concentrations exacerbate these 
coastal impacts.
    The data I present in my written testimony, sea-level rise 
has been consistently linear at nearly all stations for which 
more than 70 years of data are available. As greenhouse gas 
concentrations have increased--about 45 percent from before the 
Industrial Age--the lack of a significant change in the rate of 
increase implies that sea levels are not significantly affected 
by changes in carbon dioxide.
    Moreover, extreme climate events are becoming neither more 
intense nor more frequent. When Hurricane Harvey made landfall 
near Houston in 2017, it ended a record of nearly 12 years 
without a major hurricane landfall in the United States. Tools 
that chart the frequency and intensity of tropical cyclones, 
such as their number and the energy associated with them, show 
a cyclical pattern to hurricane activity but no long-term trend 
over the last 50 years.
    In the United States, 14 Category 4 or 5 hurricanes made 
landfall in the 44-year period between 1926 and 1969, but only 
4 have occurred in the 49 years since. Historically, hurricane 
landfalls are more frequent during colder periods and become 
less frequent as the temperature rises.
    Consequently, we can agree with the IPCC that low 
confidence exists in the attribution of changes in tropical 
cyclone activity to human influence owing to insufficient 
observational evidence, a lack of physical understanding of the 
links between anthropogenic drivers of climate and tropical 
cyclone activity, and the low level of agreement between 
studies as to the relative importance of internal variability, 
anthropogenic, and natural forcing.
    Seawater is naturally alkaline, but the addition of 
dissolved carbon dioxide leads to acidification or a lowered 
pH, so the addition of carbonic acid. Rather than causing the 
dissolution of calcium-carbonate-based shells of various 
animals in the oceans, many species such as lobsters and blue 
crabs actually will thrive on the additional carbonate and 
bicarbonate ions and a slightly lowered pH content. Studies 
which have attempted to demonstrate that calcium-carbonate-
based shells dissolve in lower-pH conditions often use 
hydrochloric acid rather than carbonic acid, which has a 
considerably different chemistry and a deadlier impact.
    My main concern here today is that we are focusing on an 
expensive solution that will have virtually no impact on the 
Earth's climate. Climate has always changed, and weather is 
always variable due to complex, powerful natural forces. No 
efforts to stabilize the climate can possibly be successful.
    Current climate observations indicate that the events which 
kill or injure the most people and have the biggest economic 
impact are not affected significantly by changing greenhouse 
gas concentrations. Insistence that these events must be caused 
or exacerbated by human activity reflects a denial of basic 
climate science. Decades of failed forecasts of climate doom 
underscore the problem.
    The current emphasis on climate change abatement will do 
far more harm than good. So-called clean energy sources, wind 
and solar, require environmentally degrading strip-mining 
practices to extract rare-earth elements from the ground. Wind 
turbines, hybrid cars, and solar panels require large 
quantities of these rare metals. Mine workers are exposed to 
highly toxic and dangerous working conditions, usually for low 
pay and often with child-labor exploitation. Water from the 
mines contaminates soil and groundwater and the required 
process of strip-mining involves significant environmental 
degradation. These clean energy sources are anything but clean.
    The long-term impact of eschewing fossil fuels will 
unintentionally make energy expensive. Anything that uses 
energy will therefore cost more. Transportation costs will 
skyrocket, making it expensive to travel to work and to 
transport goods to market. Heating and cooling costs will 
become so expensive that many will have to choose between food 
or heat. Energy is necessary to produce almost everything we 
have. To make energy expensive is to make living difficult for 
all but the richest citizens.
    We certainly wish to be good stewards of our environment, 
and we should strive for energy conservation and to search out 
alternative forms of inexpensive energy. But the notion that we 
should fast-transition from fossils fuels to so-called clean 
energy to protect us from climate change and to save the planet 
is a recipe for personal and economic disaster that will have 
virtually no impact on the Earth's climate.
    I urge you to investigate the true science behind climate 
change and not be influenced by climate exaggerations, so you 
can better understand the role inexpensive energy can have in 
lifting the poorest among us.
    Thank you.

    [The prepared statement of Dr. Legates follows:]
     Prepared Statement of David R. Legates, University of Delaware
    I am David R. Legates, professor and climatologist, at the 
University of Delaware. I also hold a joint appointment in the 
Department of Applied Economics and Statistics as well as in the 
Physical Ocean Science and Engineering program. I served as the 
Delaware State Climatologist from 2005 to 2011 and was a founder of the 
Delaware Environmental Observing System, a statewide network for 
environmental monitoring and analysis. I was part of the U.S. 
delegation that negotiated a protocol for the first climate data 
exchange program with the Soviet Union in 1990. I am recognized as a 
Certified Consulting Meteorologist by the American Meteorological 
Society and was the recipient of the 2002 Boeing Autometric Award in 
Image Analysis and Interpretation by the American Society of 
Photogrammetry and Remote Sensing. I would like to thank both the 
Chairman and the Committee for the opportunity to provide my 
perspective of 40 years of experience on climate change and coastal 
communities.
    It is a privilege for me to offer my views on the science involving 
sea level rise and coastal impacts due to weather and climate 
variability. I might best be described as a statistical 
hydroclimatologist--someone who researches the interactions between 
water and climate from an observational setting. I have investigated 
biases in our evaluation of precipitation owing to errors in 
precipitation gage measurement and how they influence satellite and 
radar estimates. I also have been involved with the analysis of 
hydrological data to assess the impact of climate variability and 
change.
                              introduction
    Living along the coasts and in low-lying areas can be hazardous. 
Coastal storms, such as hurricanes, tropical storms, and nor'easters, 
often batter the coast, producing high winds and waves. Heavy rainfall 
pools into low-lying areas, turning flood plains and the mouths of 
streams and rivers into flooded regions with possibly fast-moving 
water. Sea levels are rising, as they have been for the past 20,000 
years, which encroaches upon the land. In addition, the land subsides 
in places due to channelization of the river system or the response of 
the Earth's mantle to glacial isostatic adjustment.
    In Louisiana, for example, the land is subsiding at a considerable 
rate due to sediment compaction. The Mississippi River flood plain is 
naturally replenished by the sediment that is deposited during flood 
events. However, the Mississippi River has been channelized by the 
levee system such that it is like a ``freeway with no on-ramp.'' Rivers 
such as the Amite and Comite no longer empty into the Mississippi. 
Thus, local flooding occurs in Baton Rouge and throughout much of 
southern Louisiana east of the Mississippi River because of the changed 
drainage patterns. Moreover, the flood waters of the Mississippi River, 
which used to bring sediments to replenish the land, are efficiently 
transported to the Gulf of Mexico. The land, therefore, subsides as the 
existing sediments compact, leaving areas such as New Orleans below sea 
level and resulting in an increased loss of wetland areas.
    In the Mid-Atlantic region (i.e., Delaware and New Jersey), the 
land also is subsiding at a rapid rate. At the maximum spatial extent 
of the Laurentide ice sheet (21,500 years ago) that extended as far 
south as central Pennsylvania, the weight of the ice pressed down on 
the land surface causing it to subside, particularly over much of New 
England and eastern Canada. Consequently, the land along the peripheral 
forebulge of the Laurentide ice sheet (i.e., in the Mid-Atlantic 
region) was forced upward due to the pressure placed on the land to the 
north. As the deglaciation of the Laurentide ice sheet occurred during 
the late Holocene, the regions under the ice sheet, much of New England 
has seen relatively rapid uplift, while regions just to the south have 
experienced (and continue to experience) subsidence.
    Barrier islands often block the effect of landfalling storms and 
mitigate the effect of these storms on inland areas. Storms often 
reshape the coastline by moving the sand that comprises barrier 
islands. Problems often arise when humans build upon these shifting 
sands and expect them to remain immobile. The fact is that barrier 
islands are constantly dynamic, and their shape and presence make 
living in coastal regions potentially hazardous.
                   sea level rise and climate change
    Globally, sea level began to rise after the demise of the last 
major glaciation approximately 20,000 years ago (Figure 1), rising 
nearly 400 feet (120 m). As the glaciers covering much of the Northern 
Hemisphere land areas melted, sea level rose quite rapidly. Over the 
last 8,000 years or so, the rise has been much slower, and has occurred 
due to melting of land ice as well as the thermal expansion of sea 
water. The rate over the last century has been about 7 to 8 inches (2 
mm yr<SUP>-1</SUP>). However, the North Polar region has not yet 
reached equilibrium such that melting continues to occur. Locally, 
trends in sea levels may vary substantially from the global trend 
because of both tectonic activity and coastal subsidence or coastal 
isostatic rebound.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

      Figure 1. Sea level rise since the last glacial maximum 
                              (Wikipedia).

    Consider a cube of ice placed into a room at 72+F. The ice will 
continue to melt, even though the room remains at a constant 
temperature. This is because the ice cube has not reached equilibrium 
with the temperature of the room and melt of the ice cube will continue 
to occur.
    Our question today is whether rising concentrations of greenhouse 
gases are causing sea levels to rise dramatically. Specifically, are we 
seeing an increase in the rate of sea level rise? To address this 
question, we can examine historical observations of sea level as well 
as satellite-derived estimates.
    The National Oceanographic and Atmospheric Administration (NOAA) 
regularly updates its coastal sea level tide gauge data which includes 
measurements at coastal locations along the East Coast, the Gulf Coast, 
the West Coast, the Pacific Ocean, the Atlantic Ocean, and the Gulf of 
Mexico. Their record covers more than 200 measurement stations.
    The longest NOAA tide gauge record in the United States is located 
at the Battery in New York City. Its 160-year record (Figure 2, top) 
shows a steady rate of sea level rise of 11 inches per century, 
slightly higher than the current global average of about 7 to 8 inches 
per century (or about 0.075 inches per year) due to the coastal 
subsidence discussed earlier. Atlantic City NJ (Figure 2, bottom) 
illustrates a steady rise at a higher level--about 16 inches per 
century--due to its location near the peripheral forebulge of the 
Laurentide ice sheet.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

 
 Figure 2. Sea level trends for The Battery in New York City (top) 
and for Atlantic City, New Jersey (bottom). Data retrieved on February 
                                4, 2019.

    Although the data from Kings Point is a much shorter record, both 
stations show that sea level rise over the past century (and since 1855 
for The Battery) has been steadily increasing despite periods of 
relatively rapid air temperature increase and cooling that have 
occurred over the past century. Moreover, no correlation exists between 
atmospheric carbon dioxide concentrations and sea level rise--
CO<INF>2</INF> has exhibited no apparent impact on the rate of sea 
level rise despite the rise in atmospheric CO<INF>2</INF> 
concentrations from 280 parts per million to 400 parts per million.
    Consider now the West Coast of the United States. The 100+ year 
record in Seattle, WA (Figure 3, top) shows a steady rate of sea level 
rise of about 8 inches per century, near the long-term global average. 
Although a shorter record at Los Angeles CA (Figure 3, bottom), Los 
Angeles has experienced a steady rate of sea level rise of about 4 
inches per century, below the long-term global average.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

 Figure 3. Sea level trends for Seattle, Washington (top) and for 
 Los Angeles, California (bottom). Data retrieved on February 4, 2019.

    Along the United States Gulf Coast, the 100+ year record at Grand 
Isle, LA (Figure 4) also shows a steady rise in sea level of about 35.7 
inches. Although the curve shows a very high rate of sea level rise, 
the increase is linear with little hint of an accelerating trend due to 
the possible impact of increases in anthropogenic greenhouse gases. 
Again, the culprit for this high rate of sea level rise is the 
compaction of sediments and the channelization of the Mississippi 
River.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Figure 4. Sea level trends for Grand Isle, Louisiana. Data 
                     retrieved on February 4, 2019.

    Honolulu, HI (Figure 5), like many island stations, exhibits 
significant yearly fluctuations in sea level due to the impact of 
global ocean currents. However, sea level rise in Honolulu has been 
only about 5.8 inches per century, with virtually no correlation with 
global CO<INF>2</INF> levels.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Figure 5. Sea level trends for Honolulu, Hawaii. Data were 
                     retrieved on February 4, 2019.

    By contrast, sea level trends for Sitka, AK (Figure 6) shows a 
decrease in sea level of about 9.2 inches per year. This illustrates 
the effect from both local tectonic activity as well as isostatic 
rebound effect of the unloading of the ice sheet during the last ice 
age.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

 Figure 6. Sea level trends for Sitka, Alaska. Data were retrieved 
                          on February 4, 2019.

    The message of these and many other stations around the United 
States is that while sea level rise is not constant, its rate of change 
over time is not changing because of increasing concentrations of 
greenhouse gases. If CO<INF>2</INF> was an agent causing sea level rise 
to increase, the patterns should show an increasing trend in the rate 
of sea level rise over time. The records shown here (and at many other 
stations around the globe) do not exhibit a substantial increase in sea 
level over time. Local and regional changes in sea levels exhibit 
typical natural variability, relatively unrelated to changes in the 
global averaged sea level. Thus, atmospheric trace gas concentrations 
have no measurable impact on sea levels.
                  tropical cyclones and climate change
    The impact of more frequent and intense hurricanes is important 
owing to the damage that may occur to coastal areas. However, much of 
the potential damage due to tropical cyclones along the coast is likely 
due to human settlement of low-lying and coastal areas.
    In 2013, the Fifth Assessment report of the IPCC proclaimed ``there 
is low confidence in long-term (centennial) changes in tropical cyclone 
activity, after accounting for past changes in observing capabilities . 
. . and there is low confidence in attribution of changes in tropical 
cyclone activity to human influence owing to insufficient observational 
evidence, lack of physical understanding of the links between 
anthropogenic drivers of climate and tropical cyclone activity and the 
low level of agreement between studies as to the relative importance of 
internal variability, and anthropogenic and natural forcings.''
    Investigation of the trend in hurricanes making landfall in the 
continental United States since 1990 shows no significant trend in 
either landfalling hurricanes, major hurricanes (Category 3 or higher), 
or normalized damage (Figures 7 and 8). Although the data exhibit 
considerable variability, the long-term trend is fewer landfalling 
hurricanes and major hurricanes while the normalized damage (constant 
dollars) has remained unchanged.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


   Figure 7. Landfalling hurricanes and major hurricanes for the 
continental United States since 1900. Figure from Klotzbach, P.J., S.G. 
 Bowen, et al. (2018). ``Continental U.S. hurricane landfall frequency 
  and associated damage.'' Bull. Amer. Meteorol. Soc. 99(7):1359-1377.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

     Figure 8. Normalized landfalling hurricane damage for the 
 continental United States since 1900 in constant 2017 dollars. Figure 
  from Klotzbach, P.J., S.G. Bowen, et al. (2018). ``Continental U.S. 
   hurricane landfall frequency and associated damage.'' Bull. Amer. 
                    Meteorol. Soc. 99(7):1359-1377.

    In the 1990s, Dr. William Gray (Colorado State University) found 
that natural cycles in the Atlantic basin (sea surface temperatures) 
and air temperature variability drove variability in hurricane 
activity. Variability in the Atlantic Multidecadal Oscillation 
(fluctuations of sea surface temperature) may be related to changes in 
the thermohaline circulation. In its positive (warm) phase, hurricane 
formation is more likely while the converse is also true (Figure 9, 
blue line).

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

  Figure 9. Accumulated cyclone energy (green) and the normalized 
Atlantic Multidecadal Oscillation (blue). Figure from Klotzbach, P.J., 
W.M. Gray, et al. (2015). ``Active Atlantic hurricane era at its end?'' 
                    Nature Geoscience 8(10):737-738.

    Accumulated Cyclone Energy (ACE) is the summation (every 6 hours) 
of the apparent wind energy produced by a tropical system over its 
lifetime. The 3-year averaged ACE for the Atlantic Basin is shown 
(Figure 9, green line) and for the Northern Hemisphere and the globe 
(Figure 10). As with the Atlantic Multidecadal Oscillation, ACE shows 
much temporal variability but little by way of a trend.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

 Figure 10. Major (Category 3 to 5) hurricane frequency (top) and 
  the accumulated cyclone energy (bottom) for both the globe and the 
  Northern Hemisphere. Figure from http://policlimate.com/tropical/, 
                    downloaded on February 5, 2019.

    Little-to-no observational evidence exists that tropical cyclone 
activity has worsened over the last 50+ years, let alone address the 
question of whether changes in hurricane activity could be affected by 
anthropogenic activities. None of these data demonstrate any obvious 
long-term trends, but they do exhibit large variability on yearly/
decadal time scales.
    While devastating, Hurricanes Katrina and Sandy were neither 
unusual nor unexpected. In the 1990s while at the University of 
Oklahoma, I taught that eventually a hurricane would pass New Orleans 
and the cyclonic winds would put stress on the levee system holding 
Lake Pontchartrain back. The pressure upon the levees may be enough to 
cause them to fail and water to flood portions of New Orleans. The 
normal FEMA response is to wait for the storm surge to recede and bring 
in mobile houses if the homes are uninhabitable. But since sediment 
compaction has caused portions of New Orleans to be below sea level. 
Thus, the water would not recede, and the normal FEMA response would be 
inappropriate. I was not a prophet; but rather, what I imparted to the 
students was simply a fact that climatologists knew was likely to 
occur.
    Similarly, Hurricane Sandy was rare in that it turned west while in 
mid-latitudes. It is not surprising that weak storms (Hurricane Sandy 
was extratropical by the time it made landfall) would be affected by 
mid-latitude weather patterns. Hurricane Sandy, therefore, was not 
unexpected but the results were devastating because it made landfall at 
a highly populated location.
                          ocean acidification
    Due to dissolved salts (primarily Na<SUP>+</SUP> and 
Cl<SUP><square )>-</SUP>), the pH of ocean seawater is primarily basic. 
With the inclusion of dissolved CO<INF>2</INF>, the pH of ocean 
seawater is decreasing (i.e., becoming more acidic), which is termed 
``ocean acidification.'' The question is whether this acidification is 
significant and whether it matters.
    The addition of CO<INF>2</INF> to seawater increases carbonic acid 
which lowers the pH. However, the chemistry is more complex as chemical 
buffering by dissolved salts greatly affects the resulting pH. IPCC AR5 
suggests that a doubling of atmospheric CO<INF>2</INF> might lower the 
pH by up to 0.2--well within the normal seasonal/diurnal variation in 
seawater pH. Globally, ocean surface pH varies considerably. Many 
factors affect local pH, including components of the ecosystem, 
underlying ocean depth, and dissolved parent material.
    An argument has been made that lowering the oceanic pH due to the 
absorption of more CO<INF>2</INF> would likely destroy the 
CaCO<INF>3</INF> shells of various animals. Indeed, Dr. Jane Lubchenco 
testified on December 2, 2009 to a U.S. House subcommittee: ``Who in 
the ocean is affected by this [`Osteoporosis of the Sea']? Any plant or 
animal that has a shell or skeleton made of calcium carbonate. The hard 
parts of many familiar animals such as oysters, clams, corals, 
lobsters, crabs, . . . are made of calcium carbonate'' and showed 
pictures from the National Geographic Society of the shell of a 
Limacina helicina Antarctica, a Pteropod, that had largely dissolved 
after about 45 days when subjected to decreased pH. But a study in 2008 
(Iglesias-Rodriguez, M.D., P.R. Halloran, et al. 2008. ``Phytoplankton 
calcification in a high-CO2 world.'' Science 320:336-340) concluded 
that ``Increased atmospheric CO<INF>2</INF> also enhances marine life, 
in contradiction to previous claims where lower pH in the ocean was 
said to be dissolving calcium material (i.e., CaCO<INF>3</INF>) and 
therefore causing harm to marine life.'' They go on to note that ``most 
of these experiments [with lowered pH] used semi-continuous cultures, 
in which the carbonate system was modified by the addition of acid and/
or base to control pH.'' Indeed, some of these lab studies used 
hydrochloric acid, not carbon dioxide (i.e., carbonic acid) to lower 
the pH of the seawater. While the change in pH may be similar, the 
chemistry involved with the chlorine ion is far different than that 
with the carbonate and bicarbonate ions.
    Dr. Justin Ries of the University of North Carolina at Chapel Hill 
raised both lobsters and blue crabs in a CO<INF>2</INF>-enriched 
environment (Figure 11) and demonstrated that under elevated 
CO<INF>2</INF> levels, both species grew faster. He has raised the 
concern that such rapid growth could disrupt the food chain but to 
simply assert that ocean acidification will necessarily diminish all 
life in the oceans is an extreme claim.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Figure 11. Lobster (top) and blue crab (bottom) grown under 
    different levels of atmospheric CO<INF>2</INF>. On the left are 
      crustaceans grown under current (i.e., 400 ppm) atmospheric 
CO<INF>2</INF> concentrations and under elevated CO<INF>2</INF> on the 
right (i.e., 2800 ppm). Figure from Dr. Justin Ries, marine researcher 
            at the University of North Carolina-Chapel Hill.

                                summary
    Coasts are naturally hazardous areas due to the impact of rising 
seas, coastal storms, shifting barrier islands, and flooding caused by 
rainfall into low-lying areas. Global sea levels have risen naturally 
at a rate of about 7 to 8 inches per century for at least several 
hundred years. Locally, this rate may be higher due to local land 
subsidence and/or compaction of sediments or lower due to isostatic 
rebound. Shifting sands on barrier islands change the local landscape 
and can affect life along coastal areas.
    The question we wish to answer is whether anthropogenic increases 
in CO<INF>2</INF> concentrations exacerbate these coastal impacts. From 
the data shown above, sea level rise has been consistent linear at 
nearly all stations for which long-term measurements are made. This 
indicates that increasing CO<INF>2</INF> concentrations are not 
significantly affecting the rate of sea level rise. As these 
concentrations have increased from before the industrial age when 
atmospheric CO<INF>2</INF> levels were about 280 ppm to current 
conditions where they exceed 400 ppm, the lack of a significant change 
in the rate of increase implies that sea level rise is not responding 
to changes in greenhouse gas concentrations.
    Severe weather events--most notably tropical cyclones/hurricanes--
have not increased significantly over the last 60 or more years. No 
significant trend exists with either landfalling hurricanes in the 
United States, landfalling significant hurricanes (Category 3 or 
higher), or with the accumulated cyclone energy; a measure of the 
energy associated with tropical cyclones integrated over all storms in 
the basin for a given season or month. In all cases, short-term trends 
exist but those reflect natural variability and do not contribute to 
the longer-term trend. Damage for the continental United States from 
landfalling tropical cyclones since 1900 also shows no increasing trend 
in constant dollars despite the increased development along our 
coastlines. Consequently, we can agree with the IPCC that low 
confidence exists in the attribution of changes in tropical cyclone 
activity to human influence.
    Seawater is naturally alkaline, but the addition of dissolved 
CO<INF>2</INF> leads to acidification (i.e., lowered pH) through the 
addition of carbonic acid. Rather than leading to the dissolution of 
CaCO<INF>3</INF>-based shells of various animals in the oceans, many 
species will thrive on the addition of carbonate and bicarbonate ions 
and the slightly lowered pH content. Studies which have attempted to 
demonstrate that CaCO<INF>3</INF>-based shells dissolve in lowered pH 
conditions often have used hydrochloric acid, rather than carbonic 
acid, which has a considerably different chemistry.
    Coastal living is accompanied by additional hazards, although it is 
unlikely that these hazards will increase in the future due to 
increases in atmospheric concentrations of CO<INF>2</INF>, in large 
part because concentrations have increased nearly 45 percent over pre-
industrial levels and no significant impact on these hazards has been 
observed.

                                 ______
                                 

    Mr. Huffman. Thank you, Dr. Legates.
    Finally, the Committee welcomes and the Chair recognizes 
Dr. Dayaratna, Senior Statistician and Research Programmer at 
the Institute for Economic Freedom, a program of The Heritage 
Foundation in Washington, DC.
    Welcome, Doctor.

STATEMENT OF KEVIN DAYARATNA, SENIOR STATISTICIAN AND RESEARCH 
   PROGRAMMER, INSTITUTE FOR ECONOMIC FREEDOM, THE HERITAGE 
                   FOUNDATION, WASHINGTON, DC

    Dr. Dayaratna. Thank you. Chairman Huffman, Ranking Member 
McClintock, and other members of the Subcommittee, thank you 
for the opportunity to testify about healthy oceans and healthy 
economies.
    My name is Kevin Dayaratna. I am the Senior Statistician 
and Research Programmer at The Heritage Foundation. The views I 
express in this testimony are my own and should not be 
construed as representing any official position of The Heritage 
Foundation.
    Energy is literally the basis of anything and everything we 
do, from flipping on the light switch, to starting up your car, 
to enabling this very hearing to operate. And, unfortunately, 
many people take energy for granted.
    Over the course of the past decade, it has been the 
fundamental goal of policy makers in Washington to expand 
regulations across the energy sector of the economy. During my 
work at Heritage, my colleagues and I have used various 
academic models to examine the impact of proposed regulations. 
In our work published with The Heritage Foundation, we have 
found that the policies aimed at decarbonization will result in 
devastating economic impacts, with negligible impacts on the 
climate.
    The primary metric used by policy makers to justify carbon-
based regulations is the social cost of carbon, which is 
defined as the economic damages associated with a metric ton of 
carbon dioxide emissions summed across a particular time 
horizon.
    Our work is based on the same models that the Federal 
Government used to estimate the social cost of carbon. This 
work, published at Heritage as well as in the peer-reviewed 
literature, has repeatedly demonstrated, while these models 
might be interesting for academic exercises, their assumptions 
can be readily manipulated by regulators and bureaucrats.
    These models make fundamental assumptions regarding climate 
sensitivity. The idea is that these models attempt to forecast 
temperatures centuries into the future to quantify the 
associated cost of carbon dioxide emissions. A very reasonable 
question is how accurate these forecasts actually are.
    Equilibrium climate sensitivity distributions are used to 
quantify the Earth's temperature response to a doubling of 
carbon dioxide concentration. A vast amount of recently 
published research has shown lower-than-expected sensitivity to 
carbon dioxide. Indeed, recent sensitivity assumptions have 
lowered the social cost of carbon by as much as 80 percent or 
more.
    A more fundamental question not discussed by the Federal 
Government is: Are there actually any benefits associated with 
carbon dioxide emissions? Well, a model often employed by the 
EPA actually quantifies these benefits. In fact, under some 
very reasonable assumptions, there are substantial 
probabilities of negative social cost of carbon, or, in 
layman's terms, actual benefits, in some cases as high as two-
thirds, resulting from greater CO<INF>2</INF> prevalence 
allowing increased agriculture and forestry yields. This 
negative social-cost-of-carbon estimate would signify that 
carbon dioxide emissions are not a cost but a benefit to 
society.
    So, the bottom line is, these regulations are predicated on 
models that have been manipulated to justify a particular 
regulatory agenda. At Heritage, we have an exact clone of the 
Department of Energy's National Energy Modeling System to 
quantify the economic impact of this agenda.
    In particular, we modeled the regulations suggested by the 
previous administration's interagency working group and found 
that the economic impacts would be quite devastating. In 
particular, by 2035, the country would see an average 
employment shortfall of nearly 400,000 lost jobs and up to a 
20-percent increase in household electricity expenditures and 
an aggregate $2.5 trillion loss in GDP.
    Last, I will talk about the climate impact of these 
policies. The primary goal of any of these carbon-capture/
carbon-reduction policies is to reduce global climate change. 
At Heritage, we have used one of the EPA's models, the Model 
for the Assessment of Greenhouse Gas Induced Climate Change, to 
quantify the climate impact associated with the policies that I 
have described.
    In one series of simulations, we assumed the United States 
reduced carbon dioxide emissions from fossil fuels by 80 
percent and assumed a climate that is more sensitive than what 
was even assumed by the interagency working group. We found 
that by 2100 there would be a temperature reduction of one-
seventh degree Celsius and a minuscule 1.35 centimeters of sea-
level-rise reduction.
    In conclusion, regulatory policies regarding carbon dioxide 
emissions are predicated on faulty models, will have 
devastating economic impacts, and will only have negligible 
impact on the climate.
    Thank you for your attention, and I look forward to your 
questions.

    [The prepared statement of Dr. Dayaratna follows:]
Prepared Statement of Kevin D. Dayaratna, PhD, Senior Statistician and 
              Research Programmer, The Heritage Foundation
    Chairman Huffman, Ranking Member McClintock, and other members of 
the Subcommittee, thank you for the opportunity to testify about 
healthy oceans and healthy economies. My name is Kevin Dayaratna. I am 
the Senior Statistician and Research Programmer at The Heritage 
Foundation. The views I express in this testimony are my own and should 
not be construed as representing any official position of The Heritage 
Foundation.
    Energy is the fundamental building block of civilization from 
flipping on a light switch, to starting up our cars, to enabling this 
very hearing to operate. Unfortunately, however, many people take 
energy for granted. Over the course of the past decade, it has been a 
fundamental goal of policy makers in Washington to expand regulations 
across the energy sector of the economy. As a result, it is important 
to quantify the impacts of this fundamental building block both in 
terms of the economy as well as in terms of the climate. Over the 
course of my work at The Heritage Foundation, my colleagues and I have 
used the same models that the Federal Government has used to quantify 
these impacts ourselves. We have found in our work published both at 
Heritage and in the peer-reviewed literature that these policies aimed 
at decarbonization are predicated on user-manipulated models. Moreover, 
we have found that these policies will result in devastating economic 
impacts along with negligible impacts on the climate. Policies aimed at 
taking advantage of our vast oil and gas supply, on the other hand, 
will grow the economy for years to come.
               the justification behind these regulations
    For much of the past decade, the Federal Government has sought to 
expand regulations across the energy sector of the economy. One of the 
primary justifications for doing so has been the social cost of carbon 
(SCC), which is defined as the economic damages associated with a 
metric ton of carbon dioxide (CO<INF>2</INF>) emissions summed across a 
particular time horizon.\1\
---------------------------------------------------------------------------
    \1\ The official definition of the social cost of carbon is the 
economic damages per metric ton of CO<INF>2</INF> emissions, and is 
discussed further in U.S. Environmental Protection Agency, ``The Social 
Cost of Carbon,'' http://www.epa.gov/climatechange/EPAactivities/
economics/scc.html (accessed September 14, 2013).
---------------------------------------------------------------------------
    There are three primary statistical models that the Interagency 
Working Group (IWG) has used to estimate the SCC--the DICE Model, the 
FUND model, and the PAGE model.\2\ Over the past several years at The 
Heritage Foundation, my colleagues and I have used the DICE and FUND 
models, testing their sensitivity to a variety of important 
assumptions. Our research, published as Heritage Foundation 
publications, in the peer-reviewed literature, and discussed in my 
prior congressional testimony, has repeatedly illustrated that although 
these models might be interesting academic exercises, they are 
extremely sensitive to very reasonable changes to assumptions.\3\ These 
models can be manipulated by user-selected assumptions and are thus not 
legitimate for guiding regulatory policy.
---------------------------------------------------------------------------
    \2\ For the DICE model, see William D. Nordhaus, ``RICE and DICE 
Models of Economics of Climate Change,'' Yale University, November 
2006, http://www.econ.yale.edu/nordhaus/homepage/dicemodels.htm 
(accessed November 6, 2013).
    For the FUND model, see ``FUND--Climate Framework for Uncertainty, 
Negotiation and Distribution,'' http://www.fund-model.org/ (accessed 
November 6, 2013).
    For the PAGE model, see Climate CoLab, ``PAGE,'' http://
climatecolab.org/resources/-/wiki/Main/PAGE (accessed November 6, 
2013).
    See also U.S. Interagency Working Group on Social Cost of 
Greenhouse Gases, ``Technical Support Document: Technical Update of the 
Social Cost of Carbon for Regulatory Impact Analysis Under Executive 
Order 12866,'' May 2013, revised November 2013, https://www.epa.gov/
sites/production/files/2016-12/documents/sc_co2_tsd_august_2016.pdf 
(accessed February 6, 2019); U.S. Interagency Working Group on Social 
Cost of Greenhouse Gases, ``Addendum to Technical Support Document on 
Social Cost of Carbon for Regulatory Impact Analyses under Executive 
Order 12866: Application of Methodology to Estimate the Social Cost of 
Methane and the Social Cost of Nitrous Oxide,'' August 2016, https://
www.epa.gov/sites/production/files/2016-12/documents/addendum_to_sc-
ghg_tsd_august_2016.pdf (accessed February 6, 2019); and U.S. 
Interagency Working Group on Social Cost of Greenhouse Gases, ``2010 
Technical Support Document: Social Cost of Carbon for Regulatory Impact 
Analysis under Executive Order 12866,'' February 2010, https://
www.epa.gov/sites/production/files/2016-12/documents/scc_tsd_2010.pdf 
(accessed February 6, 2019).
    \3\ Kevin D. Dayaratna and David W. Kreutzer, ``Unfounded FUND: Yet 
Another EPA Model Not Ready for the Big Game,'' Heritage Foundation 
Backgrounder No. 2897, April 29, 2014, http: / / www.heritage.org / 
research / reports / 2014 / 04 /unfounded-fund-yet-another-epa-model-
not- ready-for-the-big-game; Kevin D. Dayaratna and David W. Kreutzer, 
``Loaded DICE: An EPA Model Not Ready for the Big Game,'' Heritage 
Foundation Backgrounder No. 2860, November 21, 2013, http://
www.heritage.org/research/reports/2013/11/loaded-dice-an-epa-model-not-
ready-for-the-big-game; and Kevin D. Dayaratna, and David Kreutzer, 
``Environment: Social Cost of Carbon Statistical Modeling Is Smoke and 
Mirrors,'' Natural Gas & Electricity, Vol. 30, No. 12 (2014), pp. 7-11; 
K. Dayaratna, R. McKitrick, and D. Kreutzer, ``Empirically Constrained 
Climate Sensitivity and the Social Cost of Carbon,'' Climate Change 
Economics, Vol. 8, No. 2 (2017), p. 1750006; Kevin D. Dayaratna, ``An 
Analysis of the Obama Administration's Social Cost of Carbon,'' 
testimony before the Committee on Natural Resources, U.S. House of 
Representatives, July 23, 2015; and Kevin D. Dayaratna, ``At What Cost? 
Examining the Social Cost of Carbon,'' testimony before the Committee 
on House, Sciences, and Technology, U.S. House of Representatives, 
February 28, 2017.
---------------------------------------------------------------------------
    These models are estimated by Monte Carlo simulation. The general 
idea behind Monte Carlo simulation is that since some aspects of the 
models are random, the models are repeatedly estimated to generate a 
spectrum of probable outcomes. As a result of principles in probability 
theory, repeated estimation for a sufficient amount of time provides a 
reasonable characterization of the SCC's distributional properties.
    As with any statistical model, however, these models are grounded 
by assumptions. In our work, my colleagues and I have rigorously 
examined three important assumptions: the choice of a discount rate, a 
time horizon, and the specification of an equilibrium climate 
sensitivity distribution.
                             discount rate
    The concept of discount rates is best viewed by considering an 
expenditure today as a benefit in the future via an investment. 
Discounting future benefits of averting climate damage compares the 
rate of return from CO<INF>2</INF> reduction to the rate of return that 
could be expected from other investments. In principle, discounting 
runs the compound rate of return exercise backward, calculating how 
much would need to be invested at a reasonably expected interest rate 
today to result in the value of the averted future climate damage.\4\
---------------------------------------------------------------------------
    \4\ D. W. Kreutzer, ``Discounting Climate Costs,'' Heritage 
Foundation Issue Brief No. 4575, June 16, 2016, https://
www.heritage.org/environment/report/discounting-climate-costs.
---------------------------------------------------------------------------
    The Environmental Protection Agency has run these models using 2.5 
percent, 3.0 percent, and 5.0 percent discount rates despite the fact 
that the Office of Management and Budget guidance in Circular A-4 has 
specifically stipulated that a 7.0 percent discount rate be used as 
well.\5\ In my research, we re-estimated these models using a 7.0 
percent discount rate in a variety of publications. Below are our 
results published in the peer-reviewed journal Climate Change 
Economics:
---------------------------------------------------------------------------
    \5\ Office of Management and Budget, ``Circular A-4,'' Obama White 
House, February 22, 2017, https://obamawhitehouse.archives.gov/omb/
circulars_a004_a-4/ (accessed February 6, 2019), and Paul C. ``Chip'' 
Knappenberger, ``An Example of the Abuse of the Social Cost of 
Carbon,'' Cato-at-Liberty, August 23, 2013, http://www.cato.org/blog/
example-abuse-social-cost-carbon (accessed February 6, 2019).

                                 DICE Model Average SCC--Baseline, End Year 2300
----------------------------------------------------------------------------------------------------------------
         Year           Discount Rate--2.50%   Discount Rate--3.0%    Discount Rate--5.0%    Discount Rate--7.0%
----------------------------------------------------------------------------------------------------------------
             2010                 $46.58                 $30.04                  $8.81                  $4.02
----------------------------------------------------------------------------------------------------------------
             2020                 $56.92                 $37.79                 $12.10                  $5.87
----------------------------------------------------------------------------------------------------------------
             2030                 $66.53                 $45.15                 $15.33                  $7.70
----------------------------------------------------------------------------------------------------------------
             2040                 $76.96                 $53.26                 $19.02                  $9.85
----------------------------------------------------------------------------------------------------------------
             2050                 $87.70                 $61.72                 $23.06                 $12.25
----------------------------------------------------------------------------------------------------------------



                                 FUND Model Average SCC--Baseline, End Year 2300
----------------------------------------------------------------------------------------------------------------
         Year           Discount Rate--2.50%   Discount Rate--3.0%    Discount Rate--5.0%    Discount Rate--7.0%
----------------------------------------------------------------------------------------------------------------
             2010                 $29.69                 $16.98                  $1.87                 -$0.53
----------------------------------------------------------------------------------------------------------------
             2020                 $32.90                 $19.33                  $2.54                 -$0.37
----------------------------------------------------------------------------------------------------------------
             2030                 $36.16                 $21.78                  $3.31                 -$0.13
----------------------------------------------------------------------------------------------------------------
             2040                 $39.53                 $24.36                  $4.21                  $0.19
----------------------------------------------------------------------------------------------------------------
             2050                 $42.98                 $27.06                  $5.25                  $0.63
----------------------------------------------------------------------------------------------------------------


    As the above tables illustrate, the SCC estimates are drastically 
reduced under the use of a 7.0 percent discount rate. In fact, under 
the FUND model, the estimates are negative, suggesting that there are 
actually benefits to CO<INF>2</INF> emissions. These changes in the 
discount rate can cause the SCC to drop by as much as 80 percent or 
more.
                              time horizon
    It is essentially impossible to forecast technological change 
decades, let alone centuries, into the future. Regardless, however, 
these SCC models are based on projections 300 years into the future. In 
my work at Heritage, I have changed this time horizon to the 
significantly less, albeit still unrealistic, time horizon of 150 years 
into the future, and we obtained the following results for the DICE 
model in our work published in 2013: \6\
---------------------------------------------------------------------------
    \6\ Dayaratna and Kreutzer, ``Loaded DICE: An EPA Model Not Ready 
for the Big Game.''

                                      DICE Model Average SCC--End Year 2150
----------------------------------------------------------------------------------------------------------------
         Year           Discount Rate--2.50%   Discount Rate--3.0%    Discount Rate--5.0%    Discount Rate--7.0%
----------------------------------------------------------------------------------------------------------------
             2010                 $36.78                 $26.01                  $8.66                  $4.01
----------------------------------------------------------------------------------------------------------------
             2020                 $44.41                 $32.38                 $11.85                  $5.85
----------------------------------------------------------------------------------------------------------------
             2030                 $50.82                 $38.00                 $14.92                  $7.67
----------------------------------------------------------------------------------------------------------------
             2040                 $57.17                 $43.79                 $18.36                  $9.79
----------------------------------------------------------------------------------------------------------------
             2050                 $62.81                 $49.20                 $22.00                 $12.13
----------------------------------------------------------------------------------------------------------------


    Clearly, the SCC estimates drop substantially as a result of 
changing the end year (in some cases by over 25 percent).
           equilibrium climate sensitivity (ecs) distribution
    These models, of course, take into account assumptions regarding 
the planet's climate sensitivity. The real question, however, is the 
degree of accuracy statistical models have at doing so. Professor John 
Christy testified in both 2013 and 2016 regarding the efficacy of 
climate change projections and juxtaposed them against actual weather 
balloon and satellite data.\7\ Christy has exposed the sheer inadequacy 
of the Intergovernmental Panel on Climate Change's (IPCC) models in 
forecasting global temperatures:
---------------------------------------------------------------------------
    \7\ John R. Christy, testimony before the Committee on Science, 
Space & Technology, U.S. House of Representatives, February 2, 2016, 
and John R. Christy, ``A Factual Look at the Relationship Between 
Climate and Weather,'' testimony before the Subcommittee on 
Environment, Committee on Natural Resources, U.S. House of 
Representatives, December 11, 2013.


    The climate specification used in estimating the SCC is that of 
an ECS distribution. These distributions probabilistically quantify the 
earth's temperature response to a doubling of CO<INF>2</INF> 
concentrations. The ECS distribution used by the IWG is based on a 
paper published in the journal Science 12 years ago by Gerard Roe and 
Marcia Baker. This non-empirical distribution, calibrated by the IWG 
based on assumptions that the group decided on climate change in 
conjunction with IPCC recommendations, has been deemed to be ``no 
longer scientifically defensible.'' \8\ Since then, a variety of newer 
and more up-to-date distributions have been suggested in the peer-
reviewed literature. Many of these distributions, in fact, suggest 
lower probabilities of extreme global warming in response to 
CO<INF>2</INF> concentrations. Below are a few such distributions: \9\
---------------------------------------------------------------------------
    \8\ Patrick J. Michaels, ``An Analysis of the Obama 
Administration's Social Cost of Carbon,'' testimony before the 
Committee on Natural Resources, U.S. House of Representatives, July 22, 
2015, https://www.cato.org/publications/testimony/analysis-obama-
administrations-social-cost-carbon (accessed February 6, 2019).
    \9\ Gerard H. Roe and Marcia B. Baker, ``Why Is Climate Sensitivity 
So Unpredictable?'' Science, Vol. 318, No. 5850 (October 26, 2007), pp. 
629-632; Nicholas Lewis, ``An Objective Bayesian Improved Approach for 
Applying Optimal Fingerprint Techniques to Estimate Climate 
Sensitivity,'' Journal of Climate, Vol. 26, No. 19 (October 2013), pp. 
7414-7429; Alexander Otto et al., ``Energy Budget Constraints on 
Climate Response,'' Nature Geoscience, Vol. 6, No. 6 (June 2013), pp. 
415-416; Nicholas Lewis and Judith A. Curry, ``The Implications for 
Climate Sensitivity of AR5 Forcing and Heat Uptake Estimates,'' Climate 
Dynamics, Vol. 45, No. 3, pp. 1009-1923, http://link.springer.com/
article/10.1007/s00382-014-2342-y (accessed February 6, 2019); and U.S. 
Interagency Working Group on Social Cost of Greenhouse Gases, ``2010 
Technical Support Document: Social Cost of Carbon for Regulatory Impact 
Analysis under Executive Order 12866,'' February 2010, https://
www.epa.gov/sites/production/files/2016-12/documents/scc_tsd_2010.pdf 
(accessed February 6, 2019).


   The area under the curve between two temperature points depicts 
the probability that the earth's temperature will increase between 
those amounts in response to a doubling of CO<INF>2</INF> 
concentrations. Thus, the area under the curve from 4 degrees C onwards 
(known as a ``tail probability'') provides the probability that the 
earth's temperature will warm by more than 4 degrees Celsius in 
response to a doubling of CO<INF>2</INF> concentrations. Note that the 
more up-to-date ECS distributions (Otto et al., 2013; Lewis, 2013; 
Lewis and Curry, 2015) have significantly lower tail probabilities than 
the outdated Roe-Baker (2007) distribution used by the IWG. In our 
research published in Climate Change Economics, we re-estimated the SCC 
having used these more up-to-date ECS distributions and obtained the 
following results: \10\
---------------------------------------------------------------------------
    \10\ Dayaratna, McKitrick, and Kreutzer, ``Empirically Constrained 
Climate Sensitivity and the Social Cost of Carbon.''


    DICE Model Average SCC--ECS Distribution Updated in Accordance with Lewis and Curry (2015), End Year 2300
----------------------------------------------------------------------------------------------------------------
         Year           Discount Rate--2.50%   Discount Rate--3.0%    Discount Rate--5.0%    Discount Rate--7.0%
----------------------------------------------------------------------------------------------------------------
             2010                 $23.62                 $15.62                  $5.03                  $2.48
----------------------------------------------------------------------------------------------------------------
             2020                 $28.92                 $19.66                  $6.86                  $3.57
----------------------------------------------------------------------------------------------------------------
             2030                 $33.95                 $23.56                  $8.67                  $4.65
----------------------------------------------------------------------------------------------------------------
             2040                 $39.47                 $27.88                 $10.74                  $5.91
----------------------------------------------------------------------------------------------------------------
             2050                 $45.34                 $32.51                 $13.03                  $7.32
----------------------------------------------------------------------------------------------------------------


    FUND Model Average SCC--ECS Distribution Updated in Accordance with Lewis and Curry (2015), End Year 2300
----------------------------------------------------------------------------------------------------------------
         Year           Discount Rate--2.50%   Discount Rate--3.0%    Discount Rate--5.0%    Discount Rate--7.0%
----------------------------------------------------------------------------------------------------------------
             2010                  $5.25                  $2.78                 -$0.65                 -$1.12
----------------------------------------------------------------------------------------------------------------
             2020                  $5.86                  $3.33                 -$0.47                 -$1.10
----------------------------------------------------------------------------------------------------------------
             2030                  $6.45                  $3.90                 -$0.19                 -$1.01
----------------------------------------------------------------------------------------------------------------
             2040                  $7.02                  $4.49                 -$0.18                 -$0.82
----------------------------------------------------------------------------------------------------------------
             2050                  $7.53                  $5.09                  $0.64                 -$0.53
----------------------------------------------------------------------------------------------------------------

    Again, we notice drastically lower estimates of the SCC using these 
more up-to-date ECS distributions. These results are not surprising--
the IWG's estimates of the SCC were based on outdated assumptions that 
overstated the probabilities of extreme global warming, which 
artificially inflated their estimates of the SCC.
                               negativity
    When people talk about the social cost of carbon, they tend to 
think of damages. Not all of these models, however, suggest that there 
are always damages associated with CO<INF>2</INF> emissions. The FUND 
model, in fact, allows for the SCC to be negative based on feedback 
mechanisms due to CO<INF>2</INF> emissions. In my research at The 
Heritage Foundation, we computed the probability of a negative SCC 
under a variety of assumptions. Below are some of our results published 
both at Heritage as well as in the peer-reviewed journal Climate Change 
Economics: \11\
---------------------------------------------------------------------------
    \11\ Dayaratna and Kreutzer, ``Unfounded FUND: Yet Another EPA 
Model Not Ready for the Big Game,'' and Dayaratna, McKitrick, and 
Kreutzer, ``Empirically Constrained Climate Sensitivity and the Social 
Cost of Carbon.''

  FUND Model Probability of Negative SCC--ECS Distribution Based on Outdated Roe-Baker (2007) Distribution, End
                                                    Year 2300
----------------------------------------------------------------------------------------------------------------
         Year           Discount Rate--2.50%   Discount Rate--3.0%    Discount Rate--5.0%    Discount Rate--7.0%
----------------------------------------------------------------------------------------------------------------
             2010                  0.087                  0.121                  0.372                  0.642
----------------------------------------------------------------------------------------------------------------
             2020                  0.084                  0.115                  0.344                  0.601
----------------------------------------------------------------------------------------------------------------
             2030                  0.080                  0.108                  0.312                  0.555
----------------------------------------------------------------------------------------------------------------
             2040                  0.075                  0.101                  0.282                  0.507
----------------------------------------------------------------------------------------------------------------
             2050                  0.071                  0.093                  0.251                  0.455
----------------------------------------------------------------------------------------------------------------


FUND Model Probability of Negative SCC--ECS Distribution Updated in Accordance with Otto et al. (2013), End Year
                                                      2300
----------------------------------------------------------------------------------------------------------------
         Year           Discount Rate--2.50%   Discount Rate--3.0%    Discount Rate--5.0%    Discount Rate--7.0%
----------------------------------------------------------------------------------------------------------------
             2010                  0.278                  0.321                  0.529                  0.701
----------------------------------------------------------------------------------------------------------------
             2020                  0.268                  0.306                  0.496                  0.661
----------------------------------------------------------------------------------------------------------------
             2030                  0.255                  0.291                  0.461                  0.619
----------------------------------------------------------------------------------------------------------------
             2040                  0.244                  0.274                  0.425                  0.571
----------------------------------------------------------------------------------------------------------------
             2050                  0.228                  0.256                  0.386                  0.517
----------------------------------------------------------------------------------------------------------------


 FUND Model Probability of Negative SCC--ECS Distribution Updated in Accordance with Lewis (2013), End Year 2300
----------------------------------------------------------------------------------------------------------------
         Year           Discount Rate--2.50%   Discount Rate--3.0%    Discount Rate--5.0%    Discount Rate--7.0%
----------------------------------------------------------------------------------------------------------------
             2010                  0.390                  0.431                  0.598                  0.722
----------------------------------------------------------------------------------------------------------------
             2020                  0.375                  0.411                  0.565                  0.685
----------------------------------------------------------------------------------------------------------------
             2030                  0.361                  0.392                  0.530                  0.645
----------------------------------------------------------------------------------------------------------------
             2040                  0.344                  0.371                  0.491                  0.598
----------------------------------------------------------------------------------------------------------------
             2050                  0.326                  0.349                  0.449                  0.545
----------------------------------------------------------------------------------------------------------------



 FUND Model Probability of Negative SCC--ECS Distribution Updated in Accordance with Lewis and Curry (2015), End
                                                    Year 2300
----------------------------------------------------------------------------------------------------------------
         Year           Discount Rate--2.50%   Discount Rate--3.0%    Discount Rate--5.0%    Discount Rate--7.0%
----------------------------------------------------------------------------------------------------------------
             2010                  0.416                  0.450                  0.601                  0.730
----------------------------------------------------------------------------------------------------------------
             2020                  0.402                  0.432                  0.570                  0.690
----------------------------------------------------------------------------------------------------------------
             2030                  0.388                  0.414                  0.536                  0.646
----------------------------------------------------------------------------------------------------------------
             2040                  0.371                  0.394                  0.496                  0.597
----------------------------------------------------------------------------------------------------------------
             2050                  0.354                  0.372                  0.456                  0.542
----------------------------------------------------------------------------------------------------------------


    As the above statistics illustrate, under a very reasonable set of 
assumptions, the SCC is overwhelmingly likely to be negative, which 
would suggest the government should, in fact, subsidize (not limit) 
CO<INF>2</INF> emissions. Of course, we by no means use these results 
to suggest that the government should actually subsidize CO<INF>2</INF> 
emissions, but rather to illustrate the extreme sensitivity of these 
models to reasonable changes to assumptions and can thus be quite 
easily fixed by policy makers.

                            economic impact
    In our research at The Heritage Foundation, we used the Heritage 
Energy Model, a clone of the Department of Energy's National Energy 
Modeling System to quantify the economic impact of both implementing 
further carbon-based regulations as well as repealing existing ones. 
One policy we analyzed was the Clean Power Plan, a policy initiated by 
the Obama administration to regulate carbon-based emissions. We found 
that by 2035, the policy would result in an average employment 
shortfall of over 70,000 lost jobs, a loss of income of more than 
$10,000 for a family of four, an up to 5 percent increase in household 
electricity expenditures, and an aggregate $1 trillion loss in gross 
domestic product (GDP). I discussed these facts during congressional 
testimony for the House, Sciences, and Technology Committee in June 
2016.\12\
---------------------------------------------------------------------------
    \12\ Kevin D. Dayaratna, ``The Economic Impact of the Clean Power 
Plan,'' testimony before the Committee on House, Science, and 
Technology, U.S. House of Representatives, June 24, 2015, https://
www.heritage.org/testimony/the-economic-impact-the-clean-power-plan.
---------------------------------------------------------------------------
    In addition, we also used the Heritage Energy Model to quantify the 
economic impact of the Paris Agreement on the American economy. In our 
research published in 2016, we found that the economic impacts would be 
quite devastating--in particular by 2035, the country would see an 
average employment shortfall of nearly 400,000 lost jobs, a loss of 
income of more than $20,000 for a family of four, an up to 20 percent 
increase in household electricity expenditures, and an aggregate $2.5 
trillion loss in GDP.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    In other research at The Heritage Foundation, we considered the 
impact of taking advantage of the significant shale oil and gas supply 
available here in the United States. The Institute for Energy Research 
has noted that North America alone has over 1.4 trillion barrels of oil 
and 2.2 quadrillion cubic feet of natural gas. My colleagues and I have 
used the Heritage Energy Model to look into the impact of actually 
taking advantage of these resources. Our research found that if this 
vast supply were actually utilized that by 2035, the country would see 
an average employment gain of nearly 700,000 jobs, an increase in over 
$27,000 for a family of four, a marked reduction in household 
electricity expenditures, and an aggregate $2.4 trillion increase in 
GDP.\13\
---------------------------------------------------------------------------
    \13\ Kevin D. Dayaratna, Nicolas D. Loris, and David W. Kreutzer, 
``The Obama Administration's Climate Agenda: Will Hit Manufacturing 
Hard,'' Heritage Foundation Backgrounder No. 2990, November 13, 2014, 
http://www.heritage.org/research/reports/2014/11/the-obama-
administrations-climate-agenda-underestimated-costs-and-exaggerated-
benefits; Kevin D. Dayaratna, Nicolas D. Loris, and David W. Kreutzer, 
``The Obama Administration's Climate Agenda: Underestimated Costs and 
Exaggerated Benefits,'' Heritage Foundation Backgrounder No. 2975, 
November 13, 2014, http://www.heritage.org/research/reports/2014/11/
the-obama-administrations-climate-agenda-underestimated-costs-and-
exaggerated-benefits; Nicholas D. Loris, Kevin Dayaratna, and David W. 
Kreutzer, ``EPA Power Plant Regulations: A Backdoor Energy Tax,'' 
Heritage Foundation Backgrounder No. 2863, December 5, 2013, http://
www.heritage.org/research/reports/2013/12/epa-power-plant-regulations-
a-backdoor-energy-tax; David W. Kreutzer, Nicholas D. Loris, and Kevin 
Dayaratna, ``Cost of a Climate Policy: The Economic Impact of Obama's 
Climate Action Plan,'' Heritage Foundation Issue Brief No. 3978, June 
27, 2013, http://www.heritage.org/research/reports/2013/06/climate-
policy-economic-impact-and-cost-of-obama-s-climate-action-plan; David 
W. Kreutzer and Kevin Dayaratna, ``Boxer-Sanders Carbon Tax: Economic 
Impact,'' Heritage Foundation Issue Brief No. 3905, April 11, 2013, 
http://www.heritage.org/research/reports/2013/04/boxer-sanders-carbon-
tax-economic-impact; ``Consequences of Paris Protocol: Devastating 
Economic Costs, Essentially Zero Environmental Benefits,'' Heritage 
Foundation Report, April 13, 2016, http://www.heritage.org/environment/
report/consequences-paris-protocol-devastating-economic-costs-
essentially-zero; Institute for Energy Research, North American Energy 
Inventory, December 2011, https://www.instituteforenergyresearch.org/
wp-content/uploads/2013/01/Energy-Inventory.pdf (accessed February 6, 
2019); and Kevin Dayaratna and Nicholas Loris, ``Turning America's 
Energy Abundance into Energy Dominance,'' Heritage Foundation Report, 
November 3, 2017, https://www.heritage.org/energy-economics/report/
turning-americas-energy-abundance-energy-dominance.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                 negligible environmental benefits
    In our research at The Heritage Foundation, we have also estimated 
the environmental impact of a number of pertinent policies using the 
Model for the Assessment of Greenhouse Gas Induced Climate Change. In 
one exercise, we simulated the impact of reducing CO<INF>2</INF> 
emissions in the United States by 80 percent. Assuming a climate 
sensitivity of 4.5 degrees Celsius, we found that by 2100, the earth 
would incur a temperature reduction of 0.135 degrees Celsius and 1.35 
cm sea level rise reduction. In a second exercise, we simulated the 
impact of eliminating all CO<INF>2</INF> emissions from the United 
States completely. We found a similarly trifling change of 0.2-degree 
Celsius temperature reduction and 2 cm of sea level rise reduction. In 
a third exercise, we modeled the climate impact of taking advantage of 
the oil/gas resources discussed in Dayaratna et al. (2017). We again 
found a negligible impact of less than 0.003-degree Celsius change in 
temperature and 0.02 cm of sea level rise increase.\14\
---------------------------------------------------------------------------
    \14\ Kevin Dayaratna and Nicholas Loris, ``Turning America's Energy 
Abundance into Energy Dominance,'' Heritage Foundation Report, November 
3, 2017, https://www.heritage.org/energy-economics/report/turning-
americas-energy-abundance-energy-dominance, and University Corporation 
for Atmospheric Research, ``MAGICC/SCENGEN,'' http://www.cgd.ucar.edu/
cas/wigley/magicc/ (accessed January 9, 2017).
---------------------------------------------------------------------------
                              conclusions
    Policies aimed at ``decarbonizing'' the American economy are 
predicated on faulty models that are prone to user-selected 
manipulation. These policies will raise the cost of energy, thus 
resulting in devastating economic impacts. On the other hand, policies 
that are aimed at taking advantage of fossil-based fuels have 
tremendous potential to grow the economy. And moreover, either policy--
regulatory or de-regulatory--will have negligible impact on the 
climate.

                                 ______
                                 

    Mr. Huffman. Thank you very much.
    We will begin our questions now.
    And I am reminded that here in the U.S. Congress we often 
hear lots of different perspectives and different interests put 
forward--folks to advance their perspectives, sometimes their 
agendas. And years ago, of course, we had scientists and 
doctors telling us that smoking was completely beneficial and 
maybe even good for you. Years later, I don't know where those 
doctors and scientists are or how they feel about what they 
said, but I think history has rendered judgment on what they 
said. And I have to wonder if we haven't heard some similar 
testimony here today.
    I want to ask several of the other witnesses about a couple 
of the claims that were just made, one being Dr. Legates saying 
that ocean acidification should cause lobsters to thrive. And 
that all sounds benign and great. We just heard, in fact, from 
Dr. Dayaratna that there could be all kinds of beneficial 
effects of increasing CO<INF>2</INF> levels in the atmosphere 
and that, in fact, there may even be an EPA model that points 
to all of this. And I am so glad we have a former administrator 
of the EPA to tell us about that.
    So, why don't I start with you, Ms. Browner. Tell us about 
this model.
    Ms. Browner. Well, thank you for the question, and thank 
you for your comments.
    The model that I think the gentleman is referring to would 
have been developed after my tenure at EPA. But I think it is 
important to note that cost-benefit analyses are a tool that 
are frequently used in evaluating the impacts of regulations. 
And when I was at EPA in the 1990s, a long time ago, we did a 
lookback under the Clean Air Act of all of the regulations and 
what the costs had been with those regulations and what the 
benefits had been. And across the board, what we found is, the 
costs were lower than anticipated--industry, even EPA, got it 
wrong; they were lower, and the benefits were greater.
    So, why is that? Because you cannot factor in American 
ingenuity and innovation. When you set a standard, when you 
adopt a regulation requiring CFCs to be replaced, you create a 
market opportunity, and the investments flow, and suddenly you 
have a replacement--faster, cheaper, more efficient than you 
had originally anticipated.
    Similarly, the benefits, they are hard to measure at the 
starting point, but what you find is that putting scrubbers on 
coal-fired power plants will reduce the pollutant you were 
targeting but it will reduce other pollutants as well. So, the 
benefits grow.
    So, across the board, what we saw is that regulations, 
properly done, that the cost-benefits done at the moment were 
not completely informed, because you couldn't be, but, in 
retrospect, the costs were lower and the benefits were greater 
of reducing pollution.
    Mr. Huffman. Ms. Casoni, how about from the perspective of 
the lobster industry? Surely, you have seen things happening 
with respect to acidification that maybe suggested lobster are 
not going to thrive, but I am sure you have also reached out to 
the best scientists on this subject because this is kind of an 
existential thing for you.
    Ms. Casoni. Correct. Thank you, Mr. Chairman.
    With all due respect, I am not a scientist, and I have been 
following ocean acidification for about 5 years. Congressman 
Keating held a panel at Woods Hole Oceanographic Institute in 
Falmouth. The highest level of scientists there studied ocean 
acidification for their careers. And they were focused 
primarily on scallops, and the scallops cannot reproduce their 
shells.
    So, I asked a question of the panel. I said, what about the 
lobsters? And they kind of shrugged their shoulders and said, 
we really haven't done a lot of research on lobsters, but they 
seemed OK. Big lobsters. It is the small lobsters, it is the 
larval, the sediment; that is the future stocks of the lobster 
industry.
    It takes 8 years for a lobster to become harvestable, so we 
are talking about the eggs, the larval stages, the near-shore 
acidification where the waters are warming the fastest. The 
runoffs are having a severe impact on that. And through the 
state of Massachusetts and the region, they have what is called 
the Lobster Settlement Index. They are seeing less and less of 
the lobsters settling near shore.
    So, that is the concern where we are seeing it. And without 
the future stocks, we don't know where the lobster industry 
will be in 8 years. I can come back and let you know.
    Mr. Huffman. Yes. Thank you.
    Dr. Bronk, as an oceanographer and a scientist, do you see 
any beneficial effects of ocean acidification, CO<INF>2</INF> 
concentrations, and other impacts of climate change?
    Dr. Bronk. Definitely not of ocean acidification.
    And to comment on some of Dr. Legates' testimony, it is 
true that some of the early studies were done using acids that 
added more of an artifact into some of the findings. And it was 
the scientists themselves that in peer review got hammered by 
other scientists that said, this is not the way to do it. There 
was a whole community that got together to do best practices. 
And now we run experiments very differently, by doubling the 
atmosphere, which is much more realistic to what is happening.
    And, in that case, Ms. Casoni is correct, it is the larval 
stages that are impacted. And it is definitely not good for 
shellfish, lobsters, corals.
    Mr. Huffman. Excellent. Thank you all very much.
    By the way, I forgot to mention, as I thank the panel for 
their testimony, I need to remind you, the Members, that 
Committee Rule 3(d) imposes a 5-minute limit on questions.
    The Chairman will now recognize the Ranking Member of the 
Full Committee, Mr. Bishop, I believe. Or are we going to go--
we will go to Ranking Member McClintock.
    Mr. McClintock. Thank you, Mr. Chairman.
    Dr. Legates, you are the only climatologist on the panel, 
and you are a pre-eminent one at that.
    Let me first ask you to comment on the critiques of the 
studies that you have cited.
    Dr. Legates. Some of this was work done by the University 
of North Carolina at Chapel Hill. And one of the things they 
did is they put blue crabs and lobsters into water with 400 
parts per million of carbon dioxide, the others into 2,800 
parts per million of carbon dioxide----
    Mr. McClintock. Is this the study where they actually 
doubled the----
    Dr. Legates. They actually did, yes, and they found that 
they grew faster.
    As I mentioned, it doesn't hold for every species. But the 
issue is that, in general, some species looked better, some 
species looked worse, and it is----
    Mr. McClintock. So, the lobsters actually looked better 
when they did the science correctly, used the atmospheric gases 
that Dr. Bronk mentioned, and discovered that lobsters grow 
faster, healthier, and stronger with higher concentrations. Is 
that what you are saying?
    Dr. Legates. Yes.
    Mr. McClintock. OK. And with respect to the dissolving of 
the clam shells?
    Dr. Legates. Well, yes, calcium-carbonated shells. That was 
the original argument that was made, that, essentially, if you 
increased acidification, it would cause them all to 
disintegrate.
    Mr. McClintock. And they simply got the chemistry wrong.
    Dr. Legates. And they found that that is not necessarily 
the case. Yes.
    Mr. McClintock. You know, the thing we hear all the time 
is, ``Oh, all the scientists agree,'' and yet here you are, a 
former climatologist with the state of Delaware. We heard from 
Judith Curry yesterday in the Full Committee, a former chair of 
the School of Earth & Atmospheric Sciences at Georgia Institute 
of Technology. I read the work of Roy Spencer and John Christy, 
who pioneered satellite sensing global climate; Fred Singer, 
former Director of the U.S. National Weather Satellite Service; 
Freeman Dyson, often referred to as Einstein's successor at 
Princeton.
    They are all telling us what you are telling us, and that 
is that this is not unusual and that there is still a great 
debate going on over the extent of human contributions to the 
climate issues, to the powerful natural forces that have driven 
it for millennia. Can you shed some light on this?
    Dr. Legates. Yes. I mean, I don't have enough time to do 
it, but the argument is that carbon dioxide is not this magic 
knob that decides the temperature of the planet. In particular, 
there are an awful lot of other things that happen. The planet 
does not warm like a greenhouse. That is simply pure radiation 
balance. But essentially the atmosphere moves, and we have 
vertical convection, we have horizontal convection.
    There are a lot of other processes that go on that I talk 
about in my Intro to Physical Climatology class that are more 
complicated than just simply the----
    Mr. McClintock. Let me ask you the same question I asked 
Dr. Curry yesterday. Are we experiencing the highest 
temperatures in the planet's history?
    Dr. Legates. The planet's history? No. Probably over the 
last 150 years, yes. But that has little to do with carbon 
dioxide. It has to do with the demise of the Little Ice Age and 
warming conditions we have had due to an increasing sun.
    Mr. McClintock. Are we experiencing the highest levels of 
atmospheric carbon dioxide in the planet's history?
    Dr. Legates. No, not in the planet's history.
    Mr. McClintock. Are we experiencing the worst droughts in 
recorded history?
    Dr. Legates. No, we are not.
    Mr. McClintock. Are we experiencing the most ferocious 
hurricanes in recorded history?
    Dr. Legates. No, we are not.
    Mr. McClintock. Over the last 30 years have our actual 
climate observations tracked with the predictions that were 
made by the IPCC and folks like James Hansen?
    Dr. Legates. This generally gets into a discussion of 
climate sensitivity, and most models are tuned to have a 
sensitivity of somewhere between 2\1/2\ and maybe 3\1/2\ 
degrees Celsius warming for doubling of carbon dioxide.
    Generally what we found and what a lot of other people have 
found more recently is that number is very high, probably on 
the order of about 1 degree Celsius per doubling. That is why 
the models have tended to show warming that is much greater 
than we have actually seen in the observations.
    Mr. McClintock. Dr. Dayaratna, you have studied the 
economics of the situation. I am sure you have looked at the 
Green New Deal. Again, just in layman's terms, what is that 
going to cost an average working family in America and what is 
it going to get us?
    Dr. Dayaratna. We haven't specifically modeled the Green 
New Deal yet, but we have modeled very similar carbon capture/
carbon reduction policies. For example, the economic impact of 
the Paris Agreement--I think we are running out of time, so I 
won't show the slide--but we noticed that over the next 20 
years there would be, using the heterogeneity model, an average 
employment shortfall of over 400,000 lost jobs, a loss of 
income of over $20,000 for a family of four, an up to 20 
percent increase in household electricity expenditures, and an 
overall $2.5 trillion loss in GDP--all, again, for negligible 
changes in the climate.
    Mr. McClintock. And what do we get for all of that 
according to the climate models?
    Dr. Dayaratna. Less than 0.2 Celsius degrees temperature 
reduction, and about less than 2 centimeters of sea level rise 
reduction.
    Mr. McClintock. Over what period?
    Dr. Legates. In 2100.
    Mr. Huffman. All right. Thank you.
    Mr. Levin is recognized.
    Mr. Levin. Thank you, Chair Huffman. I appreciate you 
holding this hearing.
    Thank you to our witnesses for taking the time to join our 
Subcommittee today.
    Yesterday, I was very pleased to participate in our Full 
Committee hearing highlighting the urgent challenge climate 
change presents. And I think Chair Grijalva, it was the first 
committee on climate change we have had in about 6 or 8 years. 
Long overdue.
    I think the testimony from our witnesses yesterday and 
today was overwhelmingly conclusive that climate change is 
driven by human activity and that Congress cannot waste any 
more time with inaction. Otherwise, the consequences for our 
communities and planet will be devastating.
    Today's focus on the state of our oceans is critical, 
particularly critical to me because my district in southern 
California, in northern San Diego County and South Orange 
County, has more than 50 miles of coastline. And my 
constituents are dealing with the impacts of climate change 
every day. It is not some theoretical concept for them.
    Already cliff erosion driven by sea level rise and wave 
energy is posing a public safety hazard to my constituents. In 
fact, the U.S. Geological Survey last year projected even 
higher levels of climate change-driven coastal erosion in San 
Diego and Orange Counties over the next century. And just a 
couple days ago there was an article in the Orange County 
Register, a historically very conservative paper, about coastal 
erosion in our beach communities in Orange County.
    And in South Orange county towns, like San Clemente and 
Dana Point, stronger storms influenced by climate change are 
literally washing away our beaches. We have seen a sea wall 
crumble, coastal trees topple over. In many cases they have 
been there for decades or even close to a century. Orange 
County now even plans to demolish public basketball courts and 
restrooms on the beach that are no longer safe to use.
    It is clear something is not normal about all of this. And 
I think it is important that our Subcommittee continue to 
explore these climate challenges that directly impact our 
coastal communities.
    I would like to turn to a couple of questions.
    Specifically to Dr. Dayaratna, did I get your name correct?
    Dr. Dayaratna. Yes.
    Mr. Levin. In your testimony, which I read, you discuss the 
social costs of carbon at length. I believe you refer to it as 
the negative social cost of carbon. And you say that at the 
Heritage Foundation you used the same data that the Obama 
administration used for its social cost of carbon calculation, 
presumably that the EPA uses and other agencies use. Obviously, 
you came to a very different conclusion.
    You also claim that the Federal Government manipulated the 
data to support, as you say, a regulatory agenda, implying an 
obvious bias, at least in your opinion.
    I will remind you that the Environmental Protection Agency 
was created under President Richard Nixon and that the Clean 
Air Act and Clean Water Act enjoyed broad bipartisan support, 
near unanimous support.
    The agenda, and I have known people from the EPA in past 
administrations, both Republican and Democratic--their agenda, 
at least their original agenda as intended from President Nixon 
and both the Democrats and Republicans who supported the Clean 
Air Act and the Clean Water Act at the time, was simply to 
protect human health and the environment.
    On the other hand, Dr. Dayaratna, I find your agenda 
perhaps a bit more suspect. So, please answer yes or no, just 
yes or no. Do studies funded by fossil fuel money have an 
agenda?
    Dr. Dayaratna. I am sorry, Congressman. I cannot answer 
that question because that has nothing to do with my research, 
so----
    Mr. Levin. I think it is clear your organization has an 
agenda.
    Dr. Dayaratna. Congressman, our financial records are 
available online. You can go to www.heritage.org and look them 
up.
    Mr. Levin. I have researched them. I have researched them 
extensively, as a matter of fact.
    Dr. Dayaratna. You can look at them all you want. I 
encourage you to get to the meat at hand, which is what these 
policies----
    Mr. Levin. I encourage you to answer my question, sir. Does 
your organization have an agenda?
    Dr. Dayaratna. Does my organization have an agenda?
    Mr. Levin. Yes, and specifically your conclusions, are they 
based on objective evidence or perhaps an agenda funded by 
fossil fuel money.
    Dr. Dayaratna. Congressman, I am an independent scholar 
within the Heritage Foundation, and my work can be scrutinized. 
It has been published both in Heritage, as well as----
    Mr. Levin. If you follow the money it is clear, Doctor, 
that you have an obvious, blatant agenda.
    Dr. Dayaratna. I have no agenda besides doing high quality 
research.
    Mr. Levin. And yet the decades of experienced people before 
you at the EPA who used that very same data to calculate a true 
social cost of carbon reached an entirely different conclusion, 
including one of our past administrators of the EPA, who I beg 
will differ with you, sir, and your false conclusion. Thank 
you.
    Dr. Dayaratna. Congressman, if you look at the assumptions 
that they make----
    Mr. Levin. I yield my time.
    Mr. Huffman. Thank you.
    Mr. Lamborn is recognized.
    Mr. Lamborn. Thank you. Thank you for having this hearing.
    I am going to try to stick to the issues and policies and 
facts, not personalities. And I would like to stick to the 
solutions that are being proposed. And one solution that is 
being proposed we heard about today, we heard about today at 
12:30, there was a big press release. And we all got our first 
chance to see what Speaker Nancy Pelosi calls the Green Dream. 
But instead of a dream the Green New Deal looks more like a 
nightmare.
    This non-binding resolution makes grandiose and socialistic 
promises of jobs for everyone, free college, and prosperity, 
but at the same time it calls for policies that will actually 
bankrupt our economy and destroy jobs.
    The Green New Deal includes a proposal to move 100 percent 
of U.S. electricity production to renewable resources by 2030, 
11 years from now. The numbers are being worked on, but it 
seems that it will require at least $5 trillion of investments 
in renewable energy and storage and will have a transition cost 
of $13 trillion over a 10-year period. It will eliminate 88 
percent of our current energy sources and about 6 million jobs.
    So, here are some facts on transportation and electricity, 
and I am going to leave aside heating, winter heating and 
manufacturing and other uses of energy.
    For transportation, Americans own roughly 250 million cars 
and trucks, and they drive 11 billion miles a day--a day. The 
vast majority of these cars and trucks are powered by gasoline 
and diesel. How will we replace that in 11 years?
    There are 30,000 commercial aviation flights a day in the 
United States, and these are all powered by jet fuel. How will 
we replace that in 11 years?
    With electricity, 82 percent of U.S. electricity is 
generated by coal, natural gas, and nuclear energy. The 
remainder is hydropower, about 7 percent, wind 8 percent, and 
solar 2 percent.
    So, to meet the need for electricity that is currently 
provided by hydrocarbons and nuclear would require, if you want 
to go to wind turbines--I will leave aside solar panels for a 
moment--but the wind turbines you would need because you can't 
put them right next to each other, they have to have some space 
between each other, you would need an area twice the size the 
state of California. OK, where are we going to put those?
    So, Dr. Dayaratna, if we go to 100 percent renewable there 
is a cost involved. Electricity is going to go up, just 
electricity. And I know this is a big range. I hope people keep 
working on these numbers and we will refine this. But right now 
the range is, with an average electrical bill in the country of 
$111 per household nationwide, of between $576 and $3,882 per 
family per year.
    What kind of impact will that have, maybe not on the middle 
class or upper class, but on working class and poor Americans, 
elderly people on a fixed income?
    Dr. Dayaratna. OK. I am sorry, Congressman, that statistic 
you cited was regarding electricity?
    Mr. Lamborn. Electricity alone.
    Dr. Dayaratna. Yes, well, that is a great question, 
Congressman. The fundamental issue is, yes, obviously household 
electricity expenditures are going to go up, and that is 
another thing that families are going to have to deal with, but 
when you think about it, like I said, energy is the most 
fundamental building block of society. So, costs regarding 
everything will go up, costs of hiring are going to go up, 
costs of transportation are going to go up. It is going to be 
more expensive for businesses to hire. Jobs will decline. The 
economy will suffer overall. And hundreds upon thousands of 
jobs will be lost as a result of these policies at this moment.
    Mr. Lamborn. Are there other social or economic impacts of 
a proposal such as the Green New Deal?
    Dr. Dayaratna. The biggest issue is that these policies are 
going to kill jobs, destroy the economy in many regards, and 
they will only have a negligible impact on the climate. These 
policies will not meaningfully impact the climate. So, when you 
really think about the cost-benefit analysis there are 
significant costs, and the benefits are basically minuscule.
    Mr. Lamborn. OK. Thank you very much, Mr. Chairman. I yield 
back.
    Mr. Huffman. Thanks. I do want to remind Members that this 
hearing is about the health of our oceans.
    And with that, I recognize Mr. Lowenthal.
    Mr. Lowenthal. Thank you. And thank you, Chair Huffman, for 
this important hearing.
    And thank you to all the panelists.
    This hearing, getting back to the oceans and to water, 
comes on the heels of new and unprecedented melting in 
Antarctica and in the Himalayas that we have just heard, I mean 
staggering.
    I had the good fortune of being on a Congressional 
Delegation to Tibet and the Himalayas and to see the potential 
impacts on the rivers. This is going to create chaos in all of 
Asia in terms of drinking water in Asia. This is unbelievable 
magnitude.
    I was also recently on a National Graphic exploratory to 
Antarctica and visited with naturalists, and was shocked by 
what I learned was happening in Antarctica.
    So, we are experiencing this crisis that I am going ask 
some questions, and we are not doing anything about this impact 
really on oceans.
    In the State of the Union address, the President did not 
mention climate change at all, it was just completely ignored, 
which is totally unacceptable. If we are having any kind of 
national emergency, it is climate change. It is not our 
Southern border.
    We are all accountable. I am not blaming the President at 
all. We are all accountable and we are all responsible for what 
is happening to the planet and what impacts it is having on our 
oceans and our water supply. And that is the reason why I 
mentioned the Himalayas and also Antarctica.
    Dr. Bronk, in your written testimony you mention that the 
magnitude of sea level rise, as I have it, depends upon the 
amounts of ice sheets and glacier melts in Greenland and in 
Antarctica. As I just pointed out, just last month a new study 
came out that is showing that there is a huge cavity now under 
a glacier, under the glaciers in the west Antarctica that is of 
major concern to scientists studying the rate at which 
Antarctica glaciers are melting.
    And it was shocking listening to the people, the percentage 
of the world, the planet's water that is in Antarctica, that 
some of the glaciers are 800 million years of age, and they are 
melting at a much faster rate than we thought before.
    Can you explain why scientists are so alarmed by the rapid 
melting of these glaciers in Antarctica now, what that means to 
sea level rise that is going to happen, and how it will impact 
the already existing that we have talked about from Arctic and 
other causes of sea level rise?
    Dr. Bronk. All right. So, both the ice that is on the land 
in Antarctica and on the land in Greenland, when that melts 
that will flow into the ocean and it will increase sea level 
rise. I am not an expert on glaciers, but my understanding is 
that there is a grounding area where the glacier is actually 
held back from going into the ocean. And what has been 
discovered over the last decade is that ocean water will erode 
underneath it, and it basically creates a skid that makes the 
glaciers move faster. And this is what seems to be happening 
especially in Greenland, and now we are discovering it also in 
Antarctica. And the idea behind it is just going to move things 
up. And the question is, are we going to reach a tipping point 
where we are not going to be able to stop it?
    Mr. Lowenthal. The same thing with the Himalayas, which are 
going to have a tremendous impact on the water supply of all of 
Asia.
    Dr. Bronk. Of all of Asia, correct.
    And, yes, so that is basically my understanding of the 
glaciers. Once you start eroding underneath and kind of 
greasing the glacier from the bottom, and we have known it has 
been happening for about a decade in Greenland, and now we are 
seeing it in Antarctica.
    Mr. Lowenthal. And I was told in Antarctica that almost 80 
percent of the world's water supply is there in Antarctica. So, 
this is of a magnitude that we did not understand before and 
now see, because we thought more of it was happening in 
Greenland and the Arctic, now we are seeing the great vast 
amounts of water.
    Dr. Bronk. And I believe that if the ice sheets that people 
are most worried about in Antarctica, if they were to flow into 
the ocean and melt, we are talking about a 21-feet increase.
    Mr. Lowenthal. That is what they were talking about.
    Dr. Bronk. Yes.
    Mr. Lowenthal. If anybody else wants to comment on an 
event.
    Recently in my district we had a meeting of homeowners, 
because I am a coastal district, where the executive director 
of our aquarium talked to everybody and said all along the 
coastal region, which is very expensive homes, sometimes we 
think the most impact will be on less expensive, but this is 
along the peninsula and Venice and Belmont Shore, those that 
know Southern California, these are beautiful, that they all 
better have an exit strategy because it is coming, flooding is 
coming, and the ability to live in those areas is coming down 
the road.
    And they had never--they kept asking, well, isn't climate 
change, can't we stop it? And there are things we can do, which 
we must do. But economically the impacts of climate change will 
totally overwhelm the impacts of what else we are doing.
    So, thank you.
    Mr. Huffman. Thank you, Mr. Lowenthal.
    Mr. Bishop is recognized for 5 minutes.
    Mr. Bishop. That is 5 minutes, wasn't it? OK. Good.
    I appreciate the opportunity to be here and listening to 
all the good science that we have heard from all over the 
place. And having experienced that now, I want you to know that 
never in my life have I been so grateful that I was a liberal 
arts major. I don't know what the hell you all are talking 
about, but it sounds really nice.
    And for Mr. Grijalva, I have been practicing. As I have 
walked around today I have been chewing gum hopefully to get 
ready for this so I can illustrate the solutions you are going 
to be presenting. So far I have just wasted of a pack of gum, 
but I am still trying. I will still work with you. As soon as 
we come up with that it is going to be exciting.
    Mr. Dayaratna, I am really happy to see you here again. You 
have been a witness before in this Committee on those meetings 
apparently we never had, but for some reason you were here 
testifying, so thank you for that, in the last couple of years.
    I am interested that both of you were talking in some 
respect about, as we do all the modeling that we come up with, 
obviously the important criteria is the assumptions that are 
made.
    Dr. Dayaratna. Oh, absolutely.
    Mr. Bishop. So, you change the assumptions, then you change 
the outcome. So, that becomes the significant one.
    Dr. Dayaratna. Exactly.
    Mr. Bishop. I am interested in the idea that energy which 
is a cost, and energy which is a concept we don't actually 
quantify very well. If the cost of that energy increases, is it 
the lowest income people that are hurt the most in our society?
    Dr. Dayaratna. Absolutely. Yes, these policies are going to 
impoverish lower income people and hurt them the most.
    Mr. Bishop. Like yesterday, when I was forced to leave 
because I had work to do, Democrats suggested that innovation 
is not the answer.
    So, I want to know from both of you, if you would, if you 
have any thoughts about pragmatic solutions that are within the 
jurisdiction of this Committee that we can do. We have proposed 
in the past that active forest management actually has a 
positive impact on the environment, that grazing and 
sequestration can have a positive impact on the environment, 
that hydropower, water storage, could have a positive impact.
    Have you seen any of these concepts that really are the 
purview of this Committee being integrated in the proposals 
that have been set forth by the other party yet?
    Dr. Dayaratna. I have not, but those policies would not 
have the economic impacts that these other things that I have 
heard about today such as the Green New Deal and other policies 
would have on the economy, and they do have the capacity to 
reduce carbon dioxide emissions. Yes.
    Mr. Bishop. So, it could still be one of those things that 
pragmatically we could actually do if we were to further those 
efforts we have started in the past?
    Dr. Dayaratna. Quite possibly, yes.
    Mr. Bishop. Dr. Legates, if I could just yield to you. 
Look, I have 2 minutes, do only a minute in the answer. But it 
was brought up about the melting of Antarctica, for which I do 
not know much. Can you just tell me very briefly about what is 
causing that, if there is something that can be actually----
    Dr. Legates. Well, part of the discussion that comes with 
the east Antarctica ice sheet is that the east Antarctica sheet 
is actually growing in mass. The west Antarctic ice sheet is 
losing mass. And part of the concern is whether or not there is 
tectonic activity underneath that is leading to a heating from 
below, which is causing it to move.
    I will point out that essentially we are not at equilibrium 
anyway. That is, if I were to take an ice cube and place it 
here in the room during the time period of this hearing that 
ice cube would continue to melt even though the room's 
temperature didn't change. I mean, that is why we have seen sea 
level rising essentially since the demise of the last ice age 
and it has been rather continuous over the last several hundred 
years. So, it is because we haven't reached equilibrium, which 
is why we are seeing sea level rise.
    Mr. Bishop. I appreciate that. I appreciate you doing it 
within the 1 minute.
    Let me actually make up for some others and yield back 
faster than I could. I do have one unanimous consent request. 
And also I am going to be looking forward to the ``so what'' 
phase when we get there on what solutions actually will be 
proposed in here which will be a much more meaningful 
discussion at that point in the game.
    But, Mr. Chairman, Mr. Chair, I am going to ask unanimous 
consent to enter into the record a study from the Journal of 
Agricultural Economics, from the journal, Agriculture, 
Ecosystems, and Environment, titled ``Grazing management 
impacts on vegetation, soil biota and soil chemical, physical 
and hydrological properties in tall grass prairie.''
    And if that doesn't put you all to sleep, nothing else 
will. It is a wonderful title. It is a long article. But 
actually it has some data that is useful.
    Mr. Huffman. Without objection.
    Thank you, Mr. Bishop. And I am going take your testimony 
as an invitation to co-sponsor the bills that I have on all the 
issues you walked through in this Congress. So, we are off to a 
great collaborative start.
    Mr. Bishop. And if they are good bills then I will be happy 
to do that. Otherwise I will save the ink.
    Mr. Huffman. Mr. Van Drew, you are recognized.
    Mr. Van Drew. Thank you, Chairman.
    First of all, let me congratulate the Chairman on holding 
these hearings and also ensuring that there is a Minority and a 
Majority viewpoint. I think that helps a lot in the future as 
we all deal with each other. We really are all in this 
together. I know many of us think we are not, but we are, so I 
think that is a good thing.
    I am from New Jersey, coastal New Jersey, Cape May County, 
which is considered the fifth most vulnerable place during an 
evacuation literally in the East Coast and maybe the United 
States of America. This is an issue between the Delaware Bay 
and the Atlantic Ocean and the whole area that concerns me a 
great deal.
    And the second thing I wanted to say that I really 
appreciated on everybody's part, I deal with a lot of 
fishermen, always did. I was a State Senator before. I really 
appreciate that people generally understand that the majority 
of fishermen are not individuals who want to hurt the ocean, 
that they really do realize in order for their lives to go 
forward there has to be fish. So, they are really concerned.
    And I will say, third, that I have spoken to a lot of them, 
I do all the time, and they have noticed that there are 
different fish that are coming in different areas of the ocean 
as we speak.
    The part that has always been complicated for me with this 
is, whether it is RGGI or whether it is many of the other 
programs or policies that we can have, how is the United States 
going to be able on its own to be able to make a tangible 
impact for those that do believe in global warming when so much 
of the world doesn't care? For those that believe it, how are 
you going to do it? China doesn't care, Russia doesn't care, a 
lot of Asia doesn't care.
    So, I wonder how are we really going to be able to effect 
real change even if you do believe it? Anybody have thoughts, 
any of you, on that? We are such a small part of the globe 
relatively.
    Ms. Browner. Right, but we have a long history, and so I 
think many of us would believe that we have a responsibility 
that we have to provide global leadership. And under the prior 
administration, which I was honored to be part of, we were 
doing just that. We were working with other countries around 
the world, working in global forums to craft solutions, while 
also doing the work we needed to do here at home, whether it 
was working with the car industry to agree on a program to 
bring cleaner, more efficient cars, which means a tank of gas 
would go further, saving people money at the tank, our children 
would breathe easier. So, it is a combination.
    Mr. Van Drew. And it is, and those things are good and I 
agree with you, and we certainly did the right thing. The 
problem now is that, for example, China is burning coal. I 
mean, we are talking about many steps beyond that.
    So, I would just like to express my one concern--I am 
concerned of how we even get it done, period. I know we can 
help, I know we can make things a little better, but this is 
going to be a very huge challenge.
    The second issue I have--and I know these are kind of tough 
questions and I don't mean to put anybody on the spot, and I 
really do respect all of you a lot for being here--why is it 
now being scientists or some of you being scientists that you 
do disagree? Why do you disagree?
    I mean, this is a major difference. I am a dentist, which 
is kind of a little bit like being a scientist, and a cavity is 
a cavity. It is just there. And there are only so many ways to 
fill it.
    Dr. Bronk. I think the degree of disagreement is vastly 
overstated here. To put it bluntly, you can find a scientist 
that will say just about anything you want them to say.
    I would look at the consensus documents. For a scientist to 
agree on anything, you can get six of them to agree to go to 
the restaurant, one of them needs to pick one. We argue by 
nature. The fact that there are thousands of scientists that 
have reached consensus on documents around the world, that is 
what we should be paying attention to. Of course you are going 
to find people that are going to have other agendas.
    Mr. Van Drew. Would you say that literally it is 90 
percent?
    Dr. Bronk. It is more than that.
    Mr. Van Drew. Ninety-nine percent?
    Dr. Bronk. It is more than that. And I would also--for all 
of you, when you are looking at the kind of written statements 
that people had to submit here, what are they referencing, what 
are they citing? Are they citing themselves? Are they citing 
their own testimony? Are they citing peer-reviewed literature, 
and not journals that didn't exist 5 years ago? Where are they 
publishing in the journals that were here 100 years ago?
    Mr. Van Drew. Last real quick question, and I don't mean to 
rush you, it was a good answer, it is just that I am out of 
time.
    Do you think--and it alludes to the other question I had--
even if we do these things--two things: Do you think we can do 
it without really hurting the economy and making sure that 
people of lower socioeconomics aren't hurt? And second, do you 
think we can really make a major difference, a major difference 
worldwide, globally?
    Mr. Huffman. A little question, in 30 seconds.
    Ms. Chalk. Congressman, I am sorry. I would like to add 
that it is the real people in south Louisiana that are starting 
to make the change. And once we begin to educate residents 
around this issue people can make informed decisions based on 
the best science, based on the reality that we are living, 
because we are living this every day.
    So, no matter what the scientists may say, I beg to differ, 
because we are living and we are seeing it. We are seeing our 
vanishing coastline and communities moving. We are seeing the 
population shift. So, I would say visit us.
    Mr. Van Drew. Oh, believe me, I see it in New Jersey. I 
live 2 miles from the beach, so I know.
    Thank you all very much.
    Mr. Huffman. Thank you, Mr. Van Drew.
    Mr. Graves is next.
    And Mr. Graves, I am sorry, when I introduced Ms. Chalk 
earlier I looked over to see if--I thought there might be some 
southern Louisiana greeting you might want to offer. But it is 
your turn now, so you are recognized for 5 minutes.
    Mr. Graves. Ayeee, there we go.
    Ms. Chalk. Ayeee.
    Mr. Graves. We are done.
    Hey, thank you all very much for being here, and I enjoyed 
your testimony.
    Queen Quet and Ms. Chalk, I enjoyed the fact that each of 
you put a lot of emphasis on community and culture. And being 
from south Louisiana, which I share with Ms. Chalk, I think 
that Louisiana has--south Louisiana has amazing people, amazing 
culture, amazing food, amazing music.
    And I can't tell you how much I appreciate somebody else 
walking into this Committee to talk about south Louisiana 
because every single one of those people are so sick of hearing 
me talk about it and talking about the land loss. So, I was 
telling the truth. We have other people that believe it.
    But also you put a face on it. And I do appreciate that. 
South Louisiana has lost 2,000 square miles, and it is really 
extraordinary, and it is losing communities, it is losing 
people. Isle de Jean Charles, one of our native communities 
down there, is effectively having to leave, and they have been 
around there for 300 years.
    So, yes, this is something that is today, that is now, that 
your community is facing, that our community is facing, and it 
is awful. It is. It is awful.
    One thing that I think we can agree upon, Mr. Chairman, is 
that I do believe that the climate is changing, and I think I 
have said that at virtually every hearing we have had where 
climate has been discussed.
    Number 2, I believe that we need to be focusing, right now, 
on adaptation measures and figure out how to protect Queen 
Quet's community, how to protect the community where Ms. Chalk 
lives, where my family lives, where 2-plus million people in 
south Louisiana live.
    And I know, Mr. Cunningham, I have been to your district 
and have seen some of the challenges with sustainability you 
have over there as well, and I think that is an area where we 
need to all be focusing.
    Ms. Browner, you noted that you think we need more funds 
invested in ecological restoration. I agree with you. And it is 
something we have been battling to try to address now for many 
years, including in this Committee, and I have expressed much 
frustration whenever this very Committee has tried to cut 
ecological restoration for south Louisiana or the various 
administrations have, because here we have wetlands laws 
protecting our wetlands at the same time we have lost 2,000 
square miles in south Louisiana, and I think it is wrong.
    There was a dialogue that I watched from the anteroom that 
I will tell you I was disturbed by. There was a line brought 
up--and I am not going to try to pronounce your name because 
you are not going to even know I am even talking to you. Help 
me out pronouncing your name.
    Dr. Dayaratna. Dayaratna.
    Mr. Graves. Dayaratna. If I would have tried, you wouldn't 
have known I was talking to you.
    Dr. Dayaratna, I want to ask you a question, yes or no. Is 
every member on this panel right now, did we receive 
contributions? Every member on this panel.
    Dr. Dayaratna. I am sorry, receive contributions?
    Mr. Graves. Did we receive campaign contributions, every 
Member on this panel?
    Dr. Dayaratna. Can you receive campaign contributions?
    Mr. Graves. Did we, have we, do you think we received 
campaign contributions to be elected?
    Dr. Dayaratna. I would assume so.
    Mr. Graves. That would be a yes. That would be a yes. And I 
will tell you, I was a little offended by the suggestion that 
anybody who has received a contribution suddenly has been 
bought in regard to an agenda. That offended me. That is not 
how I do business, and I don't think that is how people on this 
panel do business. And I want to apologize to you because I 
didn't think that was fair to you to make that suggestion.
    Dr. Dayaratna. Thank you.
    Mr. Graves. Look, let's all be clear, there are people that 
do, but I don't think it is fair to have a default position 
that everyone who has accepted a contribution has been bought 
or then takes that agenda and moves forward, and I want to make 
note that the questioner in that case has received I think it 
is over $6.5 million in contributions, and I hope we have an 
opportunity to be a little more fair with that in the future.
    Last, Dr. Legates, could you very quickly, there were 
questions brought up earlier about the relationship between 
ocean warming and hurricanes and tropical activities. I am from 
south Louisiana where we experience more than our share of 
those. IPCC, as I believe, has assigned low confidence. Could 
you expand on that, please?
    Dr. Legates. Yes. Warmer waters do provide the energy. I 
mean, hurricanes are latent heat engines. They run off the fact 
that you have evaporating water, then the energy condenses, and 
you get the energy back into the atmosphere.
    But the issue happens to be that there is an awful lot more 
to hurricane formation than simply water temperature 
underneath. Particularly, one of the important components is 
wind shear. What you need for that is the hurricane to develop 
vertically.
    So, if you have a lot of wind shear, which simply means 
winds moving at different speeds at different levels, then as 
the air starts to rise it literally gets shifted and moved over 
or shorn apart, and so the storm doesn't develop.
    So, a lot of cases we see where we have very warm water, we 
have no hurricane development, simply because the wind shear 
keeps that from happening. There are a lot more ingredients in 
the hurricane formation.
    Mr. Graves. Thank you.
    If you can just very quickly, Ms. Quet, Queen Quet, I did 
an amendment in this Committee a few months ago trying to 
designate Cajuns as endangered species. I am trying to get 
endangered species protection. Perhaps we can do your folks, as 
well, and Congressman Cunningham and I can work on that.
    But seriously, I appreciate you all being here, and I am 
looking forward to working with all of you.
    Ms. Goodwine. And I would appreciate you doing that today. 
Thank you.
    Mr. Huffman. Thank you.
    Mr. Cunningham is recognized.
    Mr. Cunningham. Thank you, Mr. Chairman.
    As you may know, protecting the coast of South Carolina 
from offshore drilling has been----
    Mr. Huffman. Mr. Cunningham, would you indulge me? I will 
restore your time. I forgot I was supposed to tell the 
witnesses that if anybody has to catch a flight, because I know 
we are running late, we won't hold that against you and we will 
understand.
    Otherwise, let's give Mr. Cunningham a full 5 minutes, and 
I apologize for the interruption.
    Mr. Cunningham. I appreciate it, Mr. Chairman.
    As you may know, protecting South Carolina's coast has been 
my Number 1 priority, especially protecting the coastline from 
offshore drilling. It is one of the reasons my constituents in 
the 1st Congressional District sent me here, and it is a 
commitment that I intend to honor. It is why on the very first 
full week of being on the job, I introduced the Coastal Economy 
Protection Act, which would put into effect a 10-year 
moratorium on oil and gas pre-leasing, leasing, and related 
activities on the Outer Continental Shelf, and that includes 
the North Atlantic, Mid Atlantic, South Atlantic, and the 
Straits of Florida planning areas, and in the Eastern Gulf of 
Mexico.
    Our oceans are at an increasing risk from the impacts of 
climate change. We have heard the testimony here today from 
warming waters, and we see those impacts in South Carolina. We 
see hurricanes intensifying and presenting a more clear and 
present danger. Climate change is an immediate threat. It is 
the greatest non-military threat to our world, and we have to 
take it seriously. And I appreciate each and every one of you 
all taking the time to provide testimony here today, because we 
realize what is at stake, and not just the beautiful beaches, 
but also our culture.
    And I appreciate Queen Quet coming up here and to testify 
as to that and the Gullah Geechee corridor and making sure that 
corridor is preserved beyond 2021, 2022, which we will talk 
about at a later date. But, Queen Quet, I wanted to give you an 
opportunity to educate the rest of the Committee as to the 
Gullah Geechee culture, why it has such an impact on South 
Carolina and our region and why it is of the utmost importance 
that that culture be preserved and how intertwined culture and 
the oceans are and the impact of climate change and what you 
would suggest that this Committee do to take its first step in 
addressing that.
    Ms. Goodwine. Thank you. Thank you greatly for all the work 
you have done in a short period of time that you have been 
seated here up the Hill from the low country, all right, 
because we come from the flat area, you know that. One of the 
things that is so powerful in what you asked about is how to 
deal with climate change and deal with culture, and I think it 
is important for this Committee and all of the policy setters, 
not just in the United States, but around the world to 
calculate cultural heritage. You can't.
    I am a mathematician and computer scientist by degree. You 
cannot actually calculate the cost of the loss of all the 
cultures that are the communities that are along these coasts. 
We have heard all the different percentages of how many 
communities of the world, how much coastline of the world is 
part of what feeds the rest of the world. Eighty percent of the 
country is being fed from these coastal communities. So, if we 
don't listen to the people who live on the land, live from the 
water, live in the water about how they sustain themselves, we 
won't be able to form the right policies, whether we are 
dealing with resilience, sustainability, climate change, sea 
level rise or any of these things.
    We formed the Gullah Geechee Sustainability Think Tank 8 
years ago to start to look at a lot of these issues before 
there were even some of the scientific data that we have been 
talking about today, because we knew Gullah Geechee culture 
would not continue to thrive or survive if we get displaced 
from the sea islands.
    So, it is critical to us that this Committee start to look 
at, where is the money? I have heard that term in this room 
today, follow the money. Well, follow the money because it 
proves what you truly are vested in and investing in. And I 
believe that if we put the money back directly in the hands and 
the pockets of the people literally living on the shorelines, 
it can make all the difference in the world because when you 
take the leelee children like Alicia, and you teach them about 
the water from that age, they will be just like me when they 
get older. They will realize the value of the coast and what 
they need to do as individuals and what they shouldn't do as 
individuals, so that collective consciousness will continue to 
move this whole process forward and be able to reverse a lot of 
what we did when we didn't know any better.
    I think that we need to invest more in citizen science. We 
need to invest directly in the cultural communities and the 
people there instead of consultants that fly in from elsewhere 
and parachute in, then parachute out and just write a paper and 
make a PowerPoint about us, while we are still there trying to 
yet hold on. I think it is critical that we work together, and 
that is why I said what I said earlier, that we need to make 
this a culturally relevant discussion, because there are things 
that we know from over 400 years on the sea islands that nobody 
else knows, and now everyone in the scientific world is looking 
at us saying, hey, maybe they had something that we all need to 
know because they are still there, and they don't leave when 
they say evacuate, and we the Beenyas and we still ain't going 
nowhere until we told. And I'm going to be there when you get 
home.
    Mr. Cunningham. I appreciate Queen Quet and educating 
people both in the Beenyas and the Comeyas on the different 
types of cultures that make the low country a special place to 
live. And I want to thank the rest of the panel as well and 
everyone who put the time and effort to get here to educate me.
    I yield back the remainder of my time.
    Mr. Huffman. Thank, you Mr. Cunningham.
    Ms. Velazquez, you are recognized. Thanks for your 
patience.
    Ms. Velazquez. Thank you very much, Mr. Chairman. And thank 
you so much both Mr. Grijalva, our Chairman, and you for 
holding this important hearing. It is important to me because I 
am a Member of Congress who happens to be Puerto Rican 
American, and we all know what happened in Puerto Rico.
    I would like to ask whether or not you see a correlation 
between Hurricane Maria, Harvey, Irma, all of them happening in 
1 year? And it is not only that there were three, but the 
force, Category 4 and 5. Do you think there is a correlation 
between the fact that Earth experienced one of the warmest 
years ever recorded and the number of hurricanes Category 4 and 
5?
    Dr. Bronk. I will take this. The hurricanes are difficult 
in terms of getting--because they are so sporadic, so in terms 
of the IPCC, there is not solid evidence, strong evidence to 
suggest that there is a link with climate warming in terms of 
the force of the hurricanes. What we are finding is evidence 
that because the ocean is warming, evaporation is greater, 
there is more moisture in the air, there is more precipitation 
coming from the hurricanes. But right now, we can't say 
necessarily that global warming is dramatically increasing the 
strength of hurricanes, but they are making it more devastating 
in terms of the precipitation they bring. And it may be quite a 
while before we will see anything like that because they are so 
sporadic to begin with, but warmer ocean water is what powers 
hurricanes.
    Ms. Velazquez. I would like to borrow something from the 
Republican playbook today, and that is quite weird for me, but 
they always say that localities, local communities, they know 
better. And when you look at how public sentiment is changing 
among people in this country regarding climate change, there is 
this collective awareness from Florida to New York, Louisiana, 
everywhere in our country, farming, agriculture, all those 
communities that think that there is something that must be 
done. And today, the polls are telling us that close to 70 
percent of the American people believe that there is climate 
change.
    Mr. Dayaratna, you mentioned the cost-benefit analysis.
    Dr. Dayaratna. Correct.
    Ms. Velazquez. For many people, particularly low-income 
communities, communities of color, indigenous communities, they 
care less about cost analysis when they know that they have 
been victims of climate change and environmental degradation.
    If you go to New York and talk to communities of color, 
particularly Latinos who come from the Caribbean, they feel 
strongly that climate change is here and that we need to 
confront it. So, inaction on this is not a choice, it is not an 
option. And what is the best way to proceed? Well, this is why 
we are bringing all the experts here. But to reject it based on 
studies that maybe, yes, are funded by fossil fuels or not--
this is an issue that is not going away. Even the majority of 
Republicans, 64 percent, believe in climate change, so I 
welcome that.
    We say that low-income communities will be the victims of 
the cost of energy because of the impact of regulations on 
their lives. Well, the fact of the matter is that they are the 
victims, not about paying more for electricity, but by the 
inaction that is happening in our agencies or our government in 
terms of addressing the issue of global warming and climate 
change.
    Dr. Dayaratna. OK. Can I respond? She addressed me.
    Mr. Huffman. Take 10 seconds, if you would.
    Dr. Dayaratna. Ten seconds. OK. Well, like I said, first, I 
am not denying that the climate is actually changing. I believe 
that the climate has been changing, the planet is warming, but 
it is warming at a much, much lower pace than a lot of people 
would have you believe. I would say that it is luke-warming.
    And second, these policies are not going to do anything to 
impact it, even if it is accelerating at a significantly high 
pace.
    Mr. Huffman. Thank you, Dr. Dayaratna.
    Dr. Dayaratna. And these people are going to suffer from 
these types of policies that I have talked about, including 
low-income communities.
    Mr. Huffman. Thank you.
    Last, but certainly not least, the illustrious Chairman of 
this Full Committee, Mr. Grijalva, is recognized for 5 minutes.
    Mr. Grijalva. Thank you very much, Mr. Chairman, and thank 
you for the hearing. Excellent witnesses and excellent work you 
and the staff do to put this together, and I appreciate it very 
much, and that you made a priority of the fact that oceans and 
the jurisdiction of your Subcommittee had to be part of the 
solution. I appreciate that, and I think everybody appreciates 
that.
    Queen Quet, I was going to ask you a question, but my 
colleague, Mr. Cunningham, asked you almost the same question. 
I think he was looking at my notes, but I am not going to 
mention that--regarding culture, the importance, what that glue 
means to people and what that means to regions, and thank you 
very much for that answer.
    Ms. Chalk, I was going to ask you, what is your response to 
people who say that climate change isn't real?
    Ms. Chalk. Thank you, Mr. Chairman. I would say that they 
have not experienced the things that we have experienced in 
southeast Louisiana or coastal Louisiana. I had 6 feet of water 
in my home due to Hurricane Katrina, 6 feet, and my house is 
raised 4 feet. So, until or unless you have water in your home 
or you can no longer get to a community because of rising sea 
levels, there is nothing that you can say that is more 
impactful than having experienced that. If you are familiar 
with the canopy at the Lowe's store, the water in my 
neighborhood was as high as the canopy on that store.
    And I had the privilege of participating with the Louisiana 
Strategic Adaptation for Future Environments, and no matter 
where I participated in that process, everyone across the six 
parishes that participated in that program had the same 
sentiment: family, faith, and food in our culture. And as the 
climate changes and those communities disappear, we lose that. 
So, I want this Committee to remember my face when you are 
making these decisions.
    Mr. Grijalva. Thank you.
    Ms. Chalk. This is real impact to real people.
    Mr. Grijalva. Thank you very much, and I appreciate that 
very much. Before we start shedding a lot of crocodile tears 
about the poor, the people that are being displaced, the ones 
that are suffering the most, let's put some substance behind 
those crocodile tears, and not make it worse, but factor and 
bring to the table the impacted communities so they can be part 
of the solution. I appreciate very much your comments.
    Ms. Chalk. Absolutely.
    Mr. Grijalva. Before I ask Ms. Browner--and thank you, good 
to see you again--any questions, the Green New Deal, you 
already hear the rumblings of creeping socialism. Planes are 
going to fall from the sky. Cars and trucks will be abandoned 
in highways and then blow away in the dust. The economy as we 
know it will be destroyed. Nothing will be left of this 
civilization. And you will hear more and more on that because 
that is going to be the new set of talking points--because 
there has been some progress made.
    We are not dealing with full throated denial of climate 
change; we are dealing with climate change avoidance. Let's 
talk about forests, let's talk about this, let's talk about, 
well, maybe the science isn't what it should be, and excuses 
not to act. And regardless of the talking points against the 
Green New Deal, it is simply this: it is aspirational. It puts 
the climate change at the top of the legislative agenda and the 
specificity on committees, like Mr. Huffman that will put 
together the legislative language and packages to begin to deal 
with resiliency and adaptation. That is the work of Congress 
and that is the work we should be doing.
    But I support the aspirational statement, the resolution 
that is non-binding, people don't have to sign it, but the fact 
remains that it is setting--it is bringing to light something 
that has not been discussed around here for a good 8 years. So, 
I think that is good.
    Ms. Browner, have you ever seen the discussion around 
environmental stewardship and the topic today this partisan?
    Ms. Browner. I think the partisanship has grown 
significantly over the last----
    Mr. Grijalva. Take the snapshot here--and why?
    Ms. Browner. Well, I think that there are more and more 
interests that are separated. And the polluters want certain 
things, and other people, the communities, want other things. 
But when I was confirmed to my job at EPA, in 1992 was my 
hearing in the Senate, and John Chafee, a Republican, chaired 
that hearing, and he said to me at the end of the hearing, 
``Ms. Browner, I hope I never hear you say the word `balance,' 
because your job is not to balance. You are running the EPA. 
Your job is to protect.'' And I think we need to remember that 
we have these institutions of the government that are there to 
protect our citizens, whether it is these women from these 
local communities or the children who are experiencing asthma 
and it is getting worse, that we have a responsibility in the 
government, and it is unfortunate that we do not focus on that 
responsibility and on that problem solving.
    I want to say one thing about the Green New Deal. I totally 
agree with everything you said. We put a man on the moon 
because we committed ourselves to it. There is nothing this 
country can't do with innovation and ingenuity. I have absolute 
faith in our ability.
    Mr. Grijalva. Thank you. I yield back, Mr. Chairman. Thank 
you.
    Mr. Huffman. Terrific. Thank you, Mr. Chair.
    I do want to thank all of the witnesses for your time and 
your expertise and coming to Washington and sharing your 
testimony. I do hope this hearing serves as a baseline on what 
we hope to address in this Subcommittee. We will prioritize 
ocean-related climate adaptation and mitigation measures as we 
go forward. And Ranking Member Bishop has sometimes asked where 
is this heading, where is it going? I know at least in this 
Subcommittee, there is going to be a strong emphasis on those 
things, and that is squarely within this Subcommittee's 
jurisdiction.
    Especially I want to thank you, Dr. Bronk, because the 
Committee Rules are very limiting. If I were to provide a panel 
of witnesses that truly reflected the scientific consensus on 
climate change, I would have needed over 90 more witnesses, and 
this room just can't accommodate that many, and the Committee 
Rules would never let me get away with that. But you were 
carrying the water, so to speak, for the overwhelming global 
scientific consensus on these issues, and I thank you and all 
the other witnesses.
    Going forward, again, just by way of preview of this 
Committee's work, we will have opportunities for coastal and 
marine habitat restoration programs to be considered, to 
reauthorize and strengthen the Coral Reef Conservation Act, to 
bolster programs addressing ocean acidification, uphold and 
strengthen the Coastal Zone Management Act, to improve data and 
monitoring efforts. And there are many of those that seem, I 
think, to be bipartisan, the Digital Coast and Integrated Ocean 
Observing System, National Estuarine Research Reserves, Sea 
Grant Program, and Harmful Algal Bloom Monitoring system.
    We will have a chance to address shifting fish stocks and 
management of our fisheries, to strengthen the National Coastal 
Zone Management Program, which works with coastal states and 
territories to address some of today's most pressing coastal 
issues, to conserve and restore blue carbon, particularly 
marshes, mangroves, and sea grasses. We will have an 
opportunity to pursue policies that support living shorelines 
that will certainly be talking about offshore drilling in this 
Committee. And I know Mr. Cunningham and many others are 
looking forward to that.
    We will have an opportunity to consider marine protected 
areas and possible expansion of those and to expand the Coastal 
Barrier Resources Act to cover more areas in order to protect 
our coasts from wind and tidal forces caused by coastal storms, 
and, of course, that is critical habitat for aquatic species.
    Finally, we will include the issue in this Subcommittee of 
marine plastics. Not only is that hurting our oceans--we didn't 
have enough time to talk about that today--but the greenhouse 
gas emissions associated with plastic production are part of 
this bigger problem we are talking about. And I hope we will be 
able to reauthorize and bolster the North American Wetlands 
Conservation Act and many, many more things.
    So, again, thanks everyone for participating in a terrific 
first hearing of this Subcommittee. The members of the 
Committee may have some additional questions for the witnesses, 
and I will ask, if you would, to respond to those in writing 
under Committee Rule 3(o). Members of the Committee must submit 
written questions within 3 business days following the hearing, 
and the hearing record will be held open for 10 business days 
for responses.
    If there is no further business, without objection, this 
Committee stands adjourned.

    [Whereupon, at 5:18 p.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

 Prepared Statement of the Hon. Raul M. Grijalva, Chair, Committee on 
                           Natural Resources
    Thank you to my friend from California, and thanks to all of the 
witnesses for being here today. Thank you for sharing your stories of 
how climate change is affecting your work and your neighborhoods. In 
holding hearings on climate change at both the Full Committee and 
Subcommittee levels, we were hoping to turn over a new leaf in the 
important work of addressing climate change and its impacts in this 
Committee. However, the Minority is sticking to its old, big oil-funded 
playbook, continuing to be out of step with the scientific consensus on 
climate change. That may have worked for the past 8 years, but 
unfortunately we are running out time to address climate pollution 
before the impacts devastate our economy. One need not look any further 
than our oceans and coasts, and the communities that depend upon them, 
to see just how quickly the costs of climate pollution are adding up.

    For example, over the past 8 years, as Republicans were in control 
of the House of Representatives but did nothing about climate change, 
our country experienced:

    <bullet> 96 storm events with over a billion dollars in damages, 
            totaling $674 billion

    <bullet> 26 fishery disasters declared or pending

    <bullet> Loss of a football field of coastal wetlands every 100 
            minutes in Louisiana

    <bullet> Spent $1.9 billion to nourish 130 beaches across the 
            country

    Needless to say, it's time to roll up our sleeves and get to work 
on climate change.

                                 ______
                                 

                        Conservation International,
                                        Arlington, Virginia

                                                  February 19, 2019

Hon. Jared Huffman, Chairman,
Hon. Tom McClintock, Ranking Member,
House Subcommittee on Water, Oceans, and Wildlife,
1324 Longworth House Office Building,
Washington, DC 20515.

Re: Subcommittee Hearing on Healthy Oceans and Healthy Economies: The 
        State of Our Oceans In the 21st Century

    Dear Chairman Huffman and Ranking Member McClintock:

    Thank you for the opportunity to provide input to the Committee's 
hearing: Healthy Oceans and Healthy Economies: The State of Our Oceans 
In the 21st Century.
    Our ocean is a 21st century wild west; its resources are in peril 
and its governance is weak--and yet it is also a major economic 
frontier, ripe for exploitation. Policy needs to be forward-looking and 
agile in responding to these opportunities and challenges.
    Overfishing, pollution, habitat loss and climate change have 
resulted in coastal and ocean ecosystems that are often unrecognizable 
from their pre-industrial state. These changes are accelerating--
including the dramatic projections of climate change impacts on our 
oceans, coastlines, and low-lying areas. This leads to lost economic 
opportunities and threats to the safety, livelihoods and culture of 
coastal communities in places like Florida, Puerto Rico, Hawai'i, 
Texas, Rhode Island, and every other coastal state.
    At the same time, there are clear opportunities to derive more 
economic value from the phenomenal size and productivity of the ocean, 
to deliver new sources of energy, and to build resilience to growing 
climate impacts.
    Emerging technologies now enable us to reach parts of the oceans 
that have been inaccessible until now, with parallels to the `wild 
west' era--opening up a region of untapped potential but limited 
governance.
    Smartly designed policy, including leveraging new technologies such 
as satellite monitoring and unmanaged submersibles, and partnering with 
coastguard and military interests, can help the ocean to support a 
thriving US economy while respecting its ecological and cultural 
significance. Sticking to the status quo would fail to maximize this 
opportunity; leave economic assets and communities exposed to 
unacceptable levels of risk; and drive overexploitation, wholesale 
conversion of territory into poorly regulated productive systems, and 
loss of species akin to the fate of the American Bison in the 19th 
century.
    Conservation International believes that a positive vision for the 
ocean's future is achievable, and that government, academia, civil 
society, and the private sector all have important roles to play.
    For example, in Hawai'i our work with the local fishing communities 
is supporting a vibrant culture and economy around seafood. Hawai'i's 
fisheries are valued at $539 million and provide over 45 million lbs. 
of seafood annually. Working with traditional and local fishers we are 
creating markets for sustainable seafood, implementing seafood 
traceability, and working with businesses to reducing seafood waste.
    Similarly, strong conservation in the Papahanaumokuakea Marine 
National Monument led to over $100 million of investment in research, 
vessel operations, and education in the first ten years of its 
establishment. Lessons learned from research and management in this 
remote part of the archipelago have also helped to transform management 
practices and science in the populated islands. Such momentum has 
helped to inspire the state government, all four counties, the 
University of Hawai'i, and the Office of Hawaiian Affairs to commit to 
the Hawai'i Green Growth initiative and goals of the Aloha+ Challenge.
The private sector
    It is particularly notable that looking out to the ocean will 
provide rich opportunities for businesses to innovate and develop new 
product lines in fields such as aquaculture, algae production, maritime 
technology, insurance, and renewable energy--alongside the ongoing 
revitalization and recovery of wild-capture fisheries and the growth of 
ocean-facing industries including shipping, ports, marine engineering 
and coastal tourism. Businesses (and municipal governments) would also 
benefit greatly from increasing their awareness of the many risks they 
face from accelerating ocean change--an awareness which is often 
lacking at present.
    Conservation International is partnering with universities, 
governmental and non-governmental organizations to develop the Natural 
Capital Protocol for the Ocean--a framework, case studies and guidance 
to help business leaders to assess these opportunities and the options 
available to them, by considering their dependencies and impacts on 
ocean natural capital.
National Security
    On a global scale, the human importance of the ocean becomes clear: 
The asset value of the global ocean has been estimated at $24 trillion; 
\1\ 2.4 billion people live within 100 kilometers of the coast; \2\ 90% 
of global trade is shipped; <SUP>2</SUP> more than 3 billion people 
depend on fish for at least 20% of their total animal protein intake; 
\3\ 93% of the heat released by climate change has been absorbed by our 
ocean; \4\ and the ocean provides 99% of the living space on planet 
`Earth'.
---------------------------------------------------------------------------
    \1\ WWF, Reviving the Ocean Economy--The Case for Action. 2015.
    \2\ United Nations, The Ocean Conference Factsheet: People and 
Oceans, 2017.
    \3\ FAO, Fish and human nutrition factsheet.
    \4\ IUCN, Explaining ocean warming: causes, scale, effects and 
consequences, 2016.
---------------------------------------------------------------------------
    Many of the most vulnerable communities--and the highest 
unemployment rates--are found in coastal and port communities, across a 
range of countries from Colombia to China. Sea-level rise and 
increasing impacts from hurricanes, storms and flooding is already 
exacerbating the situation, and this will only intensify in future. 
These social conditions often contribute to increased social unrest, 
illegal activity, and migration, which impacts on US national security 
interests. By investing to maintain healthy forests, wetlands, 
aquifers, and rivers, we can help blunt the impacts of natural 
disasters when they strike and make communities more resilient to 
extreme weather events.
    Targeted U.S. investment in international conservation efforts 
contributes to America's long-term foreign policy objectives and 
enhances U.S. economic and national security interests around the 
globe.
Science and data
    Conservation International employs economic analysis, innovative 
financing, and ocean science to support coastal communities, 
businesses, and policymakers in securing a positive, sustainable 
future.
    The Ocean Health Index has scientifically measured the state of the 
ocean for the past seven years. It is the first and only ocean 
assessment tool to scientifically assess key elements from all 
dimensions of the ocean's health--biological, physical, economic, and 
social--equipping managers and policymakers with meaningful information 
to help manage oceans sustainably. While the global average score has 
remained fairly stable at 70/100, the United States' ranking has 
dropped from 53rd in the world in 2014 to 91st in 2018; its score is 
now 68, below the global average. Significant declines have been seen 
in the US scores for fisheries, natural products, coastal protection, 
and biodiversity. The large decline in the coastal protection score, 
from 94 to 75, is in part due to a substantial loss in coastal sea ice 
in Alaska, as climate change impacts accelerate.
    More detailed regional Ocean Health Index assessments have been 
completed for the US west coast and for Hawai'i, providing insights to 
inform management decisions in those regions. Declines in coastal and 
ocean habitats in these regions are having negative consequences to 
ocean economies and livelihoods. For example, tourism in Hawai'i is 
directly linked to Hawai'i's unique natural environment, generating $24 
billion annually. But Hawai'i's alluring habitats are literally 
eroding--72% of Hawaii's beaches are shrinking, and up to 50% of coral 
cover has already been lost in some areas over the last five years, 
with greater losses projected to follow as oceans warm further.
    The ocean, once considered inexhaustible and unknowable, is now 
open for business. Understanding and respecting the resulting 
opportunities, dependencies and risks; encouraging innovation and new 
technologies; nurturing sustainable businesses; and ensuring that 
regulatory frameworks are agile and ready for the changes ahead will 
ensure that our ocean frontier will positively influence economies, 
communities and ecosystems for decades to come.

            Sincerely,

                                          Dawson J. Hunter,
                           Senior Director, U.S. Government Policy.

                                 ______
                                 

                                 Ocean Conservancy,
                                             Washington, DC

                                                   February 7, 2019

Hon. Jared Huffman, Chairman,
Hon. Tom McClintock, Ranking Member,
House Subcommittee on Water, Oceans, and Wildlife,
1324 Longworth House Office Building,
Washington, DC 20515.

Re: Subcommittee Hearing on Healthy Oceans and Healthy Economies: The 
        State of Our Oceans In the 21st Century

    Dear Chairman Huffman and Ranking Member McClintock:

    Thank you for the opportunity to provide input in regards to 
today's hearing. We commend the Subcommittee's leadership in addressing 
oceans and climate change, and urge continued focus and action on this 
critical issue as we move further into the 116th Congress.
    Ocean Conservancy creates science-based solutions for a healthy 
ocean and the wildlife and communities that depend on it. Climate 
change is one of the most pressing challenges for our ocean, and Ocean 
Conservancy has been deeply engaged in supporting solutions at the 
local, national, and global levels. Our work ranges from supporting 
ocean acidification funding and research, to fisheries management 
adaptation and modelling, to addressing ocean policy in venues like the 
International Maritime Organization and Arctic Council. The ocean is a 
system at risk, struggling to keep pace with rising temperatures, 
pollution, and the absorption of greenhouse gases. It is increasingly 
clear that urgent action is required to preserve the essential 
functioning of both the ocean and climate systems, and that saving one 
can't happen without saving the other. Congress must act on climate 
change. The science is clear, solutions are available here and now, and 
the ocean must be at the heart of climate action.
Why climate change matters to ocean and coastal communities
    The ocean and America's coastal communities are on the frontlines 
of climate change impacts. Thirty-nine million people live near the 
coast in the United States. They, and the ocean they depend on, are 
experiencing major risk from extreme weather events, sea level rise, 
high water temperatures, low dissolved oxygen levels, and ocean and 
coastal acidification. Extreme events associated with the ocean are 
projected to become more common and severe as these conditions 
intensify and intersect. All of this is putting jobs and resources at 
risk, including America's multi-billion dollar seafood and ocean and 
coastal recreation industries, and trillion dollar coastal property 
market. In addition, the recent Fourth National Climate Assessment 
(NCA4) report found that the impacts of climate change along our coasts 
are actively worsening social inequality (NCA4, Chapter 1). American 
lives, livelihoods, and culture are at risk.

    Below are just a few examples of how climate change is dramatically 
affecting ocean and coastal communities and economies:
Sea level rise
    Repeated tidal flooding, coupled with sea level rise and heavy 
precipitation events, are already significantly harming America's 
public infrastructure and trillion-dollar coastal property market. 
Global average sea level has risen by about 7-8 inches since 1900, with 
almost half this rise occurring since 1993 as oceans have warmed and 
land-based ice has melted. Sea level rise, driven by expansion of 
warming seawater and melting of glaciers, now causes regular flooding 
in coastal communities around our country--euphemistically called 
``sunny day flooding'' or ``king tides.'' 50 million housing units are 
within 1/8 of a mile of the coast, and projections suggest that between 
$66 and $106 billion of real estate value may be underwater by 2050 
(NCA4, Chapter 8). Moreover, 60,000 miles of roads and bridges are 
located along the coast (NCA4, Chapter 12), and many if not most of 
these will need to be repaired or relocated. These costs will become an 
increasing economic liability for municipalities and programs like the 
National Flood Insurance Program, which may become insolvent when 
properties become unsellable (NCA4, Chapter 8).
    Around the country, costs of forced adaptation are already 
mounting. In Florida, there are already 120,000 properties at risk from 
frequent tidal flooding (NCA4, Chapter 19). Sea level around Florida is 
8 inches higher than it was in 1950, and the state is planning over $4 
billion in sea level rise solutions (SeaLevelRise.org). Cities like 
Miami are installing pumps to remove floodwaters from coastal streets. 
Some communities are considering leaving the coastal zone altogether: 
the Biloxi-Choctaw tribe in Louisiana has a $48 million grant from the 
Federal Government to develop a relocation plan (NCA4, Chapter 15). In 
California alone, the cost to elevate ports to withstand 6 feet of sea 
level rise could be $12 billion (NCA4, Chapter 8). The nation's largest 
naval base, in Norfolk Virginia, is at major risk from sea level rise, 
a fact acknowledged by the Department of Defense (January 2019 Report 
of Effects of a Changing Climate to the Department of Defense).
Fisheries
    U.S. commercial and recreational fisheries generate $212 billion in 
sales impacts each year (Fisheries Economics of the United States 
Report, 2016) and are a critical economic driver for thousands of 
coastal communities. But ocean warming, acidification, and oxygen loss 
are rapidly altering the abundance, productivity, and distribution of 
fish stocks. These impacts on fish are resulting in a cascade of 
management and sustainability challenges, which impact fishermen and 
fishing communities.
    In ocean waters, species distributions are shifting at an estimated 
70 kilometers per decade (Poloczanska et al., 2013), with most species 
moving poleward or to deeper waters as the oceans warm (NCA4, Chapter 
9). Scientists expect 10-50 percent decline in fish from warmer regions 
by 2085 (NCA4, Chapter 9), while catch could increase elsewhere. Warm 
water has already contributed to overfishing of the iconic Atlantic cod 
in the Gulf of Maine, and negatively affected the allowable catch of 
Pacific cod in the Gulf of Alaska and the Bering Sea. American lobster 
has experienced a major range shift, with its center of abundance 
having moved 3 degrees north in latitude from Long Island to Maine. The 
Gulf of Maine has warmed faster than 99 percent of the rest of the 
global ocean in the last century; by 2050 lobster populations could be 
cut by more than half with continued warming (La Bris et al., 2018). As 
stocks move, research suggests fisheries have only been able to shift 
10-30 percent as much as their target species, likely due to economic 
and regulatory constraints (Pinsky and Fogarty, 2012). Changing ocean 
conditions will also affect the productivity of fish stocks by 
influencing habitat suitability, interactions between predators and 
prey, and the life history parameters of fish such as growth and 
recruitment (Karp et al. 2018). These changes in productivity make it 
more difficult to define and achieve management targets (Karp et al. 
2018).
    With changing abundance and distribution of fish stocks, changes in 
fishing patterns follow, and commercial, recreational, and subsistence 
fishermen are on the front lines. A survey of commercial fishermen in 
the Northeast found that the majority attributed changes they saw to 
climate change and 65 percent believed that climate change would 
ultimately force them out of their fishery (Center for American 
Progress, 2014). Climate change is also already affecting U.S. fishery 
management as species shift their distributions and productivity is 
altered. Among the pressing issues are jurisdictional and boundary 
conflicts for managing stocks, coordination and allocation issues among 
and across states and regions, the need to manage new and emerging 
fisheries, and increased costs for fishermen to pursue fisheries over 
longer distances. Taken together, these issues make fisheries harvests 
less secure and complicate management of both fisheries and protected 
species. Recognizing the urgency of these issues, the National Oceanic 
and Atmospheric Administration (NOAA), the Regional Fishery Management 
Councils, and others are working to refine the science, assess fish and 
community vulnerabilities, incorporate insights into planning and 
decision-making, and develop a more climate-ready fishery management 
system (for example, see Link et al. NOAA Fisheries, 2015).
Arctic
    The potential impacts from climate change and acidification in the 
U.S. Arctic warrant particular attention. The Arctic region is warming 
at twice the rate of the rest of the planet. This warming is already 
causing significant effects in Alaska, America's only Arctic state, 
some of which ripple through the rest of the United States. Alaska 
marine ecosystems and coastal communities are inextricably linked and, 
together, they are threatened by climate change. Coastal communities 
are being forced to relocate as homes and other infrastructure erode 
into the ocean. Warming is also disrupting subsistence that has existed 
in coastal communities for millennia, including making hunting more 
dangerous and less predictable, which contributes to the loss of food 
security and cultural continuity.
    Warming is causing the loss of sea ice. The 2018 sea ice minimum 
was tied for the sixth lowest on record, and NASA scientists estimate 
that approximately 21,000 square miles of ice--an area the size of 
Maryland and New Jersey--has been lost for each year since the late 
1970s (Earth Observatory 2018). The loss of sea ice is disrupting 
marine ecosystems and contributing to erosion and other impacts. It is 
also opening the region to other industrial activities--like oil and 
gas exploration and development and commercial fishing--in addition to 
increasing vessel traffic. These changes, in turn, are having profound 
impacts on maritime transportation in the Arctic. Vessel traffic in the 
Arctic has already grown significantly, and is poised to increase 
rapidly in coming years as the ice-free season lengthens. As vessel 
traffic increases, so too does the potential for significant impacts to 
residents of the region and to the marine ecosystem.
    Warming ocean conditions are also affecting commercial, 
recreational, and subsistence fisheries in Alaska. Pacific cod 
populations in the Gulf of Alaska have diminished by more than 80 
percent, and that loss has been attributed to a ``warm blob'' of ocean 
water in the Pacific. Pacific cod has also seen a significant decline 
in the Bering Sea. The reduction in cod had dramatic impacts of the 
Pacific cod fishery, which has been worth as much as $50 million per 
year in the past. The warm blob has also been linked to sea bird die-
offs, whale strandings, and algal blooms (Seattle Times, 2017). Arctic 
waters are particularly susceptible to ocean acidification because they 
are colder and because freshwater inputs from melting glaciers make 
them less saline. Acidification will have dramatic effects on Arctic 
marine ecosystems by disrupting the base of a fragile food web.
Why climate change matters to ocean ecosystems
    The ocean is our largest single buffer against climate change. It 
is the Earth's largest heat and carbon sink: it has absorbed 93 percent 
of the excess heat generated by industrial-era carbon dioxide 
emissions, and it captures nearly 30 percent of the carbon dioxide 
released into the atmosphere every year. Recent headlines have 
highlighted new research that suggests the ocean is storing even more 
heat than previously estimated (Cheng et al. 2019). Ocean surface 
waters have warmed 0.7 degrees Celsius since 1990. Dissolved oxygen in 
the ocean is falling because warmer water holds less oxygen and 
decreased circulation is causing oceans to become increasingly 
stratified; these impacts have already been detected as far as 1000 
feet below the surface. By 2050, 86 percent of the ocean will see 
temperature and ocean acidification conditions that modern ecosystems 
and species have never experienced (NCA4, Chapter 9). Each new 
scientific assessment confirms that the pace and scale of change is 
greater than scientists previously thought.

    Below are just a few examples of how these changes are dramatically 
affecting the functioning of ocean ecosystems:
Mass disruption of ocean ecosystems and food webs
    The NCA4 report found that changing ocean conditions and increasing 
temperatures are already causing the loss of important habitats and 
changing food webs and species distributions, an effect that will only 
increase as warming, acidification, and oxygen loss continue.
    In one dramatic example, just last week a new study from Cornell 
University documented that sea star wasting syndrome, a climate-change 
driven disease, has virtually extirpated Pycnopodia helianthoides 
(colloquially called the sunflower star) along a 3,000 mile stretch of 
the West coast (Harvell et al. 2019). This loss is threatening the 
survival of kelp forest ecosystems. A classic example of a ``keystone 
species'', sunflower stars keep purple sea urchin populations in check, 
which in turn allows giant kelp to grow prolifically, creating the 
physical structure that harbors all the other species that collectively 
comprise the kelp forest. Science warns that without Pycnopodia--and 
the other sea stars killed by the wasting disease--there could be no 
kelp forests. And that is what is happening. As sea star abundances 
have tumbled across the west coast, the abundance of kelp has likewise 
fallen and these once vibrant habitats have increasingly become barren 
zones dominated by sea urchins. This is just one example of the types 
of major trophic cascades ocean scientists are anticipating as a result 
of climate change.
Ocean Acidification
    One of the major drivers of atmospheric climate change, carbon 
dioxide, is also responsible for driving ocean climate change by 
causing ocean acidification. Carbon dioxide dissolved in water creates 
carbonic acid, which changes not only the pH of oceans but also other 
chemical balances important for marine life. Thirty-year ocean time-
series datasets provide direct evidence of this process worldwide (2018 
2nd State of the Carbon Cycle Report: Chapter 17).
    In the mid-2000s, mass mortality at shellfish hatcheries in the 
Pacific Northwest alerted the shellfish aquaculture industry to a major 
systemic problem. Partnering with federal and university researchers, 
they identified the problem as ocean acidification, caused by fossil 
fuel emissions absorbed by the Pacific Ocean over the last several 
decades, upwelled to coastal waters decades earlier than previously 
predicted (Feely et al., 2008, Science). To protect multi-generational 
businesses that support an industry employing thousands of people and 
sustaining the entire Pacific oyster industry, hatchery owners invested 
in ``future proofing'' steps such as monitoring seawater intakes, 
modifying the water chemistry of intake water, and researching the 
prospects for selective breeding to help safeguard the industry. At the 
same time, research on other impacts of ocean acidification took off. 
Since ocean acidification was identified as a threat to marine life, 
laboratory studies have shown it can alter fish and marine invertebrate 
reproductive success (e.g., Kroeker et al. 2013), fish and shark 
behavior (Dixson et al. 2010), and predator-prey relationships. 
Modeling studies suggest that these effects together have the power to 
decrease fishery yields of lucrative fisheries such as sea scallops 
(Cooley et al. 2018), red king and Tanner crabs (Punt et al. 2016), and 
Puget Sound fisheries (Busch et al. 2013). Surprisingly, preliminary 
studies suggest that OA worsens the toxicity of harmful algal blooms by 
increasing domoic acid toxin production (Sun et al. 2011), and it can 
decrease the flavor and food appeal of northern shrimp (Dupont et al. 
2014). It is clear that the full effects of ocean acidification on 
marine life are still being determined, but we know that it can 
interact in subtle and difficult to predict ways with other marine 
drivers like warming, oxygen loss, and nitrogen loading.
Loss of Coral Reefs
    Coral reef survival, along with the ecosystem and storm buffering 
services they provide, are at significant risk from warming and 
acidifying oceans. In the United States, coral reefs fringe the warm-
water coastlines around Florida and Hawaii and territories of Puerto 
Rico, Guam, American Samoa, and the U.S. Virgin Islands. The past 
several summers in Hawaii, Guam, and the Commonwealth of the Northern 
Mariana Islands, widespread coral bleaching occurred. The 2015 event 
killed approximately half of the coral cover in Western Hawaii (NCA4, 
Ch. 27). Cold-water-loving coral species also ring the entire coast, 
from Alaska to Hawaii. Both warm and cold-water reefs provide vital 
habitat for a wide variety of marine life, many of which are species 
that sustain economically important fisheries. In addition, reefs in 
shallow waters also help protect coasts from waves, acting like ``speed 
bumps'' that help dissipate wave energy. Erosion of reefs in Florida, 
U.S. Virgin Islands, and Hawaii from the combined effects of wave 
action, storms, and acidification is changing the seafloor topography 
enough that changes in wave runup on land can be expected. Losses of 
$140 billion in recreational revenue alone are projected from loss of 
coral reefs by 2100 (4th US Climate Assessment, Ch. 9). With forecasts 
calling for increased flooding threats from hurricanes that carry extra 
precipitation because of anthropogenic climate change (Patricola and 
Wehner, 2018), it is essential to maintain these invisible coastal 
protections that help defend against wave-based flooding.
Solutions: Ocean-based mitigation and adaptation
    The ocean, and the coastal communities and economies that depend on 
it, are an important part of the solutions to climate change. The 
fundamental solution to ocean warming and acidification is decreasing 
atmospheric greenhouse gas levels, particularly carbon dioxide, and the 
ocean can help us to do that. In addition, even if we stopped emitting 
greenhouse gases today, there would still be years of ``momentum'' in 
the system, as existing atmospheric greenhouse gases continue to warm 
and acidify the ocean. As we work toward reducing our carbon footprint, 
there are concurrent steps that should be taken to decrease other ocean 
stressors and to support adaptation to ocean climate change.

The ocean can help us reduce our carbon footprint.

    The ocean is more than a victim of climate change. It is a 
potential solution to the mitigation targets we must achieve to keep 
global temperatures below 2 degrees Celsius. The ocean provides 
critical carbon sinks, such as ``blue carbon'' ecosystems (mangroves, 
seagrasses, and tidal marshes, which have the added benefit of 
insulating communities from the effects of sea level rise and storm 
surges) and other elements of a living ocean. The ocean also provides 
important opportunities for decarbonization, such as clean energy via 
offshore renewables like wind and wave power, and reduction in 
emissions from offshore activities such as shipping and drilling. For 
example, shipping accounts for about 90 percent of global trade, and 
emission of greenhouse gases from shipping represent 2-3 percent of 
total global emissions. It is possible to reduce or eliminate these 
emissions using short-term measures such as design and technology 
solutions for new ships, adoption of low-carbon fuels, reduction of 
black carbon emissions, and mandatory speed reductions. These solutions 
should be addressed with industry in the dialogue as we work to develop 
a holistic approach to carbon reduction. Regardless of the mitigation 
mechanisms employed, any mitigation targets should include a specific 
focus on CO2, since CO2 has a significantly greater impact on the ocean 
by causing ocean acidification.

Ocean communities, industries and ecosystems need resources and support 
to secure long-term adaptation & resilience.

    As noted above, the ocean impacts of climate change present 
significant and growing risks to coastal communities, economies, and 
ecosystems. We must invest in making them resilient to the climate 
change impacts we can't avoid. Functioning fisheries are needed to 
support populations, and healthy ecosystems are needed to protect 
coastlines. Protecting coastal and marine ecosystems against the 
adverse effects of climate change is vital for human and ecosystem 
adaptation and, in many cases, also contributes to reduction of 
emissions. Reducing anthropogenic stressors on the oceans, such as 
overfishing and other unsustainable exploitation of marine resources, 
habitat degradation, pollution and nutrient runoff, may also enhance 
the ocean's capacity to absorb the impacts of climate change and reduce 
the acidifying impact of CO2 emissions. We need to ensure the actions 
we take are designed with a changing climate and the goal of building 
resilience in mind.

    In particular, we recommend focusing on two key approaches to 
adaptation and resilience:
    Work to decrease ocean stressors: Studies show that multiple 
layered drivers on ocean ecosystems have a greater chance of acting 
synergistically--that is, exerting more stress on ocean life together 
than they would singly, or simply added together--than to counteract 
each other (Harley et al. 2006). This implies that reducing as many 
ocean drivers as possible, to reduce overall stress on ocean life, is 
warranted. Actions to reduce ocean stressors should include activities 
to combat things like oxygen loss, nitrogen pollution, sedimentation, 
disease, and other types of chemical pollution (Kelly & Caldwell, 
2013). Marine resource management has sought to reduce these problems 
as part of general water quality improvement for decades, with 
progressive success in doing so (Cote et al. 2017), but the need is 
even more pressing in the face of climate change. Preventing the 
expansion of offshore oil and gas activities, especially in sensitive 
or remote places where the risks of these activities far outweigh any 
potential benefits, is also an important way to decrease additional 
ocean stressors. Decreasing marine pollution and other stressors to 
ecosystems is a ``no-regrets'' policy approach because of the multiple 
benefits that accrue--both the immediate value of reducing single 
stressors, and the likely synergistic effect of the stressors acting 
together (Cote et al. 2017).
    In the Arctic in particular, we can put in place measures and best 
practices that will both decrease unnecessary ocean stressors and 
increase safety and protect communities. We can take common-sense steps 
to prevent maritime accidents from happening, such as implementing 
targeted vessel routing measures, tightening limitations on discharges 
into the water, supporting advancements in vessel tracking and 
communication, and improving nautical charts. We can also improve our 
ability to respond effectively if an accident does occur by increasing 
spill response equipment and training in local communities, continuing 
to fund design and construction of new ice-breaking polar security 
cutters and supporting seasonal Arctic Shield operations and additional 
Coast Guard outreach activities in Arctic communities.

    Support community adaptation planning: To date, ocean climate 
change has driven piecemeal adaptation. As more adaptation efforts 
begin, there is an increasing risk that overlapping, uncoordinated 
efforts could be at best inefficient and at worst interfere with each 
other. Around the world, nations are currently planning both mitigation 
and adaptation actions to address climate change as part of their 
Nationally Determined Contributions under the Paris Agreement, but 
little guidance exists to ensure coordination and inclusion of the 
ocean in these activities. A similar dynamic exists within the U.S., 
where state and local governments nationwide are at widely different 
stages and levels of coordination in adopting ocean-smart climate 
policies.
    Resources and support for long-term resilience and adaptation 
planning are desperately needed. At a minimum, this should include 
support for regional ocean planning through tools that support 
coordinated data and management like regional ocean data portals. 
Comprehensive planning approaches underpin community and ecosystem 
resilience and ecosystem-based management. States and regional ocean 
partnerships across the country have found value in comprehensive 
planning, and resources should support the priorities outlined by 
states. It should also include support for policies and programs, 
particularly those within NOAA, that support ocean and coastal 
resilience. This includes priorities such as ocean acidification 
monitoring and funding, ocean and coastal habitat and coral reef 
restoration, and fisheries management adaptation. In addition, there is 
a particular need to increase resilience and adaptation planning in the 
Arctic. Funding and support is needed for communities that must 
relocate, and there are opportunities to plan for coming changes and 
ensure that Alaskan communities, ecosystems, and economies will be 
resilient in a changing future.
Growing Global Momentum for Ocean-Climate Action
    We are seeing energy for coordinated, ocean-focused action on 
climate change occurring at the local and regional levels, and we are 
also seeing it at the international level. There is excellent 
interagency work happening on climate change through the U.S. federal 
agencies. All of this action has not been matched by action at the 
federal legislative or executive level. This must change.
    Ocean acidification, until recently an issue unknown outside the 
science community, has been the cause of much regional organizing. In 
the United States, scientists are joining largely self-organized groups 
such as the Global OA Observing Network (GOA-ON), the regional Coastal 
Acidification Networks (CANs) associated with the OOS network. These 
groups are also engaging regional industry and resource management 
experts, as well as educators and science communicators. As a result, 
lessons learned in one region are being transferred to other regions, 
accelerating the application of adaptive solutions and technology to 
monitor ocean climate change. This bottom-up energy has recently 
contributed to the creation of the International OA Alliance, a non-
binding network of governments and nongovernmental members dedicated to 
enhancing ambitions to reduce CO2 emissions, sharing knowledge about 
ocean acidification, increasing actions to address it, and 
international capacity building efforts, through programs like the 
International Ocean Acidification Coordination Centre (OA-ICC), funded 
by the International Atomic Energy Agency.
    Regions across the U.S. are also focusing on oceans and climate 
change more broadly. The recent Global Climate Action Summit, led by 
the state of California, is one prominent example where oceans were at 
the fore of the discussion. Other examples include the work of the 
Arctic Council and Pacific Coast Collaborative. In the international 
sphere, there is growing energy to address ocean issues in 
international climate policy, evidenced by the push to include ocean-
focused actions in Nationally Determined Contributions as well as large 
number of ocean-focused meetings and panels at U.N. climate meetings 
over the past year.
Conclusion: U.S. Action is Needed Now
    The time is right for the United States to consider how it can 
safeguard ocean resources and ecosystems for now and into the future. 
Heightening ambitions to cut carbon dioxide is a necessary first step 
to genuinely address ocean warming and acidification. Considering how 
climate-focused action, or inaction, impacts the ocean is also a 
necessary step. Plans for climate adaptation must be coordinated. 
States and regions are taking steps to do so, which can be learned 
from, exported, and applied to other areas to accelerate action.
    Congress must debate and move aggressive climate legislation that 
will ensure communities and ecosystems are spared the most devastating 
potential impacts from climate change, and are able to successfully 
adapt to those they can't avoid. That work must start now. But in 
addition, Congress can and must take action immediately using the tools 
we already have. This spring Congress will take up appropriations 
legislation for the next fiscal year. Those bills must prioritize 
critical funding for the climate research, coastal resilience, and 
adaptation programs that are already working to tackle our climate 
challenges.
    Ocean climate change is happening now. It will get worse before it 
gets better. Congress must act now to curb climate change and plan to 
protect coastal communities as pro-actively as we can from the changes 
that are coming.

            Sincerely,

                                       Janis Searles Jones,
                                                               CEO.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Submission for the Record by Rep. Bishop

  --  ``Grazing management impacts on vegetation, soil biota 
            and soil chemical, physical and hydrological 
            properties in tall grass prairie,'' by W.R. 
            Teaguea, S.L. Dowhowera, S.A. Baker, N. Haile, P.B. 
            DeLaune, D.M. Conovera, Agriculture, Ecosystems and 
            Environment, 141(2011)310-322.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
